<html>
<title> - EMERGING UNITED STATES DEFENSE CHALLENGES AND WORLDWIDE THREATS</title>
<body><pre>[Senate Hearing 114-626]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-626

    EMERGING UNITED STATES DEFENSE CHALLENGES AND WORLDWIDE THREATS

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                    FEBRUARY 9 AND DECEMBER 6, 2016

                               __________

         Printed for the use of the Committee on Armed Services




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








        Available via the World Wide Web: http://www.fdsys.gov/

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-336 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

















                      COMMITTEE ON ARMED SERVICES

  JOHN McCAIN, Arizona, Chairman        JACK REED, Rhode Island
JAMES M. INHOFE, Oklahoma               BILL NELSON, Florida
JEFF SESSIONS, Alabama                  CLAIRE McCASKILL, Missouri
ROGER F. WICKER, Mississippi            JOE MANCHIN III, West Virginia
KELLY AYOTTE, New Hampshire             JEANNE SHAHEEN, New Hampshire
DEB FISCHER, Nebraska                   KIRSTEN E. GILLIBRAND, New York
TOM COTTON, Arkansas                    RICHARD BLUMENTHAL, Connecticut
MIKE ROUNDS, South Dakota               JOE DONNELLY, Indiana
JONI ERNST, Iowa                        MAZIE K. HIRONO, Hawaii
THOM TILLIS, North Carolina             TIM KAINE, Virginia
DAN SULLIVAN, Alaska                    ANGUS S. KING, JR., Maine
MIKE LEE, Utah                          MARTIN HEINRICH, New Mexico
LINDSEY GRAHAM, South Carolina
TED CRUZ, Texas                      
                                     
                   Christian D. Brose, Staff Director
                   Elizabeth L. King, Minority Staff 
                                     Director

                                  (ii)
























                         C O N T E N T S

________________________________________________________________________

                            February 9, 2016

                                                                   Page

Worldwide Threats................................................     1

Clapper, Honorable James R., Jr., Director of National                5
  Intelligence.
Stewart, Lieutenant General Vincent R., USMC, Director of the        43
  Defense Intelligence Agency.

                            December 6, 2016

                                                                   Page

Emerging United States Defense Challenges and Worldwide Threats..    95

Keane, General John M., USA (Ret.), Chairman, Institute for the      99
  Study of War, and Former Vice Chief of Staff of the Army.
Brimley, Shawn, Executive Vice President and Director of Studies,   110
  The Center for a New American Security.
Kagan, Robert, Senior Fellow, Project on International Order and    121
  Strategy, The Brookings Institution.

                                 (iii)


                           WORLDWIDE THREATS

                              ----------                              


                       TUESDAY, FEBRUARY 9, 2016

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, 
Sessions, Ayotte, Fischer, Cotton, Rounds, Ernst, Sullivan, 
Lee, Reed, Nelson, McCaskill, Manchin, Gillibrand, Blumenthal, 
Donnelly, Hirono, Kaine, King, and Heinrich.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Well, good morning. The Senate Armed 
Services Committee meets this morning to receiving testimony on 
the global threats faced by the United States and our allies as 
part of our oversight of the President's Defense Budget Request 
for Fiscal Year 2017.
    I'd like to welcome back Director of National Intelligence 
James Clapper and the Director of the Defense Intelligence 
Agency, General Vincent Stewart.
    As this is likely his final appearance before this 
committee at our annual Worldwide Threats hearing, I'd like to 
thank Director Clapper for over five decades of service to 
protecting our country. Director Clapper, and particularly we 
thank you for leading the men and women who strive every day to 
collect and analyze the information that helps keep America 
strong. I thank you for being with us today. I've had the honor 
of knowing you for a long time, and I know of no individual who 
has served this Nation with more distinction and honor. We're 
grateful for your service. We know that that service will 
continue in the years to come.
    The list of the threats confronting our Nation is drearily 
familiar, yet it is impossible to say we have seen much 
improvement. In Afghanistan, 9,800 American troops are still in 
harm's way, the Taliban, al-Qaeda, and the Haqqani Network 
continue to threaten our interests in Afghanistan and beyond. 
Now ISIL [the Islamic State of Iraq and the Levant] has arrived 
on the battlefield, raising the specter of yet another ISIL 
safe--to plan and execute attacks; regional order in the Middle 
East is breaking down, and this power vacuum is being filled by 
the most extreme and anti-American of forces; Sunni terrorist 
groups such as ISIL and al-Qaeda; Shiite extremists, such as 
the Islamic Republic of Iran and its proxies; and the imperial 
ambitions of Vladimir Putin. ISIL has consolidated control over 
key territories in Syria and Iraq. It is metastasizing around 
the region and expanding globally from Afghanistan, as I said, 
as well as to Lebanon, Yemen, Egypt, and, most worryingly, to 
Libya. It has also conducted or inspired attacks from Beirut to 
Istanbul, Paris to San Bernardino. More than a year into our 
military campaign against ISIL, it's impossible to say ISIL is 
losing and we are winning.
    At the same time, Iran continues to challenge regional 
order in the Middle East by developing a ballistic missile 
capability, supporting terrorism, training and arming pro-
Iranian militant groups, and engaging in other malign 
activities in places such--Iraq, Syria, Lebanon, Gaza, Bahrain, 
and Yemen. As the Islamic Republic receives tens of billions of 
dollars in sanctions relief from the nuclear deal, it's obvious 
that these activities will only increase.
    Russia annexed Crimea and continues to destabilize Ukraine 
with troubling implications for security in Europe. Putin's 
intervention in Syria has undermined negotiations to end the 
conflict by convincing Assad and his allies they can win.
    In Asia, North Korea continues to develop its nuclear 
arsenal and ever more capable ballistic missiles, one of which 
it tested this weekend, in violation of multiple U.N. Security 
Council resolutions.
    China continues its rapid military modernization while 
taking coercive actions to assert expansive territorial claims. 
At the time of this hearing last year, China had reclaimed a 
total of 400 acres in the Spratly Islands. Today, that figure 
is a staggering 3,200 acres, with extensive infrastructure 
construction underway or already complete.
    I look forward to our witnesses' assessment of the nature 
and scope of these challenges and how the intelligence 
community prioritizes and approaches the diverse and complex 
threats we face. As policymakers, we look to the intelligence 
community to provide timely and accurate information about the 
nature of the threats we face and the intentions of our 
adversaries. We have high expectations of our intelligence 
community, as we should, and as they do of themselves. However, 
we cannot afford to believe that our intelligence agencies are 
omniscient and omnipresent, especially after years of 
sequestration and arbitrary budget caps that have damaged our 
Nation's intelligence every bit as much as they have the rest 
of our national defense.
    Unfortunately, this misperception is only fed by the 
prideful assertions of politicians seeking to justify their 
policies. For example, during the Iran deal, we were told that 
the United States has, quote, ``absolute knowledge about Iran's 
nuclear military activities.'' We were told that the deal, 
quote, ``absolutely guarantees that we will know if Iran cheats 
and pursues a nuclear option.'' This hubris is dangerously 
misleading and compromises the integrity of our debate over 
important questions of U.S. national security policy.
    Americans must know that intelligence is not like in the 
movies. Although our intelligence professionals are the best in 
the world, there will not always be a satellite in position or 
a drone overhead, and not every terrorist phone call will be 
intercepted. Whether it is Russian military activities on the 
border of NATO [the North Atlantic Treaty Organization] or the 
movement of terrorist groups across the world or of any of the 
other number of hard targets that we expect our intelligence 
community to penetrate and understand, we will not always know 
how our adversaries make decisions, let alone understand their 
implications.
    This is doubly true if we further constrain our Nation's 
intelligence professionals through policy decisions that limit 
their effectiveness. Our intelligence capacity and capability 
are just like anything else, constrained by the limitations of 
time, space, technology, resources, and policy. As one senior 
U.S. official acknowledged about limited understanding of ISIL 
2 years ago, quote, ``A lot of the intelligence collection that 
we were receiving diminished significantly following the United 
States withdrawal in Iraq in 2011, when we lost some of the 
boots-on-the-ground view of what was going on.'' Put simply, if 
our national leaders decide not to be present in places, we 
should not be surprised later when we lack sufficient 
intelligence about the threats and dangers that are emerging 
there.
    As we receive this important intelligence update today, we 
must remember that it is the responsibility of policymakers, 
from the White House to the Pentagon to here on Capitol Hill, 
to invest in cutting-edge capabilities that can provide early 
indication and warning as well as to provide our intelligence 
professionals with sound policy decisions and support, 
including, at times, military support that enable them to 
perform their often dangerous and always important work on 
behalf of our Nation. If we fail to make these commitments, we 
will continue to be surprised by events at an ever increasing 
cost to our national security.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman.
    Let me join you in welcoming the Director of National 
Intelligence, General Clapper, and Director of Defense 
Intelligence Agency, General Stewart. Your long service, both 
of you gentlemen, to the Nation is deserving of praise.
    I particularly want to echo the Chairman's comments, 
General Clapper, about your distinguished service and your 
continued service, I'm sure.
    Thank you, gentlemen.
    We live at a time when there is a complex array of threats 
facing the United States, some immediate, some in the future. 
It is a challenge to both the administration and Congress to 
decide how to allocate our Nation's finite resources to address 
those threats. Your testimony today will provide needed insight 
for our committee on that challenge.
    In Afghanistan, for example, the security and political 
environments both remain challenging. The Taliban have sought 
to take advantage of the still maturing Afghan Security Forces 
by increasing their operational tempo, especially in rural 
areas. Also, an ISIL affiliate has entered the battlefield in 
the form of the so-called Islamic State in the Khorasan 
Province, or ISKP. All the while, remnants of al-Qaeda continue 
to seek a resurgence. Pakistani army operations across the 
border have added to the dynamic by pushing other bad actors, 
including the Pakistan Taliban and Haqqani Network into 
Afghanistan. I look forward to the assessment of our witnesses 
of these security challenges for the coming year and the 
prospects of reconciliation between the Afghan government and 
the Taliban.
    While ISIL controls less territory in Iraq and Syria than 
it did a year ago, it remains a significant threat to regional 
stability, the United States, and our allies. As our efforts to 
support the Iraqi Security Forces and local forces in Syria 
continue, there are a number of questions we may not--must ask. 
What local forces will serve as the whole force once ISIL is 
removed from Mosul, Raqqa, and the surrounding areas? How will 
Iran seek to advance its interests in Iraq? How will Turkey 
respond to the threat posed by ISIL within its borders? Will 
our partners across the Gulf unify their efforts in Syria? How 
will ISIL react within Iraq and Syria and transregionally as it 
is put under increasing amounts of pressure? These are 
questions our military forces must factor into their planning 
efforts in order to ensure the success of our campaign. Again, 
I look forward to your assessments on these important issues.
    The past year has seen substantial changes in the nature of 
the international community's relationship with Iran. The Joint 
Comprehensive Plan of Action [JCPOA] between the so-called P5+1 
and Iran has halted and rolled back dangerous elements of 
Iran's nuclear program and, critically, has placed it under the 
most comprehensive and rigorous verification regime ever 
assembled. I hope our witnesses will provide their assessment 
of the likelihood of Iran complying with this agreement over 
its term.
    While the JCPOA made substantial progress with respect to 
Iran's nuclear program, it also enabled Iran to return to the 
international economic community. This presents the United 
States and our partners in the Middle East with an adversary 
with additional resources they may use to support its proxies 
in places like Syria, Lebanon, Yemen, and other locations in 
the Gulf. Iran may also choose to use these additional 
resources to advance its missile program. Iran's decisions in 
these respects will be a key metric as we evaluate how to array 
our forces across the Gulf and what assistance our partners 
across the region will require to confront Iran. I would 
welcome our witnesses' assessment of the Gulf nations' current 
capacity to counter Iran's proxies and unconventional forces, 
and where this committee should consider additional investments 
to better support our partners' requirements.
    Russia's posturing and increasingly aggressive acts in 
eastern Europe and in the Middle East are something we must 
continue to monitor, contain, and, when necessary, counter. The 
President's decision to increase funding for the European 
Reassurance Initiative is a critical step. We must keep a 
watchful eye on the Putin regime, particularly his use of 
conventional and unconventional tactics to bully its neighbors 
and others.
    Russia's Syrian campaign has, for the moment, eclipsed its 
aggression into Crimea and Ukraine as the most serious 
flashpoint in United States-Russian relations. In Syria, Russia 
continues to bolster the military of the Bashar al-Assad regime 
while simultaneously running an information operations campaign 
to suggest that its military operations are instead focused 
against the Islamic State. Unlike Russia's obscured hand in 
Ukraine, its actions in Syria are being played out in daily 
headlines that report on Russia's indiscriminate bombing and 
its support of the Syrian regime in areas where moderate forces 
are aiming to get out from under the rule of the Assad regime. 
This is a complex problem for the United States, the coalition 
fighting ISIL, and our friends and allies in the region. I look 
forward to hearing how the intelligence community sees this 
situation and how the United States can best protect and 
advance our interests.
    North Korea presents an immediate and present danger to 
global security. The regime conducted a rocket launch just a 
few days ago, in violation of multiple U.N. [United Nations] 
Security Council resolutions following its January nuclear 
test. While China could exert pressure on North Korea through 
economic sanctions to encourage the regime to desist, the Xi 
administration prefers to remain on good terms with the North 
Korean regime, putting the entire region at risk. Without 
China's cooperation, it is clear that North Korea will continue 
to develop its nuclear and ballistic missile capability.
    China continues to invest aggressively, itself, in its 
military, particularly in capabilities that allow China to 
project power and deny access to others. While China's economy 
has experienced the most significant challenges in recent 
memory, China is continuing its aggressive efforts to solidify 
its claims in the South China Sea, despite the protests of its 
sovereign neighbors. It is critical that we enhance our 
partnerships with others across the region to bring China into 
the rule of law based on a global regime that will guarantee 
peace and prosperity across the region.
    It's also critical that we use all of the Nation's tools to 
ensure that China's continued theft of our intellectual 
property is put to a halt. I will look forward to your views 
regarding China's adherence to President Xi's pledge to 
President Obama to cease such economic espionage.
    An area of equal concern is the threats and opportunities 
presented by cyberspace. From a military standpoint, our forces 
remain dependent on our ability to collect intelligence, 
conduct defensive cyberoperations to protect our networks and 
also our intellectual property, and, as appropriate, to counter 
with offensive cyberoperations, including actions against 
certain adversaries who utilize the Internet for recruitment, 
propaganda, and command and control. We look forward to our 
witnesses' assessment of these approaches.
    Again, let me thank you, gentlemen, for your service. I 
look forward to your testimony.
    Chairman McCain. Director Clapper.

   STATEMENT OF HONORABLE JAMES R. CLAPPER, JR., DIRECTOR OF 
                     NATIONAL INTELLIGENCE

    Mr. Clapper. Chairman McCain, Ranking Member Reed, and 
distinguished members of the committee, first, thank you both 
for your acknowledgment of my service. It was--last week marked 
55 years since I enlisted in the Marine Corps Reserve. I'm very 
proud of that.
    Chairman McCain. In an auspicious----
    Mr. Clapper. I'm proud to be sitting next to one.
    Chairman McCain. In an auspicious beginning.
    Mr. Clapper. I also, Chairman McCain, would want to thank 
you for your acknowledgment of the great men and women who work 
in the intelligence community for both of us. I also appreciate 
your, I thought, very accurate statement about the capabilities 
of the intelligence community, what we can and can't do, and 
what it is reasonable to expect and not to expect us to do. I 
appreciate that.
    General Stewart and I are here today to update you on some, 
but certainly not all, of the pressing intelligence and 
national security issues facing our Nation. After listening to 
both of your statements, I think you're going to hear some 
echos here. So, in the interest of time and to get to your 
questions, we'll just cover some of the wave tops.
    As I said last year, unpredictable instability has become 
the new normal. This trend will continue for the foreseeable 
future. Violent extremists are operationally active in about 40 
countries. Seven countries are experiencing a collapse of 
central government authority. Fourteen others face regime-
threatening or violent instability, or both. Another 59 
countries face a significant risk of instability through 2016.
    The record of level of migrants, more than 1 million, 
arriving in Europe is like to grow further this year. Migration 
and displacement will strain countries in Europe, Asia, Africa, 
and the Americas. There are now some 60 million people who are 
considered displaced globally. Extreme weather, climate change, 
environmental degradation, rising demand for food and water, 
poor policy decisions, and inadequate infrastructure will 
magnify this instability.
    Infectious diseases and vulnerabilities in the global 
supply chain for medical countermeasures will continue to pose 
threats. For example, the Zika virus, first detected in the 
western hemisphere in 2014, has reached the U.S. and is 
projected to cause up to 4 million cases in this hemisphere.
    With that preface, I want to briefly comment on both 
technology and cyber:
    Technological innovation during the next few years will 
have an even more significant impact on our way of life. This 
innovation is central to our economic prosperity, but it will 
bring new security vulnerabilities. The Internet of Things will 
connect tens of billions of new physical devices that could be 
exploited. Artificial intelligence will enable computers to 
make autonomous decisions about data and physical systems, and 
potentially disrupt labor markets.
    Russia and China continue to have the most sophisticated 
cyberprograms. China continues cyber espionage against the 
United States. Whether China's commitment of last September 
moderates its economic espionage remains to be seen. Iran and 
North Korea continue to conduct cyber espionage as they enhance 
their attack capabilities.
    Nonstate actors also pose cyberthreats. ISIL has used cyber 
to its great advantage, not only for recruitment and 
propaganda, but also to hack and release sensitive information 
about U.S. military personnel. As a nonstate actor, ISIL 
displays unprecedented online proficiency. Cyber criminals 
remain the most pervasive cyberthreat to the U.S. financial 
sector. They use cyber to conduct theft, extortion, and other 
criminal activities.
    Turning to terrorism, there are now more Sunni violent 
extremist groups, members, and safe havens than at any time in 
history. The rate of foreign fighters traveling to the conflict 
zones in Syria and Iraq in the past few years is without 
precedent. At least 38,200 foreign fighters, including at least 
6900 from Western countries, have traveled to Syria from at 
least 120 countries since the beginning of the conflict in 
2012. As we saw in the November Paris attacks, returning 
foreign fighters with firsthand battlefield experience pose a 
dangerous operational threat. ISIL has demonstrated 
sophisticated attack tactics and tradecraft.
    ISIL, including its eight established and several more 
emerging branches, has become the preeminent global terrorist 
threat. They have attempted or conducted scores of attacks 
outside of Syria and Iraq in the past 15 months. ISIL's 
estimated strength worldwide exceeds that of al-Qaeda. ISIL's 
leaders are determined to strike the United States homeland, 
beyond inspiring homegrown violent extremist attacks. Although 
the United States is a much harder target than Europe, ISIL 
external operations remain a critical factor in our threat 
assessments for 2016.
    Al-Qaeda's affiliates also have proven resilient. Despite 
counterterrorism pressure that's largely decimated the core 
leadership in Afghanistan and Pakistan, al-Qaeda affiliates are 
positioned to make gains in 2016. Al-Qaeda in the Arabian 
Peninsula, or AQAP, and the al-Nusra Front, the al-Qaeda 
chapter in Syria, are the two most capable al-Qaeda branches. 
The increased use by violent extremists of encrypted and secure 
Internet and mobile-based technologies enables terrorist actors 
to, quote, ``go dark'' and serves to undercut intelligence and 
law enforcement efforts.
    Iran continues to be the foremost state sponsor of 
terrorism and exert its influence in regional crises in the 
Mideast through the Islamic Revolutionary Guard Corps, Quds 
Force, its terrorist partner, Lebanese Hezbollah, and proxy 
groups. Iran and Hezbollah remain a continuing terrorist threat 
to United States interests and partners worldwide.
    We saw firsthand the threat posed in the United States by 
homegrown violent extremists in the July attack in Chattanooga 
and the attack in San Bernardino. In 2014, the FBI arrested 
nine ISIL supporters. In 2015, that number increased over 
fivefold.
    Turning to weapons of mass destruction, North Korea 
continues to conduct test activities of concern to the United 
States. On Saturday evening, Pyongyang conducted a satellite 
launch and subsequently claimed that the satellite was 
successfully placed in orbit. Additionally, last month North 
Korea carried out its fourth nuclear test, claiming it was a 
hydrogen bomb, but the yield was too low for it to have been 
successful test of a staged thermonuclear device.
    Pyongyang continues to produce fissile material and develop 
a submarine-launch ballistic missile. It is also committed to 
developing a long-range nuclear-armed missile that's capable of 
posing a direct threat to the United States, although a system 
has not been flight tested.
    Despite its economic challenges, Russia continues its 
aggressive military modernization program. It continues to have 
the largest and most capable foreign nuclear-armed ballistic 
missile force. It has developed a cruise missile that violates 
the Intermediate-Range Nuclear Force, or INF, Treaty.
    China, for its part, continues to modernize its nuclear 
missile force and is striving for secure second-strike 
capability, although it continues to profess a no-first-use 
doctrine.
    The Joint Comprehensive Plan of Action, or JCPOA, provides 
us much greater transparency into Iran's fissile material 
production. It increases the time the Iranians would need to 
produce enough highly enriched uranium weapon for a nuclear 
weapon from a few months to about a year. Iran probably views 
the JCPOA as a means to remove sanctions while preserving 
nuclear capabilities. Iran's perception of how the JCPOA helps 
it achieve its overall strategic goals will dictate the level 
of its adherence to the agreement over time.
    Chemical weapons continue to pose a threat in Syria and 
Iraq. Damascus has used chemicals against the opposition on 
multiple occasions since Syria joined the Chemical Weapons 
Convention. ISIL has also used toxic chemicals in Iraq and 
Syria, including the blister agent, sulfur mustard; first time 
an extremist group has produced and used a chemical warfare 
agent in an attack since Aum Shinrikyo used sarin in Japan in 
1995.
    In space and counterspace, about 80 countries are now 
engaged in the space domain. Russia and China understand how 
our military fights and how heavily we rely on space. They are 
each pursuing destructive and disruptive anti-satellite 
systems. China continues to make progress on its anti-satellite 
missile program.
    Moving to counterintelligence, the threat from foreign 
intelligence entities, both state and nonstate, is persistent, 
complex, and evolving. Targeting and collection of U.S. 
political, military, economic, and technical information by 
foreign intelligence services continues unabated. Russia and 
China pose the greatest threat, followed by Iran and Cuba, on a 
lesser scale. As well, the threat from insiders taking 
advantage of their access to collect and remove sensitive 
national security information will remain a persistent 
challenge for us.
    I do want to touch on one transnational crime issue; 
specifically, drug trafficking. Southwest border seizures of 
heroin in the United States have doubled since 2010. Over 
10,000 people died of heroin overdoses in 2014, much of it 
laced with Fentanyl, which is 30 to 50 times more potent than 
heroin. In that same year, more than 28,000 died from opioid 
overdoses. Cocaine production in Colombia, from which most 
United States supplies originate, has increased significantly.
    Now let me quickly move through a few regional issues. In 
East Asia, China's leaders are pursuing an active foreign 
policy while dealing with much slower economic growth. Chinese 
leaders have also embarked on the most ambitious military 
reforms in China's history. Regional tension will continue as 
China pursues construction at its outposts in the South China 
Sea.
    Russia has demonstrated its military capabilities to 
project itself as a global power, command respect from the 
West, maintain domestic support for the regime, and advance 
Western--Russian interests globally. Moscow's objectives in 
Ukraine will probably remain unchanged, including maintaining 
long-term influence over Kiev and frustrating its attempt to 
integrate into Western institutions. Putin is the first leader 
since Stalin to expand Russia's territory. Moscow's military 
venture into Syria marks its first use since its foray into 
Afghanistan of significant expeditionary combat power outside 
the post-Soviet space. Its interventions demonstrate the 
improvements in Russian military capabilities and the Kremlin's 
confidence in using them. Moscow faces the reality, however, of 
economic reception--recession driven, in large part, by falling 
oil prices as well as sanctions. Russia's nearly 4 percent GDP 
[gross domestic product] contraction last year will probably 
extend into 2016.
    In the Middle East and South Asia, there are more cross-
border military operations underway in the Mideast than at any 
time since the 1973 Arab-Israeli War. Anti-ISIL forces in Iraq 
will probably make incremental gains through this spring, some 
of those made in Beiji and Ramadi in the past few months. ISIL 
is now somewhat on the defensive, and its territory and 
manpower are shrinking, but it remains a formidable threat.
    In Syria, pro-regime forces have the initiative of having 
made some strategic gains near Aleppo and Latakia in the north, 
as well as in southern Syria. Manpower shortages will continue 
to undermine the Syrian regime's ability to accomplish 
strategic battlefield objectives. The opposition has less 
equipment and firepower, and its groups lack unity. They 
sometimes have competing battlefield interests and fight among 
themselves. In the meantime, some 250,000 people have been 
killed as this war has dragged on. The humanitarian situation 
in Syria continues to deteriorate. As of last month, there were 
approximately 4.4 million Syrian refugees and another 6 and a 
half million internally displaced persons, which together 
represent about half of Syria's pre-conflict population.
    In Libya, despite the December agreement to form a new 
Government of National Accord, establishing authority and 
security across the country will be difficult, to put it 
mildly, with hundreds of militia groups operating throughout 
the country. ISIL has established its most developed branch 
outside of Syria, in Iraq and Libya, and maintains a presence 
in Sirte, Benghazi, Tripoli, and other areas of the country.
    The Yemeni conflict will probably remain stalemated through 
at least mid-2016. Meanwhile, AQAP and ISIL's affiliates in 
Yemen have exploited the conflict and the collapse of 
government authority to recruit and expand territorial control. 
The country's economic and humanitarian situation also 
continues to worsen.
    Iran deepened its involvement in the Syrian, Iraq, and 
Yemeni conflicts in 2015. It also increased military 
cooperation with Russia, highlighted by its battlefield 
alliance in Syria in support of the regime. Iran's Supreme 
Leader continues to view the United States as a major threat. 
We assess that his views will not change, despite the 
implementation of the JCPOA deal, the exchange of detainees, 
and the release of the ten sailors.
    In South Asia, Afghanistan is at serious risk of a 
political breakdown during 2016, occasioned by mounting 
political, economic, and security challenges. Waning political 
cohesion, increasingly assertive local powerbrokers, financial 
shortfalls, and sustained countrywide Taliban attacks are 
eroding stability.
    Needless to say, there are many more threats to U.S. 
interests worldwide than we can address, most of which are 
covered in our statement for the record, but I will stop my 
litany of doom here and pass to General Stewart.
    [The prepared statement of Mr. Clapper follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


     Chairman McCain. General Stewart.

   STATEMENT OF LIEUTENANT GENERAL VINCENT R. STEWART, USMC, 
          DIRECTOR OF THE DEFENSE INTELLIGENCE AGENCY

    General Stewart. Chairman McCain, Ranking Members--Ranking 
Member Reed, members of the committee, thank you for this 
opportunity to provide the Defense Intelligence Agency's [DIA] 
assessment of global security environment and the threats 
facing the Nation.
    Mr. Chairman, my statement for the record details a range 
of multifaceted challenges, adversaries, threats, foreign 
military capabilities, and transnational terrorist networks. 
Taken together, these issues reflect the diversity, scope, and 
complexity of today's challenges to our national security. In 
my opening remarks, I would like to highlight just a few of 
these threats.
    The Islamic State in the Levant: With coalition forces 
engaged against the Islamic State of Iraq in the Levant, DIA is 
helping the warfighter and our policymakers better understand 
both the ideology and the capabilities of ISIL. ISIS--ISIL, as 
well as like-minded extremists are born out of the same extreme 
and violent Sunni Salafist ideology. These Salafi jihadists are 
determined to restore the caliphate and, as they have shown, 
are willing to justify extreme violence in their efforts to 
impose their social order on others. As the Paris attacks 
demonstrated, ISIL has become the most significant terrorist 
threats to the United States and our allies. In 2015, the group 
remained entrenched in Iraq and Syria, and expanded globally. 
Spectacular external attacks demonstrate ISIL's relevance and 
reach, and are a key part of their narrative. ISIL will 
probably attempt to conduct additional attacks in Europe and 
attempt to direct attacks on the United States homeland in 
2016. ISIL's foreign fighter cadre is core to its external 
attack capability, and the large number of Western jihadists in 
Iraq and Syria will pose a challenge for Western security 
services.
    On the ground in Syria and Iraq, ISIL continues to control 
large swaths of territory. In 2015, coalition airstrikes 
impeded ISIL's ability to operate openly in Iraq and Syria, 
curtailed its use of conventional military equipment, and 
forced it to lower its profile. In 2016, the growing number of 
anti-ISIL forces and emerging resource shortfalls will probably 
challenge ISIL's ability to govern in Iraq and Syria. However, 
the group will probably retain Sunni Arab urban centers.
    In Afghanistan: In their first full year in the lead, 
Afghan Security Forces increasingly conducted independent 
operations. However, these forces struggled to adapt to a lack 
of coalition enablers and the high operational tempo, which led 
to uneven execution of operations. As a result, insurgents 
expanded their influence in rural areas, limiting the extension 
of government control. The deployment of Afghan specialized 
units and their enablers will be necessary to continue securing 
key population centers.
    In Russia: Russian military activity has continued at 
historical high. Moscow continues to pursue aggressive foreign 
and defense policies, including conducting operations in Syria, 
sustaining involvement in the Ukraine, and expanding military 
capabilities in the Arctic. Last year, the Russian military 
continued its robust exercise schedule and aggressively and 
occasionally provocative out-of-area deployments. We anticipate 
similar high levels of military activity in 2016.
    China is pursuing a long-term comprehensive military 
modernization program to advance its core interests, which 
include maintaining its sovereignty, protecting its territorial 
integrity, and projecting its regional influence, particularly 
in the South China Sea. In addition to modernizing equipment 
and operations, the PLA has undergone massive structural 
reforms, including increasing the number of navy, air force, 
and rocket force personnel, establishing a theater joint 
command system, and reducing their current military regions 
down to five joint theater of operations. China has the world's 
largest and most comprehensive missile force and has 
prioritized the development and deployment of regional 
ballistic and cruise missiles to expand its conventional strike 
capabilities against U.S. forces in the region. They field an 
anti-ship ballistic missile, which provides the capability to 
attack U.S. aircraft carriers in the western Pacific ocean. 
China also displayed a new intermediate-range ballistic missile 
capable of striking Guam during its September 2015 military 
parade in Beijing.
    North Korea's nuclear weapons program and evolving 
ballistic missile programs are a continuing threat. In early 
January, North Korea issued a statement claiming that it had 
successfully carried out a nuclear test. A couple days ago, 
they conducted their sixth space launch. This launch was the 
second launch to place a satellite into orbit. The DPRK display 
of a new or modified mobile ICBM during their recent parade, 
and its 2015 test of a new submarine-launch ballistic missile 
capability, further highlight Pyongyang's commitment to 
diversifying its missile force and nuclear delivery options. 
North Korea is--also continues to its effort to expand its 
stockpile of weapons-grade fissile material.
    In space, China and Russia increasingly recognize the 
strategic value of space and are focused on diminishing our 
advantage, with the intent of denying the U.S. the use of space 
in the event of conflict. Both countries are conducting anti-
satellite research and developing anti-satellite weapons, 
making the space domain increasingly competitive, contested, 
and congested.
    In cyberspace, DIA remains concerned about the growing 
capabilities of advanced state actors, such as Russia and 
China. These actors target DOD personnel, networks, supply 
chain, research and development, and critical infrastructure 
information in cyber domain. Iran and North Korea also remain a 
significant threat to conduct disruptive cyberspace attacks. 
Nonstate actors' use of cyberspace to recruit, propagandize, 
and conduct open-source research remains a significant 
challenge.
    Mr. Chairman, the men and women of your DIA are providing 
unique defense intelligence around the world and around the 
clock to warfighters, defense planners, the defense acquisition 
community, and policymakers to provide warning and defeat these 
and other threats. I look forward to the committee's questions.
    [The prepared statement of General Stewart follows:]
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
       
    Chairman McCain. Thank you very much, General.
    Director Clapper, in all these many decades you have served 
this country, have you ever seen more diverse or serious 
challenges to this country's security?
    Mr. Clapper. No, sir, I have not. I have said that--
something like that virtually every year I've been up here. 
This is my fifth or sixth time. I decided to leave it out this 
year because it's kind of a cliche, but it's actually true 
that, in my 50-plus years in the intelligence business, I 
don't--I cannot recall a more diverse array of challenges and 
crises that we confront as we do today.
    Chairman McCain. Your job has been made considerably more 
difficult because of sequestration.
    Mr. Clapper. Yes, sir, it has. I think the biggest problem 
with it, frankly, over time, is the uncertainty that it injects 
in a context of planning, and particularly--and it plays havoc 
with systems acquisition. So, it's--the uncertainty factor that 
we now have is--that has also become a normal fact of planning 
and programming.
    Chairman McCain. Thank you.
    Just in the last few days, the issue of torture has arisen 
again. General David Petraeus made a statement that I'd like to 
quote to you. He says, ``Our Nation has paid a high price in 
recent decades for the information gained by the use of 
techniques beyond those in the Field Manual. In my view, that 
price far outweighed the value of the information gained 
through the use of techniques''--i.e., waterboarding--``beyond 
those in the manual.'' The manual obviously prohibits 
waterboarding and other forms of torture. Do you agree with 
General Petraeus's assessment?
    Mr. Clapper. I do. I believe the--the Army Field Manual is 
the standard, and that is what we should abide by. It serves 
the purposes of both providing a framework for the elicitation 
of valuable intelligence information, and it comports with 
American values.
    Chairman McCain. That's the point, I think. Isn't it the 
fact that this is--American values are the--are such that 
just--no matter what the enemy does, that we maintain a higher 
standard of behavior, and, when we violate that, as we did with 
Abu Ghraib, that the consequences are severe?
    Mr. Clapper. Yes, sir.
    Chairman McCain. An erosion of our moral authority.
    Mr. Clapper. I would agree with that.
    Chairman McCain. Isn't it already proven that Mr. Baghdadi 
is sending people with this flow of refugees that are 
terrorists, that--in order to inflict further attacks on Europe 
and the United States?
    Mr. Clapper. That's correct. That's--one technique they've 
used is taking advantage of the torrent of migrants to insert 
operatives into that flow. As well, they also have available to 
them, and are pretty skilled at, phony passports so they can 
travel ostensibly as legitimate travelers, as well.
    Chairman McCain. They're pretty good at establishing secure 
sites for them to continue to communicate.
    Mr. Clapper. That's true. That--I alluded to that in my 
opening statement, about the impacts of encryption and the 
growth of encrypted applications, which has--having a negative 
impact on intelligence-gathering. I recently traveled to Texas, 
and this is affecting not only us in the national security 
realm, but State and local officials, as well.
    Chairman McCain. As you know, in addition to the Atlas 
rocket, which uses the Russian RD-180 rocket engine, the United 
Launch Alliance also maintains an American rocket with an 
American engine. As we continue to have this important debate 
about how to break our Nation's dependency on Russia for 
national security space launch, do you believe we need to look 
seriously at that American rocket, the Delta, as an alternative 
way to get off the RD-180 and encourage competition from other 
organizations capable of providing us with this ability?
    Mr. Clapper. I'm a customer, Chairman McCain, of the launch 
industry in the United States. My interest is in seeing to it 
that our overhead reconnaissance constellation is replenished, 
and replenished on time. There is a capability with the Delta 
that--as you allude--which is, we think, from our standpoint, 
since we pay the freight when we use these systems--which is 
both effective and cost-efficient. I certainly do agree on--you 
know, a fundamental American tenet of the competition. That's 
why I'm quite encouraged by the aggressive approach that SpaceX 
has taken. Our plan is to certify SpaceX for carrying national 
security payloads into space.
    Chairman McCain. It's not in our interest in any way to 
continue our dependency on Russian rocket engines.
    Mr. Clapper. Well, I--from--just speaking as a citizen, I'd 
rather we didn't--we're more dependent on the RD-180s. We have 
been, and they've worked for us. Again, my interest, though, is 
getting those payloads up on time.
    Chairman McCain. Thank you very much.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    General Clapper, to date what's your assessment of the 
compliance by the Iranians with the JCPOA, your--the community?
    Mr. Clapper. Right now--and I think the key milestone here 
was implementation day on the 16th of January. The Iranians did 
comply with the requirements that were--that they were required 
to live up to. I think we, in the intelligence community, are 
very much in the distrust-and-verify mode. There are a half a 
dozen or so ambiguities--maybe others, but certainly a half a 
dozen or so ambiguities in the agreement that we have 
identified, and we're going to be very vigilant about Iranian 
compliance.
    Senator Reed. Well, that's exactly what you should be 
doing. I commend you for that.
    Just going forward, are you confident that you could detect 
a serious deviation from the agreements in sufficient time to 
give the executive options?
    Mr. Clapper. Yes, sir, I am confident. I will--my 
fingerprints are on the infamous Weapons of Mass Destruction 
National Intelligence Estimate of October 2002. I was serving 
in another capacity then. So, I think we approached this with 
confidence, but also with institutional humility.
    Senator Reed. Thank you, sir.
    There are many challenges that are being posed by the 
Russians, but the Russians are facing a challenge of 
unexpectedly low oil prices that seem to be continuing. Has the 
intelligence community made an assessment of the impact, medium 
to long term on this, on the ability of the Russians to 
maintain their military posture and their provocative actions?
    Mr. Clapper. Well, the price of oil has had--the falling 
price of oil has had huge impacts on the Russian economy. 
It's--the price of Ural crude is running around $28 a barrel. 
The Russians' planning factor for their--planning and 
programming for their budget is around $50 a barrel. So, this 
is causing all kinds of strain, if you look at all the 
classical measurements--economic measures--inflation, the value 
of the ruble, which has sunk to an alltime low, unemployment, 
stresses on their welfare system, et cetera, et cetera.
    That said, the Russians appear to be sustaining their 
commitment to their aggressive modernization program, 
particularly in the--with their strategic missiles.
    Senator Reed. Looking ahead, though, is there any 
indication or--this is an area that you're picking up 
information through many sources that are reflecting great 
concern by the Russians on their ability to keep this up, or 
looking at----
    Mr. Clapper. Well, that determination will be made by one 
man. I think, for lots of reasons, he will sustain the 
expeditionary activity in Syria, although I think perhaps even 
the Russians are seeing that this is headed for stalemate, in 
the absence of a substantial ground-force insertion, which I 
don't believe the Russians are disposed to do.
    Senator Reed. Thank you.
    Quickly changing topics in the remaining minute and a half. 
In Afghanistan, multiple challenges. President Ghani is trying 
to pursue a reconciliation with the Taliban. In that regard, 
there is at least a four-nation process: China, Pakistan, the 
United States, and Afghanistan. Any insights about the 
possibility of reconciliation or the motivation of any of the 
parties to the--to this action?
    Mr. Clapper. Well, I think that--you know, the Taliban 
position has consistently been not to do that, not to 
negotiate. They're the first--the precondition they always 
ascribe is the removal of foreign forces. I don't see them 
changing that position.
    Senator Reed. Thank you very much.
    General Stewart, thank you for your distinguished service.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    This is a very accurate litany of doom. You covered a lot 
of stuff in a short period of time. We'll have to go back and 
reread that.
    When you look at what--right now, we're kind of in a 
situation where, ``Russia is pursuing new concepts and 
capabilities and expanding the role of nuclear weapons, that 
security strategy.'' That's a quote out of the U.S. National 
Intelligence--so, you covered that also in your--briefly in 
your opening remarks.
    When we talk to people on the outside and they say, you 
know, ``You have Russia saying--stating they're going to make 
these advances, they're going to modernize, and yet we have a 
policy where we're not doing it.'' What's a justification? What 
kind of answer can we give people who ask that question, 
including me?
    Mr. Clapper. Well, sir, that's a policy issue. I worry 
about the adversaries. I've used this metaphor before this 
committee. General Stewart and I and the rest of the 
intelligence community are just down in the engine room 
shoveling intelligence coal----
    Senator Inhofe. Yeah.
    Mr. Clapper.--and people on the bridge get to decide where 
the ship goes, and how fast, and arrange the furniture on the 
deck. So, I--that's a policy issue that others decide.
    Senator Inhofe. Well, I personally don't think it's a good 
policy, but we all have opinions on that.
    I was fortunate enough to be over in the Ukraine, back when 
Poroshenko and Yatsenyuk were successful in their parliamentary 
elections, and the first time in 96 years there's not one 
Communist in the Parliament. That's really kind of exciting, 
although I was upset with our lack of--when Putin came in and 
started killing people--with our lack of support, at that time, 
as a policy for Ukraine. As we're looking at it now, and in--
there's been statements made from Russia saying that, ``As the 
NATO becomes more aggressive and we become more aggressive, 
they're going to become more aggressive''--does it look to you 
like it's--that's going on right now? What's--what'll be the 
end game of that?
    Mr. Clapper. I think--answer your last question on what the 
end game is, I don't know, but I will say that the Russians--I 
might ask General Stewart to comment on this--but, I think the 
Russians fundamentally are paranoid about NATO. They're greatly 
concerned about being contained and, of course, very concerned 
about missile defense, which would serve to neuter what is 
their--the essence of their claim to great-power status, which 
is their nuclear arsenal.
    So, a lot of these aggressive things that the Russians are 
doing, for a number of reasons--great-power status to create 
the image of being coequal with the United States, et cetera--I 
think could probably--could possibly go on, and we could be 
into another Cold War-like spiral, here.
    Senator Inhofe. Well, that--the Cold War, that--I was 
thinking of that at the time. Isn't that what we went through 
for such a long period of time, where you had Russia--or USSR--
making the statements and preparing themselves and wanting to 
outdo us--I mean, just for the image? I see this as something 
kind of similar to that.
    Director Clapper, in your prepared statement, you said 
the--and this is a quote--``United States air campaigns have 
made significant gains in ISIL.'' Then we have reports that the 
United States fights against ISIL is actually benefiting al-
Qaeda. Is there a relationship--or, what is that relationship 
between al-Qaeda and ISIL?
    Mr. Clapper. Well, I've seen that. I don't know that I 
could say that the airstrikes against ISIL are somehow 
benefiting al-Qaeda, because we're still keeping the pressure 
on----
    Senator Inhofe. Yeah.
    Mr. Clapper.--al-Qaeda.
    Senator Inhofe. You're familiar with those reports, though.
    Mr. Clapper. I've read them.
    Senator Inhofe. Yeah.
    Mr. Clapper. I'm not sure I would subscribe to them. There 
have been--you know, I think we have--there has been progress 
made against ISIL in its Iraq-Syria incarnation, because that 
assumes some of the accouterments or characteristics of a 
nation-state, and that, in turn, presents vulnerabilities that 
we can exploit. I think the important thing is to keep the 
pressure on, on multiple fronts, and keep attacking those 
things which are near and dear to ISIL, which is the oil 
infrastructure that it owns----
    Senator Inhofe. Yeah.
    Mr. Clapper.--and its access to money.
    Senator Inhofe. Yeah.
    One last question. My time's expired. The RD-180 issue, 
it's one we're looking at. I think there is a recognition that 
we need to keep using for a period of time as we make any 
transition that might be in the future. Now, we have--in the 
defense authorization bill of 2016, I guess it was, we talked 
about nine additional ones. I think the Air Force has 
requested, at one point, in some form, 18 additional ones. What 
is your thinking about that?
    Mr. Clapper. Well----
    Senator Inhofe. The transition.
    Mr. Clapper. I'll tell you, Senator. I--my position here 
is, I'm a user or a customer. I have to have certain payloads 
delivered on time to sustain the health and viability of our 
overhead reconnaissance system, which is extremely important to 
the Nation's security. I don't get into too much, other than I 
have to pay the bills, because I pay the Air Force whenever we 
avail ourselves of their launch services.
    How they design their systems, that's kind of up to them. 
I'm interested in delivery. The Delta is--worked great for us. 
It's--appears to me to be cost-efficient, and it is effective, 
in terms of--when we've used it, it delivers.
    Chairman McCain. Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman.
    I want to join my colleagues in thanking both of you for 
your extraordinary service to our Nation.
    Director Clapper, you made the point, in response to 
Senator Reed and also in your testimony, that the international 
community is, in your words, ``well postured'' to detect any 
violation by Iran of the nuclear agreement. Has there been any 
indication so far that it is moving toward a violation?
    Mr. Clapper. No, not yet. The--no, we have no evidence, 
thus far, that they have--they're in a--moving towards 
violation.
    Senator Blumenthal. I'm sure you would agree that this 
Nation and the international community need to be vigilant and 
vigorous in enforcing this agreement.
    Mr. Clapper. Absolutely, sir. As I said earlier, I think 
we, in the U.S. intelligence community, are in the distrust-
and-verify mode.
    Senator Blumenthal. The distrust-and-verify mode includes 
not only the IAEA, but also other investigative tools that you 
have at your disposal.
    Mr. Clapper. Absolutely.
    Senator Blumenthal. Going to the ballistic missile issue, 
which I believe is profoundly important--and General Stewart 
makes this point in his testimony, as well--I urged the 
President to impose sanctions and enforce them as a result of 
Iran's continued development of ballistic missiles, which are a 
threat, not only to the region, but also to our allies in 
Europe. Fortunately, he has heeded those calls from myself and 
letters that were joined by my colleagues.
    How important do you think it is that we continue to 
enforce sanctions in response to Iran's development of 
ballistic missiles?
    Mr. Clapper. Well, I think it's quite important that 
sanctions be enforced, not only for missiles, but for terrorism 
or any other things that are covered under the sanctions. The 
Iranians have a very formidable missile capability, which they 
continue to work on. They've fired some 140-or-so missiles 
since the original UNSCR [United Nations Security Council 
Resolution] 1929 of 2010. About half of those firings were 
going on during the negotiations, which were--of course, were--
as you know, were separate from the actual negotiations.
    So, for our part, this is a challenge that we must attend 
to by being as vigilant as possible on gleaning intelligence 
about these capabilities and reporting that to our 
policymakers.
    Senator Blumenthal. Speaking for myself--and I believe my 
view is joined by other colleagues--I will continue to insist 
on vigorous enforcement of those sanctions because of the 
threat that you have very powerfully outlined.
    General Stewart, in your testimony, you make the point that 
the economic relief that Iran will see as a result of the JCPOA 
is unlikely, in the short term, to increase its military 
capability. Is that correct?
    General Stewart. I think it is--it is unlikely immediately, 
because I believe that the focus will be on internal economic 
gains. However, after 35 years of sanction, Iran has developed, 
as we've just discussed, the most capable missile force in the 
region. It's extended its lethality, its accuracy. It's got all 
the ranges covered. It can reach all of its regional targets. 
In the long term, I fully expect that they'll invest some of 
the money into improving the rest of their military 
capabilities.
    Senator Blumenthal. What is the ``long term''? In other 
words, how many years is ``long term''?
    General Stewart. Yeah.
    Senator Blumenthal. Are we talking 5 years, 10 years? 
Secondly, what should be our response--and I believe it has to 
be a robust and strong response--to that increase in longer-
term military capabilities that threatens our allies and 
friends in the region, most particularly Israel, with terrorism 
and other conventional military capabilities, as well as the 
kinds of counterincentives we can provide?
    General Stewart. So, the long term might not be as far as 5 
years. We've already seen an agreement between Iran and the 
Russians for the S-300 Air Defense System. We're seeing Russia 
demonstrate tremendous capabilities as they've done their out-
of-area deployment into Syria. So, there's lots of weapons 
technology being displayed. I suspect, within the next 2 to 5 
years, we can expect Iran to invest in some of those weapons 
technology that's being displayed in the Syrian battlefield by 
the Russians today.
    Senator Blumenthal. What should be our response?
    General Stewart. I think I'm going to punt that to the 
policymakers on the response to how Iran arms and how they 
might use this weapons capability.
    Senator Blumenthal. You would agree that we should respond 
robustly and strongly.
    General Stewart. I would agree that we should have a policy 
to be prepared to respond----
    Senator Blumenthal. Thank you.
    General Stewart.--appropriately.
    Senator Blumenthal. Thank you, General.
    Thank you, Director Clapper.
    Senator Reed [presiding]. On behalf of the Chairman, 
Senator Sessions.
    Senator Sessions. Thank you, Senator Reed.
    Well, we thank both of you for your service.
    Director Clapper, thank you for your decades of service to 
the country. That's something we all respect and value.
    General Stewart, I appreciate seeing you again. You've been 
in the battlefield, and you've seen it from both sides and know 
the importance of intelligence.
    Director Clapper, it seems to me that we are about to see a 
tremendous expansion of proliferation in the numbers actually 
of weapons and the countries that possess nuclear weapons on 
something that the world is united behind, trying to stop--the 
U.N. and the whole world. NATO has fought to maintain a limited 
number of nations with nuclear weapons, and we've been 
particularly concerned about nuclear weapons in the Middle 
East. Where do we stand on that from a strategic position? Your 
best judgment of the risk we're now facing.
    Mr. Clapper. Well, the--of course, we worry about North 
Korea in this respect. I think--in the Mideast, I think the 
agreement, the JCPOA, which does prevent, if it's complied 
with, a nuclear capability in Iran, at least in the foreseeable 
future, that should serve as a tempering factor for the likes 
of--for other countries that may feel threatened if, in fact, 
Iran proceeded on with its nuclear weapons program.
    Senator Sessions. Well, we've got India and Pakistan. 
Secretary Kissinger testified here a year ago, I suppose, in 
which he said that we could see multiple nations in the Middle 
East move toward nuclear weapons. We do know that North Korea 
will sell weapon technology, do we not? Have done so in the 
past?
    Mr. Clapper. That's true, that particularly North Korea is 
a proliferator. That's one of the principal ways they attempt 
to generate revenue, is through proliferation. I worry, 
frankly, about more mundane things, like MANPADs, which the 
North Koreans produce and proliferate throughout the world, 
which poses a great threat to aviation.
    So, I think our role in the intelligence community is to be 
as vigilant as we can about this, and report when proliferants 
spread. That--it is a great concern, and certainly--
particularly in the Mideast.
    Senator Sessions. Thank you. That is a serious subject.
    General Stewart, tell us where we stand in Iraq. You served 
there, and you were involved with the Sunnis in al-Anbar 
Province. You saw them flip and become turned against al-Qaeda. 
Can we replicate that now? What are the prospects for the 
Sunnis once again turning against the terrorists?
    General Stewart. I think if the Sunnis believe that they 
have a real prospect, either for an involvement with the Iraqi 
government or some other confederation construct where their 
views and interests are represented--I think they will likely 
turn against ISIL. I don't think that that message is--been 
effectively communicated yet. I think Abadi would like a more 
inclusive government, but I'm not sure that he has all of the 
members of his ruling body behind such inclusivity. Until that 
occurs, then the Sunni tribes are very likely to remain either 
on the fence or choose the least worst option, which is to not 
antagonize, and maybe even support, ISIL in the western part of 
Iraq.
    Senator Sessions. That would be the decisive action that 
needs to occur, that, once again, the decisive action would be 
if the Sunnis would turn against ISIL as they turned against 
al-Qaeda.
    General Stewart. I think that would absolutely be decisive, 
but I think they'll be very cautious to ensure that we will not 
leave them hanging out there after they've turned against ISIL. 
This is pure pragmatism. If they're not--if we're not 
successful, we're not supportive of the Sunni tribes, they will 
die. Al-Qaeda--or ISIL will be brutal, they'll be ruthless. If 
we're going to support them, we're going to try to convince 
them to turn and fight against ISIL, then we have to have the 
true commitment of the Government of Iraq and all of the 
parties to encourage them to fight against ISIL, because this 
is purely about survival for those tribes.
    Senator Sessions. Our effort to push back against ISIL 
would be a extremely important action--development.
    General Stewart. Yes, sir, I believe it would be.
    Senator Sessions. What about Mosul, city of a million, that 
would not have the heritage of ISIL and that kind of extremism? 
What are the prospects for turning the situation around in 
Mosul and freeing Mosul from ISIL's----
    General Stewart. I'm less optimistic in the near term about 
Mosul. I think there's lots of work to be done yet out in the 
western part. I don't believe that Ramadi is completely secure, 
so they have to secure Ramadi, they have to secure the Hit-
Haditha Corridor in order to have some opportunity to fully 
encircle and bring all the forces against Mosul. Mosul will be 
complex operations. I'm not as optimistic--as you say, it's a 
large city. I'm not as optimistic that we'll be able to turn 
that, in the near term; in my view, certainly not this year. We 
may be able to begin the campaign, do some isolation operations 
around Mosul, but securing or taking Mosul is an extensive 
operation, and not something I see in the next year or so.
    Senator Sessions. Thank you very much, General Stewart.
    Chairman McCain [presiding]. Senator Heinrich.
    Senator Heinrich. Thank you, Mr. Chair.
    Welcome back, Director Clapper, General Stewart. Thank you 
for that predictably cheery briefing.
    Director Clapper, I've always believed that the ground war 
against ISIS [the Islamic State of Iraq and Syria] must be won 
by our Arab partners rather than by American ground forces. It 
was, therefore, pretty encouraging to finally hear Saudi Arabia 
and the UAE [United Arab Emirates], over the weekend, voice 
some openness to putting ground forces in Syria. What's the 
intelligence community's assessment of the capability of Saudi 
and, UAE ground forces? How realistic do you think this 
proposal is? In other words, do you assess that they actually 
have the political will to potentially do that?
    Mr. Clapper. Well, let me start with UAE, which is a very, 
very capable military, although small. Their--the performance 
of their counterterrorist forces in Yemen have been quite 
impressive.
    I think--certainly appreciate and value the Saudi 
willingness to engage on the ground. I think that will be a 
challenge--would be a challenge for them if they were to try to 
take that on.
    General Stewart. If I could add----
    Senator Heinrich. General, absolutely.
    General Stewart. I fully concur with the UAE forces. 
Whether they have the capacity to do both Yemen and something 
in Iraq-Syria is questionable for me.
    Senator Heinrich. Yeah.
    General Stewart. I think they're having a tough--they're 
doing extremely well in Yemen, but the capacity to do more is 
pretty limited.
    Senator Heinrich. Thank you both.
    Director Clapper, one of the things we've been struggling 
with, obviously, is trying to crack down on ISIS's financing. 
They have multiple sources of revenue that include illicit oil 
sales, taxation, extortion of the local population, looting of 
banks, personal property, smuggling of antiquities, and, to a 
lesser extent, even kidnapping for ransom, and foreign 
donations. I'm certainly pleased to see some progress has been 
made, where the U.S.-coalition forces have escalated tactics by 
targeting wellheads, targeting road tankers, even cash storage 
sites. These efforts have certainly helped force ISIS to cut 
its fighters' pay; in some reports, by up to 50 percent. What, 
additionally, do you believe that we can be doing to further 
restrict their financial resources?
    Mr. Clapper. I think the main--sir, you've outlined pretty 
much the sources of revenue for ISIS. They have a very 
elaborate bureaucracy for managing their money. I think the 
important thing is to sustain that pressure on multiple 
dimensions, to include going after the oil infrastructure. I 
know they--ISIL has displayed great ingenuity by setting up 
thousands of these mom-and-pop refineries.
    Senator Heinrich. Yeah.
    Mr. Clapper. We just have to stay at it. I--and, as well, 
the recent bombing of the financial institution in Mosul had 
big impact on them. I think we're starting to see some success 
with the Iraqi government in reducing payments to Iraqi 
citizens who were--live in ISIL-controlled areas. There's a 
downside to that. When they do that, that alienates--
potentially alienates them further about the central government 
in Baghdad.
    To me, the important aspect, here, and the important theme 
would to sustain the pressure.
    Senator Heinrich. You know, one of the sources that has 
been, I guess, surprisingly consequential is black-market 
antiquity sales from the looting that's occurred. One of--it's 
my understanding that the United States has sanctions that it 
can impose on anyone who imports antiquities stolen by ISIS, 
but it doesn't have separate abilities to sanction individuals 
who actually purchase looted Syrian antiquities. Would it be 
helpful to authorize sanctions that are not just against the 
buyer or the seller of those, but against other middlemen who 
are involved?
    Mr. Clapper. I would want to take that under advisement and 
consult with my colleagues in the Department of Treasury. I 
will tell you that, in the relative scheme of things, the sale 
of antiquities is not a big revenue-generator, and it's really 
kind of tapered off some. I'd be for exploring whatever--
whatever ways we can pressure the--ISIL financially, we should.
    Senator Heinrich. Great. Thank you both.
    Chairman McCain. Senator Ayotte.
    Senator Ayotte. I want to thank you both for your service.
    I want to thank you, Director Clapper, for your many 
decades of service to our country. We appreciate it.
    I wanted to follow up on a--your written statement, where--
in it--and I think you reiterated it today--that Iran probably 
views the JCPOA as a means to remove sanctions while preserving 
some of its nuclear capabilities. In a second part, you said, 
``as well as the option to eventually expand its nuclear 
infrastructure.'' Can you expound on that?
    Mr. Clapper. As the period of the agreement plays out, I 
think it's--we should expect that the Iraqis will want to push 
the margins on R&D [research and development] to--they've 
already done work on--on research and development on centrifuge 
design. Now, they've sustained the position they've taken, and 
the--you know, there's one man that makes the decision, here, 
as the Supreme Leader, that they're not going to pursue nuclear 
weapons. There are many other things they could do, in a 
nuclear context, that serves to enhance their technology and 
their expertise.
    Senator Ayotte. Let me ask you. We saw Iran actually have 
ballistic missile tests on October 10th and November 21st, 
post-JCPOA, and even pre-receiving the sanctions cash relief, 
that they recently received, of billions of dollars. We also 
know that, recently, North Korea had a space launch 
developing--continuing to develop their ICBM [intercontinental 
ballistic missile] program. I wanted to ask you, first of all, 
do you--we know that, in your statement, you've mentioned, and 
historically, that there has been cooperation between North 
Korea and Iran on their ballistic missile program. Can you tell 
us what that cooperation has been? Can we expect that North 
Korea will sell or share technology with Tehran that could 
expedite Iran's development of ICBM missiles?
    Mr. Clapper. Of late--I have to be mindful of the setting 
here--there has not been a great deal of interchange between 
Iraq and Iran--or between North Korea and Iran on the subject 
of nuclear or missile capabilities, but there's been--there has 
been in the past. We have been reasonably successful in 
detecting this. So, hopefully we'll--with appropriate----
    Senator Ayotte. Let me ask----
    Mr. Clapper.--vigilance, we'll be able to sustain that. The 
North----
    Senator Ayotte. Let me ask you--sorry.
    Mr. Clapper.--Koreans, though, will--they're interested in 
cash. This is one of their----
    Senator Ayotte. We now know Iran has more cash, correct?
    Mr. Clapper. Well, they do now. As General Stewart 
indicated, a lot of the cash, at least in the initial tranche, 
is encumbered. The Iranians have a lot of obligations to 
fulfill, economically with----
    Senator Ayotte. Let me follow up on----
    Mr. Clapper. It's a debtor nation.
    Senator Ayotte.--on the two. What do you--when you--what do 
you make of other fact that the Iranians did, in fact, post-
JCPOA, in violation of existing U.N. resolutions, make two 
launches of ballistic missiles? I think you were asked about 
the sanctions that were put in place. Let's just be clear; 
those sanctions weren't very tough. Do you think that those are 
going to deter Iran from continuing to develop its ICBM 
program?
    Mr. Clapper. Well, the Iranians have conducted some 140 
launches since the original U.N. Security Council Resolution 
1929 that was imposed in 2010. Seventy of those, about half of 
them, were done during the negotiations, given the fact that 
missiles weren't a part of the negotiation. So, as far as these 
two launches are concerned, I think this was a deliberate 
message of defiance, and that the Iranians are going to 
continue with an aggressive program to develop their missile 
force.
    Senator Ayotte. As you and I have talked about in the past, 
just to be clear, we judge that Tehran would choose ballistic 
missiles as its preferred method of delivering nuclear weapons, 
if it builds them. That's--that is obviously why you would 
build a ballistic missile, if you choose to build a nuclear 
weapon.
    Mr. Clapper. Well, and they have hundreds of them----
    Senator Ayotte. Right.
    Mr. Clapper.--that threaten the Mideast. Of course, the two 
under development could potentially, given the technology, 
although the immediate one that's most--I guess the most 
proximate that would be launched, the GAM, is built by 
civilians and is ostensibly for space launch----
    Senator Ayotte. I only have 5 seconds left, but I want to 
follow up on the heroin question. I believe you said that 
heroin and Fentanyl, which is, of course, 30 to 50 times more 
powerful, is coming over our southern border. That has doubled 
by the Mexican drug cartels, going back to 2010. Do you believe 
that that's something that we--General Kelly has raised this 
when he was commander of SOUTHCOM as--that delivery system and 
those cartels could actually deliver almost anything with the 
sophisticated networks they have established, but do you 
believe we should be focused also on more interdiction, 
particularly on the heroin problem at the southern border?
    Mr. Clapper. I do. The experience, at least what I've 
observed--and I think General Kelly has said this consistently 
when he testified--is that it wasn't for lack of intelligence; 
it was lack of operational capacity to actually react and 
interdict. I'm a big fan of the Coast Guard, and the Coast 
Guard's done some great things. These new national security 
cutters are fantastic capability against drug--to--for drug 
interdiction purposes.
    Senator Ayotte. Thank you.
    Chairman McCain. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    Thanks, to the witnesses. I have many questions to ask, but 
I think what I'll do is focus on one.
    I just--I'm struggling with this, and I would love to hear 
your thoughts about low oil prices and how they affect our 
security posture. This is not in a litany of gloom; this is a 
good thing. It's got some elements to it that are--I think are 
challenging.
    I was in Israel once, in April of 2010, and meeting with 
President Shimon Peres, and I asked him what would be the most 
important thing the U.S. could do to enhance security in the 
region. He said, ``Wean yourself off dependence on oil from the 
Middle East.'' As I talked to him, his basic logic was, to the 
extent that we developed noncarbon alternatives or our own 
native energy sources, our demand for Middle Eastern oil would 
drop. We're a market leader. That would have a effect of 
reducing prices. A lot of the nations in the Middle East--Iran 
and other nations--Russia or Venezuela--they've used high oil 
prices to finance bellicose adventurism. If they get more 
strapped on the cash side, they have a harder time doing it.
    So, we've seen a dramatic development in American native 
energy. We've seen development of noncarbon energy. We've seen 
oil prices go to dramatic lows. They're not going to stay there 
forever, but many are predicting that they're going to stay 
significantly lower than historic lows. It's good for American 
consumers. It's good for American businesses. It poses 
challenges for some of our principal adversaries; Russia, for 
example. It puts a cap on, to some degree, what Iran would get 
from being back in a global economy and selling their oil. It 
also poses some risks, as well. I've heard European 
counterparts say that they're really worried about an 
aggressive Russia, but they're even more worried about a 
economic basket-case Russia.
    So, from the intel side, as you look at intel and threats, 
talk a little bit about the prospect of low oil prices and any 
negatives associated with that, please.
    Mr. Clapper. Well, I think you've painted the picture 
pretty well, Senator Kaine. The--it's working, I guess you 
would say--one could say, to our advantage. Russia--I spoke 
about that earlier--and the price--current price of Ural crude, 
for example, is $28 a barrel, when Russia's planning factor for 
their national budget is $50 a barrel. This has affected--for 
example, they have been unable to invest in the Arctic, so it's 
had profound impact, and will, I think, for some time, just 
structurally in Russia.
    Venezuela is another case, a country that was--that's been 
completely dependent, almost, for its revenue for a long time, 
on oil revenue. Of course, with the precipitate drop in oil, 
it's had a huge impact on their economy, which is status 
managed anyway and is laced with all kinds of subsidies for its 
people. Now they're having--they're facing insolvency.
    So, that--it has that effect. Of course, to the extent that 
we become independent and not dependent on anyone's oil, that's 
a good thing. Countries caught in the middle, I think, it's 
going to be a mixed bag as to how well they manage themselves, 
where they are dependent on others for oil. If the price stays 
low, that's great. If it--if it's hiked, either by virtue of 
the natural forces or artificially, that could have a very 
deleterious impact on the economy, say in Europe. So, it's a 
very mixed picture.
    Senator Kaine. Just a followup about Russia, in particular. 
It seems that sometimes they're more likely to engage in some, 
you know, adventurism outside their country when their internal 
politics and economy is in trouble. I mean, Putin seems like a 
guy who, when things are going bad at home, he wants to divert 
attention. Whether it's throwing an Olympics or a World Cup or 
invading another country, that seems to be kind of a move that 
he'll make when he's got dissatisfaction at home driven by 
economic challenges. So, is there some degree to which these 
lower oil prices, they negatively affect an adversary, but they 
may make them a little more unpredictable and, hence, 
dangerous?
    Mr. Clapper. That's true. Of course, all decisionmaking in 
Russia is essentially made by--is done by one person. The 
Russians have a great capacity for enduring pain and suffering. 
The polls that are taken in Russia still indicate very high 
levels of popularity, 80-percent range, for Putin. It is 
interesting, though, his speeches of late in--domestically, 
have taken a different turn or a different tone, in that they 
are much more exhorting patriotic spirit and the great history 
of Russia as, I think, probably a way of diverting attention 
from the poor economic performance of the Russian economy. By 
any measure--you look at unemployment, inflation, the worth of 
the ruble--its alltime low--and investment, et cetera, whatever 
measure you want to use, the--it's all not good for--from a 
Russian perspective.
    Now, the issue would be, How does that affect the street, 
and what point does the people start turning out and 
demonstrating, which--that's what makes them--they're very 
nervous. If people get organized and restive on a large scale 
throughout the--throughout Russia, they--Russians are very 
concerned about that.
    Senator Kaine. Thank you very much.
    Thank you, Mr. Chair.
    Chairman McCain. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Director Clapper, in your statement, you assess that 
foreign support will allow Damascus to make gains in some key 
areas this year. General Stewart, you state that the Assad 
regime is unlikely to be militarily defeated or collapse in the 
near term, and it's poised to enter 2016 in a stronger military 
position against the opposition because of their increased 
support that they're receiving from Iran and Hezbollah and 
Russia. Given Assad's apparently improving fortunes that we're 
seeing, do you assess that he will negotiate any kind of 
transition from power?
    General Stewart. He's certainly in a much stronger 
negotiating position than he was just 6 months ago. His forces, 
supported by Russian air forces, supported by Iranian and 
Hezbollah forces, are having some effect, but not decisive 
effect across the battlefield. They've isolated Aleppo, for 
instance. They're now sieging Aleppo. So, he's in a much 
stronger negotiating position, and I'm more inclined to believe 
that he is a player on the stage longer term than he was 6 
months to a year ago. He's in much better position.
    Senator Fischer. General, what--how would you define 
``longer term''?
    General Stewart. Yeah, that's--I think this--this one's 
interesting, because I think the Russians are very comfortable 
with the idea that, if they have a regime that supports their 
interests in Syria, Bashar al-Assad might not be as important 
to them as--Bashar al-Assad is far more important to the 
Iranians to maintain their relationship with Syria and status 
around Lebanon. So, I think getting all the parties to agree on 
whether he should go, the timeline with which he should go, who 
might be an--a better alternative, because that's important to 
all the parties--this is such a dynamic space--and then you sow 
the Turks in with their interest that Assad should go, also. 
So, I think, long term, I'm not seeing any change in the status 
here for the next year or so. Beyond that, we'll see how the 
fight on the battlefield unfolds.
    Senator Fischer. Before I turn to you, Director Clapper--
General, when you mention about Iran and Moscow being able to 
work together on this, and maybe they're--what I heard was, 
maybe they're diverging in their support for Assad in keeping 
him in power or giving him more leverage in a transition. Do 
you believe that is going to come to a head--again, in the 
short term, long term--and what are the consequences of that?
    General Stewart. In----
    Senator Fischer. I mean, I can remember--and it wasn't that 
long ago--when we would all sit up here and say, ``it's not a 
question on if Assad is leaving, it's when he's leaving.'' That 
obviously has changed.
    General Stewart. The Russian reinforcement has changed the 
calculus completely. The tactical relationship that Iran and 
Russia has today, I suspect, at some point--and it's pretty 
hard to predict that some point--will diverge, because they 
won't share the stage. Iran wants to be the regional hegemon. 
If it has to compete with Russia in the longer term--and again, 
I can't put months or years--I suspect that their interests 
will diverge because of competition as a regional power.
    In the near term, though, their interest is simply to prop 
up the regime. The regime, in my mind, is not necessarily 
Assad; it's the regime, first of all, that allows Russia to 
maintain its interests and allows Iran to control Syria--
greater Syria and parts of Lebanon. When those two things 
become tension points, where their interests--where Russia 
jettisons Assad or Russia pushes for his removal--I suspect 
that they will have at least a tactical breakdown. However, 
it's still in Iran's interest to maintain a relationship with 
Russia, because of what we talked about earlier, the ability to 
procure weapons from Russia without any preconditions. They 
would like to modernize all of their military forces, and 
Russia seems to be an option for doing that.
    So, the relationship might be tense, it might break down at 
some point because of regional desires for control, but they'll 
still have the enduring relationship from a weapons procurement 
standpoint.
    Senator Fischer. Director Clapper, I'm out of time, but if 
you had just a couple of comments you'd like to add there--I 
apologize for giving you less time.
    Mr. Clapper. That's fine.
    The thing that I find interesting is that both the Russians 
and the Iranians are growing increasingly interested in using 
proxies, rather than their own forces, to fight in Syria. The 
Russians are incurring casualties. The Iranians are. To the 
extent that they can bring in others--and, of course, in Iran's 
case, Hezbollah.
    I think Russians are not wedded to Assad personally, but 
they have the same challenge as everyone else, ``If not Assad, 
who?'' I don't know that they've come up with an alternative to 
him, either.
    Senator Fischer. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator King.
    Senator King. Gentlemen, thank you for being with us this 
morning.
    I was discussing, yesterday with one of our ``Five Eyes'' 
partners, overall long-term intelligence and worldwide threats. 
I'm afraid--and you touched on this, Director Clapper, in your 
report--I'm afraid that the Syrian refugee crisis is a 
precursor of a larger refugee crisis that we could be facing 
over the next 10 to 20 years, based upon predictions of climate 
change, the band of the world that is going to be subject to 
droughts, famine, crop loss, flooding in some areas, over--
incredible heat in the band around North Africa, Central 
Africa, into Southeast Asia. We could see mass migrations that 
could really strain the Western countries. Would you concur in 
that, Secretary----
    Mr. Clapper. Well, I think you're quite right. I alluded to 
that, at least briefly, in my oral statement, about the fact 
that we have some 60 million people around the globe displaced 
in one way or another. I think the----
    Senator King. If that increases, it's going to create--
because all of those people are going to want to go where 
things are better----
    Mr. Clapper. Exactly.
    Senator King.--which happens to be the northern hemisphere.
    Mr. Clapper. So, that's why that is going to--that will 
place ever greater stresses on the remainder of the countries, 
whether here in the Americas, Europe, Africa, Asia, wherever. 
The effects of climate change, of weather aberrations, however 
you want to describe them, just exacerbate this. You know, 
the--what we have in the world is sort--in the--by way of 
resource to feed and support the growing world population is 
somewhat of a finite resource. There's only so much water, only 
so much arable land. The conditions that you mention, I 
believe, are going to foment more pressure for migrants. That 
on top of the instability that--of governance that I spoke 
briefly about in my oral statement, as well--I think are going 
to make for a challenging situation in the future.
    Senator King. Thank you.
    Again, turning to something that you touched on. The lack 
of capacity to deal with drug imports, it seems to me, is 
something that is a real strategic and tactical challenge. 
We're suffering terribly, in my home State of Maine, with 
heroin. New Hampshire has one death overdose a day. In Maine, 
it's 200 a year, one death every weekday, if you will. We're 
trying to deal with the demand side and with the treatment and 
prevention. Keeping this stuff out to begin with--and heroin's 
cheaper than it's ever been, which tells me that the supply is 
up. What do we--where should we be putting our efforts on the 
interdiction side?
    Mr. Clapper. Well, on--to the extent--I think the--working 
with the Mexican government, particularly since that's where a 
great deal of this comes from, is Mexico, and I think the 
partnership that we can engender with them is crucial to this.
    Senator King. Are they----
    Mr. Clapper. Obviously----
    Senator King.--a serious partner? Do they want to stop 
this, or does--or are they conflicted? Do they see this as a 
cash crop?
    Mr. Clapper. Well, I think it's who--it depends on who 
``they'' is in Mexico. I think the national leadership would 
obviously like to stop the flow. There are very--as you know, 
very, very powerful economic forces in Mexico that auger 
against that, and we've got a lot of money. They also have a 
corruption problem, frankly, to deal with. So, I think we need 
to be as aggressive as we can be in interdicting what we can. I 
mentioned earlier, for example, the tremendous impact of the 
Coast Guard capabilities, when they're brought to bear. As we 
discussed earlier, General Kelly, one of--the former commander 
of SOUTHCOM--has spoken to this many times, about not so much a 
lack of intelligence, but rather the lack of an operational 
capability to respond to the intelligence to interdict. We have 
the intelligence capability and the intelligence capacity, but 
that needs to be matched by a concomitant resource commitment.
    Senator King. We need a greater commitment, in terms of 
interdiction capacity.
    Mr. Clapper. Exactly.
    Senator King. With just a few seconds left, and perhaps you 
could take this for the record. We always, at these hearings, 
talk about the cyberthreat. We've done some actions here. We 
finally got though a cyber bill last year about information-
sharing. I'm still concerned about critical infrastructure. 
Perhaps, for the record, you could give us some thoughts about 
what further we should be doing here in Congress or in the 
country, in terms of critical infrastructure. Because that's, I 
think, our--one of our areas of greatest vulnerability.
    Mr. Clapper. I share your concern and we'll provide some 
for the record.
    Senator King. Thank you.

    [The information referred to follows:]

    [Deleted.]

    Chairman McCain. Thank you, Mr. Chairman.
    Chairman McCain. Senator Cotton.
    Senator Cotton. Gentlemen, thank you both for your many 
years of service to our country.
    First, I'd like to say that it's reassuring to hear so many 
members of this committee, who voted to give the world's worst 
state sponsor of terrorism tens of billions of dollars, express 
their grave concerns about what Iran might do with that money. 
I wish we had heard more of those concerns during the debate 
and before the vote on it.
    Director Clapper, you testified last year that, in your 45 
years of public service, this was the worst global threat 
environment you had ever seen. Is that correct?
    Mr. Clapper. Yes, sir. I had occasion to say it again in 
a--response to a question earlier.
    Senator Cotton. That's a--and that's--was your point with 
Senator McCain earlier, is that it's the worst global threat 
environment now in 46 years?
    Mr. Clapper. Well, it's certainly the most diverse array of 
challenges and threats that I can recall.
    Senator Cotton. Why is that?
    Mr. Clapper. Well, I think it's--frankly, it's somewhat a 
function of the change in the bipolar system that did provide a 
certain stability in the world, the Soviet Union and its 
community, its alliance, and the West, led by the United 
States. Virtually all other threats were sort of subsumed in 
that basic bipolar contest that went on for decades and was 
characterized by stability. When that ended, that set off a 
whole range of a whole group of forces, I guess, or dynamics, 
around the world that have changed.
    Senator Cotton. You both have long and deep experience in 
the Middle East. In your experience, is the Middle East a place 
that prizes concessions in negotiations or strength in 
toughness?
    General Stewart. I would argue that, in almost all these 
cases, strength is preferred over signs of weakness.
    Senator Cotton. Do you believe that the appearance and 
reputation for power is an important part of the reality of 
power in national security affairs?
    General Stewart. Yes, Senator.
    Senator Cotton. What would you believe is our current 
reputation for power in the Middle East after, say, 12--10 
American sailors were videotaped kneeling at gunpoint by 
Iranian Revolutionary Guard Corps forces?
    General Stewart. I don't know that that incident alone 
reflects the perception of our strength and power. I think, 
over the last several years, there have been some concerns 
among our partners about our commitment to the region, our 
willingness to employ the force, where our interests--both 
national and strategic interest lies. I think that's caused 
just a little bit of concern among our partners about our 
commitment to the region.
    Senator Cotton. I would like to return to a question that 
Senator Heinrich raised. He raised the news that the Saudi 
Defense Ministry and now the Emirati Foreign Ministry have both 
suggested that they would be willing to deploy their troops to 
the ground in Syria. He asked you to assess the capability of 
those militaries. Threats, for good or for ill, are part of--
are both capability and intention. In both of the statements 
from Saudi Arabia and the UAE, they both insisted that they 
would need to see United States leadership in that effort.
    Director Clapper, do you have any idea what kind of 
leadership they're talking about, what more they would expect 
to see from the United States that they apparently are not 
seeing at the moment?
    Mr. Clapper. Well, I don't know what--I--and I took it to 
mean specifically with respect to if they deployed a 
significant military force into Syria. I took it to mean the 
command-and-control capability that, you know, the U.S. is 
pretty good at. I--that's what I took it to mean.
    Senator Cotton. General Stewart?
    General Stewart. I think the Arab countries, led by Saudi 
Arabia and the Emiratis, would like to see more ground forces 
to match their commitment. Having said that, I do not assess 
that the Saudi ground forces would have either the capacity to 
take this fight on--as I've said earlier, the Emiratis, very 
capable, acquitted themself well in Yemen, but lack the 
capacity to take on additional fight elsewhere. I think the 
idea is, How do we get more U.S. skin in the game?
    Senator Cotton. Thank you.
    Director Clapper, in early October, shortly after Russia 
began its incursion into Syria, President Obama called it, 
quote, ``a big mistake,'' and, quote, ``doomed to fail.'' Do 
you believe, 4 and a half months later, that Russia's incursion 
into Syria is ``a big mistake'' from their standpoint, and 
``doomed to fail''?
    Mr. Clapper. It could be a big mistake. One of the concerns 
the Russians have, of course, those with long memories, is a 
repeat of Afghanistan. Of course, that's why the Russians, to 
this point, have avoided a significant ground force presence. 
They have about 5,000 personnel tied up in supporting the air 
operations--advisors, intelligence, et cetera. So, long term, 
it could be a mistake for them. They haven't enjoyed the 
success, I think, that Putin anticipated. I think he believed 
that he would go in quickly and be able to leave early. That is 
not turning out to be the case. They are getting into a long-
term stalemate, themselves.
    Senator Cotton. Thank you.
    My time is expired.
    Chairman McCain. Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    Good morning, gentlemen. I repeat what so many have said 
here. Thank you for your public service.
    Given what you just said, General Clapper, about Russia 
being concerned about being bogged down, and going back to the 
comments of Senator Kaine about the cash reserves of Russia 
diminishing because of the price of oil, and you mentioned 
that, at some point, the street in Russia going--these are my 
words--to erupt. Can you give us any sense of when that might 
occur, given these factors that has been discussed in the whole 
committee meeting?
    Mr. Clapper. Senator Nelson, I cannot. I don't know when 
that tipping point might occur. As I said, the Russian people 
have a great capacity for enduring discomfort and inconvenience 
and pain. I think, at some point, they will reach a breaking 
point. I think the Russian leadership is mindful of that and 
are very concerned about it. The sustained economic recession, 
which will go well into 2016, I think it's somewhat of an 
imponderable to try predict when--if this is sustained, when 
that will cause a breaking point and when the street will say 
something.
    Senator Nelson. From an intel standpoint, Putin can 
continue his diversions--Crimea, Syria, whatnot--to get the 
nationalistic fervor of the Russian people continually stoked 
up. When they can't get butter and they get to the point that 
they realize that that's going more to guns, do we have any 
sense, from the history of Russia, of all--or from an intel 
standpoint--do we hear anything of the rumblings going on in 
Russia that would give us a better idea of how to predict that 
timing?
    Mr. Clapper. Well, no. I don't think--predicting, you know, 
sociological dynamics is very difficult, when people will 
collectively reach a breaking point. That's, you know, kind of 
what happened with the demise of the Soviet Union, when the--
you know, ``the big lie,'' I think, became evident to more and 
more people. That's another thing that the Russians worry 
about, is information and--information from the outside world. 
The Russians expend a lot of energy, time, and resource on 
controlling information and controlling the message in Russia. 
So, the combination of these factors--their ability to endure 
the gradual erosion of the economy of Russia, their tight 
control of information, not unlike the heyday of the Soviet 
Union, makes it, to me at least, very difficult to predict when 
all those forces will collide.
    Senator Nelson. Let me ask about assured access to space, 
which is essential to our national security. We have a great 
deal of optimism as a result of what we're seeing, a number of 
companies now producing rockets that seem to be quite 
successful. We have the likelihood of new engines being 
produced. This Senator is concerned, not in the long term, but 
more in the short term, of--Is there a gap there that, if we do 
not have that Russian-supplied engine, the RD-180, that we will 
not have the assured access to space because of the alternative 
being, number one, that the Delta 4 cannot be produced quickly 
enough, and number two, that it would be prohibitively 
expensive compared to the alternative of the Atlas 5?
    Mr. Clapper. Well, as I said earlier, Senator Nelson, I--
I'm in the customer mode. I have certain imperatives, in terms 
of our assured access to space for overhead reconnaissance 
purposes. This is extremely crucial capability for the Nation's 
safety and security. I look to the providers of those who get 
those things into space, which, for me, is the Air Force----
    Senator Nelson. I understand that.
    Mr. Clapper.--to decide that. So, I--you know, the Delta 
has worked great for us. We felt it was responsive, it was 
cost-effective----
    Senator Nelson. Right.
    Mr. Clapper.--and it worked for us.
    Senator Nelson. Are you concerned that there could be a 
gap?
    Mr. Clapper. Well, I certainly would be. I mean, when we've 
had to manage gaps, not so much from a--because of launch, but 
simply because of the capabilities in space, that is a great 
concern to us in the intelligence community. So, yes, I would 
be very concerned about gaps.
    Chairman McCain. Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Director Clapper and General Stewart, thank you both for 
your service to our country. We most certainly appreciate the 
participation that you have in this meeting today.
    In October of last year, the United States Naval Institute 
published a rather chilling article detailing the long list of 
advanced weaponry that the Chinese military has cloned by 
stealing from other nations either through cyber espionage or 
reverse engineering. What roles do you see the intelligence 
agencies taking to prevent this hemorrhaging of American 
technological advantage?
    Mr. Clapper. Well, I think it's our responsibility to 
ensure that our policymakers, and particularly the Department 
of Defense, are aware of the--this hemorrhage, if you will, of 
technological information that the Chinese have purloined. So, 
I think our duty, our obligation is--from an intelligence 
community standpoint, is to make sure people know about this, 
and, where we can, suggest ways to try to stop it.
    Senator Rounds. General Stewart?
    General Stewart. I don't know if I could add anything more 
to that. We detect, we get an appreciation, understanding of 
the threat vectors, we inform, and, if we can, we provide some 
potential solutions. It then becomes up to those who have the 
technology, who have been threatened--their intellectual 
property threatened, to take those countermeasures. So, I think 
we identify, we warn, we report, and it's over to the users.
    Senator Rounds. Would you both--with regard to the tools 
that you have available today, do you have the appropriate 
equipment, tools, and technology to be able to detect and 
report these attacks?
    Mr. Clapper. Yes, we do. I do think--and this gives me an 
opportunity for maybe a small commercial that we do sustain our 
R&D. This is particularly the--important for, well, all the IC, 
but particularly NSA [the National Security Agency], that we 
stay ahead of cyber technological developments in the world 
domain for foreign intelligence purposes to stay abreast of 
these.
    Senator Rounds. What do you believe constitutes an act of 
war in cyberspace? What do you assess it would look like? When 
does it become an act of war?
    Mr. Clapper. That's a great question, Senator, that--one 
that we've wrestled with. A certain extent, it's--I guess it's 
in the eye of the beholder. This gets to the whole issue of 
cyberdeterrence and all those kind of complex questions. I 
think that's a determination that would almost have to be made 
on a case-by-case basis, depending on the impact.
    Senator Rounds. So, if we were to suggest that it was time 
to define what an act of war in cyberspace would be, it would 
not be appropriate? Or should we be looking at clearly defining 
what an act of war constitutes with regard to cyber activity? 
Would that be helpful, or not?
    General Stewart. I think it would be extremely helpful to 
have clear definitions of what constitutes cyber events versus 
acts of war. We generally look at all cyber events, and we 
define it as an ``attack.'' In many cases, you can do 
reconnaissance, you can do espionage, you can do theft in this 
domain we call cyberspace. The reaction always is--whether it's 
an adversary doing reconnaissance, an adversary trying to 
conduct HUMINT [human intelligence] operations in this domain, 
we define it as an ``attack.'' I don't think that's terribly 
helpful. So, if we can get a much fuller definition of the 
range of things that occur in cyberspace, and then start 
thinking about the threshold where an attack is catastrophic 
enough or destructive enough that we define that as an act of 
war, I think that would be extremely useful.
    Senator Rounds. Have we done enough, or a sufficient job, 
in deterring cyber aggression?
    General Stewart. I think we have a pretty robust capability 
to understand the adversaries. I think most potential 
adversaries understand that we have a capability. Whether or 
not we are ready to use that, because that's the essence of 
deterrence that an adversary actually feels, that we will use 
the capability that we have, I'm not sure we're there yet. That 
goes beyond our ability to understand and to counter with 
military capabilities. So, I think there's another dimension of 
convincing, from a policy standpoint, that we're willing to use 
that capability.
    Chairman McCain. Wouldn't it be a good idea to have a 
policy, General? As I understand it, we have no policy as to 
whether we should deter, whether we should respond, whether--if 
so, how. Is it--wouldn't it be good if we had a policy?
    General Stewart. Mr. Chairman, I always find it good to 
have a policy that guides the things that I can do as a 
military officer.
    Chairman McCain. I think that's not a earth-shaking 
comment, to tell you the truth. I don't think we'll stop the 
presses. The fact is, we don't have a policy. I don't know how 
you act when there's no policy as to how we respond to threats 
or actual acts of penetration into some of our most sensitive 
information.
    Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    Welcome, gentlemen. Great to see two marines at the table. 
As the Chairman knows, the terms ``marine'' and 
``intelligence'' are considered synonymous by most, so glad to 
see you're----
    Chairman McCain. Really?
    [Laughter.]
    Senator Sullivan.--glad to see you're bolstering that fine 
tradition.
    I wanted to focus a little bit on the--what's going on in 
the South China Sea. Director Clapper, last time you were here, 
you expressed concerns over the possible militarization of some 
of the formations that are being built up in that part of the 
world by the Chinese. As you know, here we are, a year later, 
and that's exactly happened, in terms of 3,200 acres of new 
land, seven large land features, an airfield, one of which is 
10,000 feet long. What do you believe the Chinese--what do you 
believe their goals are in the region?
    Mr. Clapper. Well, I think the Chinese are very, very 
determined to sustain their exorbitant claims in the South 
China Sea. They've had this ``nine-dash line'' playing for some 
time. They have sustained that. I think they will continue with 
building up their capabilities on these outcroppings and 
islands.
    Senator Sullivan. Do you think they're clearly looking to 
militarize those outcroppings?
    Mr. Clapper. Well, I think--not sure what--you know, what 
the definition of ``militarize'' is. Apparently, President Xi 
may have a different view than--definition than we do. I think 
when you put in runways and hangars and start installing 
radars, doing port calls with Chinese navy and Chinese coast 
guard ships--they have not yet, I don't believe, actually 
landed any military fighter aircraft yet, but they have tested 
the airworthiness, so to speak, of their air drones there with 
civilian aircraft. So----
    Senator Sullivan. So, I want to follow----
    Mr. Clapper.--I think it's very clear that they will try to 
exert as much possessiveness, if you will, over this area and 
the South China Sea in general.
    Senator Sullivan. I want to follow up on a point the 
Chairman just made. As far as our policy to counter that, you 
know, this committee, in a bipartisan way, has certainly been 
encouraging the White House, the military, to conduct regular 
FONOPs [freedom of navigation operation] in the region, 
preferably with our allies. I think our allies are all very 
motivated to see American leadership here. Do you think that we 
have clearly articulated what our policy is? Do you think that 
regular FONOPs by U.S. military vehicles--ships, aircraft--with 
our allies, is an important way to counteract the strategy that 
seems to have very little pushback on it right now?
    Mr. Clapper. Well, again, this is a policy, and we're just 
down in the engine room, shoveling intelligence coal. I do 
think that we have made clear the policy on freedom of 
navigation, and have done at least two FONOP missions.
    Senator Sullivan. Do you think our allies understand what 
our articulated policy in the region is?
    Mr. Clapper. I think they do, and I think they welcome our 
freedom-of-navigation operations. I think they are a bit 
reticent to speak publicly as supportively as they do in 
private.
    Senator Sullivan. Let me turn to the Arctic. I appreciated 
your--both of your focus on the Arctic in your testimony. As 
you know, there's been a dramatic increase in the Russia's 
military buildup in the Arctic. There's been statements by the 
Deputy Prime Minister about how we should colonize the Arctic. 
You even mentioned, Director, in your testimony, that the 
Russians would be prepared to--unilaterally, to protect their 
interests in the Arctic. Let me just ask a couple of questions, 
and you--both of you can answer them to the--however you want, 
in terms of prioritization.
    What do you believe the Russians are up to with their 
dramatic buildup in the Arctic? President Putin certainly is 
somebody who probes for weakness. How do you think he's 
reacting to our actual plans for dramatically withdrawing the 
only Arctic-trained forces in the Active Duty U.S. military? Do 
we need to be looking at, kind of, FONOP kind of operations in 
the Arctic, particularly given that the Russians have such a 
significant interest in the Arctic? They've built up their 
northern fleet, they have 40 icebreakers, and the strategic 
northwest passage is only going to become more important. Is 
that something we should be looking at doing on a regular 
basis----
    Mr. Clapper. Well, I can----
    Senator Sullivan.--in terms of our FONOPs?
    Mr. Clapper.--I can----
    Senator Sullivan. You can answer any of those--all three of 
those questions, if you'd like.
    Mr. Clapper. I can comment on--from an intelligence 
perspective, that we are turning attention to the Arctic. 
There's about a 6,000-kilometer-long coastline that the 
Russians have on the Arctic. They've established a--built 
around their northern fleet a joint command to oversee their 
military activities. They are refurbishing bases there. 
They're--quantitatively, they appear to have what--where 
they're going would be actually less than what they had in the 
Arctic regions during the heyday of the Cold War, but, 
qualitatively, it'll probably be better.
    What has stymied the Russians, as I alluded to earlier, 
though, was--their grand plans for investing there, 
particularly with energy extraction, have been stymied because 
of the economic recession. So--and they need foreign 
investment, from a technological standpoint, and they are not 
getting it, because of the economic extremis they're in.
    So, yes, Arctic is important. We engage with the countries 
that are a part of the Arctic Council, notably Canada and 
Norway. We are stepping up our intelligence-sharing with those 
countries. In terms of what the Russians are doing there. As 
far as what we do about it and troop deployments, that's kind 
of not our department.
    Senator Sullivan. You can give us assessment on what you 
believe Putin would think as he builds up the Arctic, we're 
withdrawing forces from the Arctic. In your assessment of how 
he operates and thinks, what does he think about that? How will 
he view a reduction in Arctic forces by the United States when 
he is dramatically building up forces? You can certainly answer 
that question.
    Mr. Clapper. Well, I don't know what he thinks. I don't 
read his mind. I guess anytime he sees an opportunity where he 
believes we're reducing or not being prevalent, then if he--if 
that serves his purpose, he'll take advantage of it.
    Senator Sullivan. General, any views?
    General Stewart. The Russians intend to increase their 
ability to control the Arctic regions. They've built air bases, 
they're building missile defense capability, both coastal and 
naval missile defense capability. They're doing that for 
economic and military reasons. In the absence of something that 
counters that, they will continue to expand. So, there is, I 
think, an imperative that we have both the willingness and the 
capacity to push back on their control or dominance of the 
Arctic region.
    I think they're probably in a place where they are--they'd 
be willing to negotiate and discuss how you conduct operations 
in the Arctic, but they need to have something to push against.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator King feels compelled to ask an 
additional question.
    Senator King. Thank you, Mr. Chairman, I think.
    [Laughter.]
    Senator King. Quick question about money. Two questions, 
actually.
    Where does North Korea get its money? It doesn't seem to 
have much of an economy, and yet it's building missiles, 
nuclear capability, military buildup. Where's their funding?
    Mr. Clapper. Well, the--their primary trading partner, of 
course, is China, by far, probably 90 percent of their trade. 
They--and the biggest single export from North Korea to China 
is coal. Runs around a--they get about a billion-point-two a 
year from coal sales. Then, of course, it's illicit finance--
illicit finances. They have a--an organized approach to 
laundering money and this sort of thing. So--but, most of their 
trade in the--in North Korea is natural-resource-heavy. The 
Chinese exploit that. So, that's where they get the lion's 
share of the----
    Senator King. Is it safe to say that if China decided they 
didn't like the direction of North Korean policy, they could 
have a significant influence over it?
    Mr. Clapper. I don't think there's any question that, to 
the extent that anyone has leverage over North Korea, it's 
China.
    Senator King. A second followup question, this time about 
Russia. What percentage of the Russian budget is funded by oil 
revenues?
    Mr. Clapper. Oh, I'll have to take that for the record, but 
a large part is--a significant proportion of their budget is--I 
think is from oil revenue. I don't know exactly what it is. I 
could----

    [The information referred to follows:]

    [Deleted.]

    Senator King. You've talked about a 4-percent contraction, 
I believe, in their economy over----
    Mr. Clapper. Yes.
    Senator King.--the past year, which is projected to 
continue into this year.
    Mr. Clapper. Correct.
    Senator King. At some point, it seems to me, they're going 
to reach a point where they just run out of money. I wouldn't 
imagine they would be too good a credit on the world----
    Mr. Clapper. Right.
    Senator King.--credit market.
    Mr. Clapper. They do have very significant reserves--
financial reserves that they've built up over the years, which 
they're starting to eat into. You're quite right, I mean, over 
an extended period, it can't sustain them.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Very quickly, Director. General Kelly 
testified before this committee about this issue of this 
manufactured heroin, which has now become a major issue all 
over America, particularly the northeast and the midwest, this 
dramatic increase in heroin drug overdoses. Some of it comes 
across the land border. General Kelly testified before this 
committee that he--because of his lack of assets, he watches, 
sometime, seaborne transportation of drugs that land in various 
places in the Caribbean and come up into the United States. 
Isn't that an issue that you can trace, to some degree, to 
sequestration, but also the old squeezing-the-balloon theory?
    Mr. Clapper. Well, I can't say specifically whether this is 
attributable to sequestration, or not. I just do know that 
there is a great deal of intelligence that the intelligence 
community produces on drug flow into the United States. And----
    Chairman McCain. And some of that is----
    Mr. Clapper. I've heard--I've----
    Chairman McCain.--shifted to seaborne----
    Mr. Clapper. Yes----
    Chairman McCain. Yeah.
    Mr. Clapper.--exactly. Seaborne interdiction with these 
semi-submersible vehicles that are sailed to the American 
coast. The difficulty has been: not enough operational 
resources, and particularly Coast Guard or Navy resources, that 
could be used to take advantage of the intelligence that is 
produced. I saw General Kelly speak to that, just about every 
year he testified.
    Chairman McCain. The interesting thing about this is that 
if you talk to literally any Governor in the northeast or 
midwest of this country today, they would say that this is 
practically an epidemic of--a dramatic increase in heroin drug 
overdose deaths. Now we're going to have this agreement with 
the FARC [Revolutionary Armed Forces of Columbia], which all of 
us want, in Colombia. Does that mean that a lot of these FARC 
people will go into the drug business?
    Mr. Clapper. It certainly could, sir. The other thing I--
and I alluded briefly to this in my statement--was, of course, 
the--we're seeing an increase in cocaine, which is occasioned 
by--comes from Colombia and, as part of this agreement and 
also, I think, President Santos, the--took heed of what were 
presented to him as environmental impacts of the eradication 
program that have been existent in Colombia for some years. 
They're stopping the drug eradication and trying to appeal to 
the farmers to grow other crops, which probably will be a 
challenge. So----
    Chairman McCain. We saw that experiment in Afghanistan, 
trying to get the farmers to go to other crops rather than 
poppies. It was a failure.
    Mr. Clapper. Well, it didn't seem to work, no. I mean, 
that--there is so much money to be made, and it is such a huge 
moneymaker that it's very hard, I think, to find other--
alternate crops that are equal--that are legitimate, that are 
equally profitable.
    Chairman McCain. Finally--I apologize for imposing on your 
time, but one thing we know is the Energomash, the company that 
sells the Russian rocket engines to the United States, is rife 
with people who are cronies of Vladimir Putin, people who have 
been sanctioned, part of criminal activities. Wouldn't it 
better for us to--rather than giving tens of millions of 
dollars to Russia--Putin and his cronies, to buy more Deltas as 
part of the solution? I know your answer is going to be: you're 
the purchaser. I also think that this almost borders on a 
national security issue, because, if we're going to give tens 
of millions of dollars to people who are known thugs and Putin, 
himself, who was just recently implicated by the British for 
the murder of a former KGB agent in London, the assassination 
of Boris Nemtsov in the shadow of the Kremlin, that--for us to 
unnecessarily provide the Russians with tens or hundreds of 
millions of dollars, it doesn't seem to me to be a logical way 
to do business, particularly if the we have the opportunity to 
buy more Deltas and have the development of Russian rocket 
engines here in the United States, which people like SpaceX and 
others are working on. Do you have any comment?
    Mr. Clapper. I would agree with you. I--I'm interested in 
the service, in lift, in getting--in launch, in getting our 
reconnaissance satellites deployed on time. I would much prefer 
that the totality of the system that gets those satellites into 
orbit were American.
    Chairman McCain. I thank you.
    Senator Reed, do you have----
    Senator Reed. I simply want to thank both General Stewart 
and General Clapper for their testimony and their service.
    Particularly, again, General Clapper, thank you for your 
extraordinary service to the Nation.
    Mr. Clapper. Thank you very much.
    Chairman McCain. Can I say, sometimes we have hearings that 
are, maybe, not too productive. I view this as one of the more 
helpful hearings that we have had before this committee. I 
thank the witnesses for their candor and their wisdom.
    This hearing is adjourned.
    [Whereupon, at 11:37 a.m., the hearing was adjourned.]


 
    EMERGING UNITED STATES DEFENSE CHALLENGES AND WORLDWIDE THREATS

                              ----------                              


                       TUESDAY, DECEMBER 6, 2016

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in Room 
SH-216, Hart Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, Wicker, 
Ayotte, Fischer, Rounds, Ernst, Tillis, Sullivan, Lee, Graham, 
Cruz, Reed, McCaskill, Manchin, Shaheen, Gillibrand, 
Blumenthal, Donnelly, Hirono, Kaine, King, and Heinrich.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning. The Senate Armed Services 
Committee meets this morning to receive testimony on emerging 
U.S. defense challenges and worldwide threats.
    We're fortunate to have with us three distinguished 
witnesses: General Jack Keane, Chairman of the Institute for 
the Study of War and former Vice Chief of Staff of the Army; 
Mr. Shawn Brimley, the Executive Vice President and Director of 
Studies at The Center for a New American Security; and Dr. 
Robert Kagan, Senior Fellow at The Brookings Institute, Project 
on International Order and Strategy.
    Our next President will take office as the United States 
confronts the most diverse and complex array of global security 
challenges since the end of the second World War. Great power 
competition, once thought a casualty of the End of History, has 
returned as Russia and China have each challenged the rules-
based order that is the foundation of our security and 
prosperity. Rogue states like North Korea and Iran are 
undermining regional stability while developing advanced 
military capabilities that threaten the United States and our 
allies. Radical Islamist terrorism continues to pose a 
challenging threat to our security at home and our interests 
abroad. The chaos that has spread across the Middle East and on 
which our terrorist enemies thrive has torn apart nations, 
destroyed families, killed hundreds of thousands of men, women, 
and children, and sent millions more running for their lives.
    Today--today--President Obama will deliver a speech in 
Florida touting his counterterrorism successes. I'm not making 
that up. Yet, even a glimpse at the chaos enveloping the Middle 
East and spreading throughout the world reveals the delusion 
and sophistry of this President and his failed policies. In 
short, when our next President is inaugurated, just 6 weeks 
from now, he will look out on a world on fire and have several 
consequential strategic choices to make: how to address Russian 
or Chinese aggression; how to confront threats from North 
Korea; whether to alter our relationship with Iran; how to 
improve and quicken our campaign against ISIL [the Islamic 
State of Iraq and the Levant]; how to counter the instability 
radiating from Syria; how to ensure victory in the war in 
Afghanistan--and I could go on--not to mention the overwhelming 
challenge of cybersecurity. Our next President will not have 
the benefit of time and cautious deliberation to set a new 
strategic course for the Nation. That work begins with a series 
of decisions that will present themselves immediately on day 
one. That's why it's so important to get these things right 
from the outset.
    As we ponder these strategic questions, we must also 
consider our military posture around the world. We must decide 
the appropriate military presence in Europe and reverse 
reductions made by the Obama administration under the 
assumption that Russia was a partner. We also need a fresh look 
at further steps to enhance U.S. presence in the Asia-Pacific 
region. We need to uphold our commitments to allies and 
partners, including by finally providing lethal assistance to 
Ukraine and standing by the opposition in Syria. We need to 
push back against the spread of Iranian malign influence in the 
Middle East. This starts in Iraq, where the eventual liberation 
of Mosul will intensify the sectarian struggle for power and 
identity. We need to finally give our troops in Afghanistan 
what they need to succeed: permanent and flexible authorities 
to engage the enemy and troop levels based on security 
conditions on the ground.
    Here at home, we need to return to a strategy-based defense 
budget. Our next President would need more than $100 billion 
over and above the Budget Control Act caps just to execute our 
current defense strategy, which is insufficient, since it 
predates Russian invasion of Ukraine and ISIL's rampage across 
Syria and Iraq. This will require our next President to 
negotiate a broad bipartisan agreement on the budget that 
brings an end to the dangerous and misguided Budget Control 
Act. Such an agreement has eluded President Obama and the 
Congress, not because of disagreements on defense policy, but 
because we've lacked the political will to prioritize defense.
    Since the election, many have discussed domestic 
priorities, including reviewing Obamacare, increasing 
information spending, and implementing tax cuts. These can be 
no--there can be no greater priority than preserving and 
increasing America's position of strength and military 
advantage in the face of increasing global dangers, that 
rebuilding our military must be a political priority, not just 
a talking point. We must not only provide stable and increased 
defense budgets, but the next President's administration must 
also implement reforms to the Nation's defense. This will 
include changes to the defense enterprise passed by the 
Congress over the last 2 years.
    I'm proud of the work we've done on modernization--on 
modernizing military retirement, improving military healthcare, 
reforming defense acquisition, trimming Pentagon bureaucracy, 
and more. The ultimate success of these reforms will depend on 
years of faithful implementation and dedicated follow through 
by the Department of Defense.
    The President-elect's selection of General James Mattis to 
serve as Secretary is an encouraging sign in this regard, but 
there are dozens of senior civilian and military nominations 
still to come, and it will be the job of this committee and the 
full Senate to provide advice and consent on these nominations. 
We will be watching closely to see what choices the next 
President makes.
    I encourage the next President to be bold. We need 
innovators for the future, not imitators of the past. We need 
thinkers open to new ideas, not functionaries wedded to old 
ways. We need people who understand the bureaucracy but will 
not be captured by it. Put simply, to ensure the success of 
defense reform, we need reformers throughout the leadership of 
the Department of Defense.
    Finally, our next President needs to repair the 
relationship between the executive and legislative branches. 
The constitutional mandate to provide for the common defense is 
one the President and the Congress share together. This is not 
a defect, but the design of our founders. To deter adversaries 
and defeat our enemies, fix our defense budget, and implement 
critical reforms on--to our defense enterprise, the executive 
and legislative branches must work together as coequals. We 
need our next President, our next Secretary of Defense, and 
those elected to the next Congress to uphold this essential 
constitutional principle. The American people and the men and 
women who serve in our Armed Forces deserve and expect nothing 
less.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman. 
Thank you for holding this very important hearing.
    I also want to thank the witnesses for their participation, 
not only their participation, but their service in so many 
different capacities to the Nation over many, many years. Thank 
you all very much.
    The most immediate threat to the safety of Americans at 
home and abroad still remains the Islamic State in Iraq and the 
Levant, or ISIL, and the remnants of al Qaeda. I recently 
returned from the region, where I met with our military 
commanders, diplomats, and senior political leaders. 
Militarily, ISIL is on the path to defeat in Iraq. The Iraqi 
Security Force, enabled by U.S. and coalition train, advise, 
and assist efforts, coupled with airstrikes, intelligence, and 
other support, are in the process of displacing ISIL from Mosul 
and are expected, in the coming months, to significantly 
disrupt the ability of ISIL to hold any key terrain within 
Iraq. Nevertheless, ISIL will likely continue to act as the 
subversive force in Iraq for the foreseeable future; and also, 
as the Chairman indicated, with the final capture of Mosul, 
that will start a political process in which the sectarian 
groups will vie for power, and that could be a decisive and 
critical theater arena of action in Iraq.
    In Syria, isolation operations around Raqqa have commenced, 
but the task of supporting forces on the ground who will 
ultimately enter, clear, and hold Raqqa is months away. Unlike 
Iraq, we have no partner in Syria for humanitarian, 
stabilization, and reconstruction efforts. Even after Raqqa is 
retaken, the security situation will remain extremely difficult 
as the remnants of ISIL seek refuge in the largely ungoverned 
areas of eastern Syria along the Euphrates River as the broader 
Syrian civil war is likely to rage on.
    I also recently visited Afghanistan, where political 
tensions between President Ghani and Chief Executive Officer 
Abdullah appear to be receding as the 2016 traditional fighting 
season comes to a close. Our commander in Afghanistan, General 
Nicholson, recently described the conflict between the Afghan 
government and the Taliban as, in his words, ``an equilibrium 
in favor of the government because they are controlling the 
majority of the population.''
    Decisions earlier this year by the President to maintain 
approximately 8400 U.S. troops in Afghanistan into 2017 and to 
provide robust support to the Afghan national defense and 
security forces has laid the foundation for a sustainable U.S. 
and international security presence in Afghanistan. The 
decision also sent an important message to Afghans, the 
Taliban, and others in the region, including Pakistan, 
regarding the commitment of the United States to continue 
progress in Afghanistan. Assuming the continued support of the 
Afghan government and the support of its people, I hope the 
next administration will follow a conditions-based approach to 
U.S. presence in Afghanistan that provides flexibility on the 
number of military personnel deployed in support of our longer-
term strategy there.
    Over the past few months, the implementation of the Joint 
Comprehensive Plan of Action, the JCPOA, has largely proceeded 
as planned. While the JCPOA is having its intended impact in 
the nuclear arena, Iran's behavior with respect to its proxy 
forces across the region has not improved, and, as I discussed 
during my recent visit with the commander of our naval forces 
in the Middle East, Iran's unsafe and unprofessional actions in 
the maritime arena continue. How the new administration chooses 
to proceed with respect to Iran will be an important decision. 
It is critical that we need cede space or territory to Iranian 
influence, but it's similarly critical that we not take actions 
that escalate tensions unnecessarily and can be blamed on the 
United States. For example, as many experts have pointed out, 
the likely result of the U.S. unilaterally withdrawing from the 
JCPOA would be a resumption of the Iranian nuclear program 
without the ability to reimpose effective sanctions, which rely 
on enforcement by our partners around the world.
    In Europe, we continue to be a witness to a number of 
destabilizing factors, including adversarial actions by Russia, 
acts of terrorism, and sustained refugee and migrant flows. 
Such instability is acutely on display in Ukraine, where 
Russian-based separatists commit daily cease-fire violations 
with seemingly endless resupply from Russia, and disinformation 
campaigns continue to undermine public confidence in Ukrainian 
government institutions. This confluence of destabilizing 
factors makes the multinational effort underway to strengthen 
Ukraine's capability to defend itself and to decrease 
corruption, increase accountability, and reform institutional 
structures all the more important.
    In the Pacific, China has alarmed its neighbors in the 
South China Sea by militarizing land features in a body of 
water that is critical for trade and regional peace, and 
refusing to acknowledge the international norms and laws that 
govern those waters.
    In Korea--North Korea--Kim Jung-un continues to destabilize 
the Korean Peninsula with nuclear ballistic missile 
developments, and sanctions are not working as effectively as 
they should to bring the North Koreans to the negotiating 
table. Regimes as authoritarian and insulated as North Korea's 
are brittle and prone to collapse. How we would deal with such 
a collapse and the security and humanitarian problems that 
would ensue is an ongoing debate and challenge to U.S. Forces 
Korea and the PACOM [United States Pacific Command] Commander.
    Finally, defense budgets should be based on a long-term 
military strategy, which requires the Department to focus at 
least 5 years into the future. Last year, Congress passed the 
2015 Bipartisan Budget Act, or BBA, which established the 
discretionary funding levels for defense spending for fiscal 
years 2016 and 2017. While the BBA provided the Department with 
budget stability in the near term, there is no budget agreement 
for fiscal year 2018 and beyond. Therefore, without another 
bipartisan agreement that provides relief from sequestration, 
the military services will be forced to adhere to the 
sequestration-level budget caps and could undermine the 
investments made to rebuild readiness and modernize platforms 
and equipment.
    Again, Mr. Chairman, thank you for this important hearing.
    Chairman McCain. I thank you.
    I thank the witnesses.
    General Keane, given your advanced age, we will begin with 
you.

   STATEMENT OF GENERAL JOHN M. KEANE, USA (RET.), CHAIRMAN, 
INSTITUTE FOR THE STUDY OF WAR, AND FORMER VICE CHIEF OF STAFF 
                          OF THE ARMY

    General Keane. Thank you, Mr. Chairman. Love that 
introduction.
    [Laughter.]
    General Keane. Good morning, everyone. Listen, I'm 
delighted to be here with Dr. Kagan and--my good friend. Let me 
just say something about Dr. Kagan, here, and his family. His 
father, himself, his wife, his brother, and his sister-in-law 
all----
    Chairman McCain. All have exceeded----
    General Keane.--make a great contribution----
    Chairman McCain.--exceeded his----
    General Keane.--to this country, believe me.
    Mr. Brimley, as well, thank you to be here.
    Chairman McCain, Ranking Member Reed, and distinguished 
members of the committee, thank you for inviting me once again.
    Listen, I so appreciate what this committee has done 
through the years in taking care of our men and women in the 
Armed Forces. Just let me say straight out, my congratulations 
to the committee and to your leadership, Senators McCain and 
Reed, for your seminal achievement with the FY17 NDAA [National 
Defense Auhtorization Act]. We've not had such a critical 
transformational piece of defense legislation in 30 years, not 
since Goldwater-Nichols in 1986. You've stopped the drawdown of 
our ground forces, particularly the Army, who's borne the brunt 
of 15 years of war. They're still doing heavy lifting around 
the world. You know, it was the Army who was asked to reduce 
its force structure to pay for the needs of the other 
Departments. Makes no sense whatsoever.
    I applaud your bold reforms on defense acquisition, 
military healthcare, security cooperation, and the reduction of 
flag officer and SES billets--I know you will eventually get 
around to compensation, which is in dire need-- and, of course, 
the much needed increase of funding to depleted readiness 
accounts.
    Let me summarize what you have in front of you with my 
written statement, which has an unusual amount of verbosity in 
it, but, given the subject matter was so important, I decided 
to write a little bit more than I usually do. Let's start with 
the defense challenges.
    You know as well as I do, there's a lot more that we have 
to--done here. You have made an incredible first start with the 
FY17 NDAA, but we have major capability gaps, and we've got 
serious funding issues. The BCA has to end. We can't do 
anything if that continues. We can't get out our hole, and it's 
going to put us in a worse hole.
    It's--you know, it's not sufficient, you know, to be the 
best military in the world. Certainly, we take pride in that, 
as we rightfully should. We've--we spend more money than many 
other nations do if you add them all up, by comparison, in 
defense. What is really needed is, we have to be so superior in 
our capability that our adversaries are not willing to 
challenge us. The reason is because we're a credible deterrent. 
We had that for many years in the Cold War. We were, indeed, a 
credible deterrent. I believe that deterrence, with other 
issues, helped to force the collapse of the Soviet Union.
    So, since that time, we've had two and a half decades since 
the end of the Cold War, and--which has been reasonably 
successful, in terms of foreign policy and national security. I 
don't dispute that. With some exceptions. We have been 
continuously decrementing the United States military during 
that whole period of time. Our adversaries are closing the 
technology gap. They are catching up.
    We are ill-prepared, as we sit here today, to meet all the 
threats that we're facing. I don't make that statement lightly. 
You've had a Chief of Service come in here--[General Mark A.] 
Milley, straight talker--tell you, in no uncertain words, that 
he's at high military risk to win a conventional war. Now, that 
didn't get a headline in any newspaper, it didn't even cause a 
stir with the administration. We haven't had a service chief 
make a statement like that in 40 years. Other service chiefs 
could make the same statement. The Air Force, they've got a 
1947 air force, in size. They've got 60-percent-plus combat 
aircraft than what we used to have when we began the decline. 
Sixty-plus percent. The Navy--you know, you're aware of it--
they've got 270 hulls, and they're going to 308. The 270, as 
part of that, they're going to retire more ships than they can 
replace during the timeframe to get to the 308. They've gone 
through a 50-percent-plus reduction during this two-and-a-half-
decade decline. If you look at it in spending dollars, constant 
dollars, we're spending about the same amount of money that we 
did three decades ago, but we're considerably smaller. We've 
got so--less to show for it. So, we've got to fix the 
shortfall. The reality is, we need more combat brigades. The 
reality is, we need more ships. The reality is, we need more 
aircraft. It's indisputable.
    The technology gap, it's closing, and closed. Precision-
guided munitions, space-based technology, stealth, offensive 
and defense missiles, long-range artillery, they're all there. 
That capability exists in our adversaries.
    Russia and China, they have a brilliant strategy. They're 
not stupid. They've got an asymmetric strategy to minimize the 
great-power advantage that we have in our air and maritime 
capability. So, what have they done? They've made long-range 
anti-ship missiles, and they've made long-range anti-aircraft 
missiles. Those things matter. They've deployed them in eastern 
China. That's a major challenge for us. They've deployed them 
in western Russia, and it's also a major challenge for us.
    Russia's got a new tank. It's a T-14 Armata. The crew is no 
longer in a turret. The first time that's ever happened. It's 
in the main body. They're in a special protected capsule. It 
has advanced reactive armor, second generation, on it that we 
believe--we don't know for sure--but our main tank sabot round, 
long penetrator, it'll stop it. It also has active protective 
system on it, their second generation. The United States has 
not fielded a single Active Protective System on a tank yet, or 
any other combat vehicle. Your committee has mandated they do 
it. You put some money in there for them to do it.
    Now, listen, if you don't know what Active Protective 
System is, let me take you through it for a second. You put 
sensors on a vehicle that track an incoming round to the 
vehicle, and, as the vehicle--as the round is about to hit the 
vehicle, you actually have a kill system on the vehicle that 
kills the round before it hits. Brilliant technology. Where do 
we get all of that from? Private sector. It has to do with 
microchip technology and incredible software programs. Out 
there on the private sector, smart guys, small business guys 
got it. DARPA [Defense Advanced Research Projects Agency] had a 
program, over 10 years ago, to look at this. Technology's 
proven, and the United States military ground forces still 
haven't put it on anything. What's wrong with that? It has 
nothing to do with money. It doesn't have anything to do with 
the White House. It doesn't have anything to do with Congress. 
Doesn't, I mean, have anything to do with OSD [Office of the 
Secretary of Defense]. You know what it is? It's the damn 
bureaucracy inside the Army. They push back on new technology, 
because they want to design it themselves because you give them 
money to do it. These are the laboratories and the tech bases. 
It's the acquisition bureaucracy that stalls this.
    When I was Vice Chief of Staff for the Army, I had no idea 
about all of that, and it took me a year or two to figure out 
what I was really dealing with, bureaucrats and technocrats 
that were stalling the advance of a great army. That's out 
there. You've got to bore into that with this committee. The 
military and Defense Department needs help to break down that 
bureaucracy.
    Listen, some--all the service chiefs know what they want to 
do with their service, but allow me a little bit of allowance 
here, as an observer, to throw out a couple of tidbits. You 
know, for my Army, the Army that you're looking at is a 1980s 
Army. That's the equipment it's got. It hasn't had a new major 
end item since the 1980s. The Stryker vehicle was bought off-
the-shelf. That's a legacy system out there. The problem is, 
they're 200,000 shorter--smaller than what the 1980 Army was. 
200,000 smaller. If you have Active Protective System like I 
just said, and you can kill anything that comes at a tank, 
should we design a tank that looks different than what it is? 
Does it really have to be 70 tons? I don't think so.
    So, the Army's got to do some thinking about where it's 
going. I--also, I believe it has to rethink its organization, 
how it fights, and go after the technology that is available, 
and press the R&D [research and development] community to get 
you the new technology that you can conceptually even think 
through yourself.
    The Navy--lookit--what the Chinese have is serious, in 
terms of long-range anti-shipping. Long-range anti-ship 
missiles are here to stay. Nineteen ship surface carrier battle 
groups, does that still make sense in the face of that threat? 
They can put--they can swarm those missiles. They can bring 
them en masse against that carrier battle group that will 
really test our air defense systems. Doesn't it make sense to 
look at undersea warfare and take a look at all the functions 
that are taking place on the surface, and whatever functions on 
the surface we can do undersea, put it there. Why? You've got 
protection and you've got stealth. Seems to make sense. Some of 
this is cultural, to be sure, inside services. You know, these 
things are not easy. There are good people there. You can push 
it a little bit. Goldwater-Nichols changed the United States 
military. FY17 NDAA is going to do some of that, as well.
    The Air Force--lookit, we know--we know it intuitively. 
It's obvious. It's right in front of us. Unmanned flight is 
here. It's here. We've got to get serious about it. If you put, 
in a remote station, a pilot and a multifunctional crew versus 
a single pilot or a dual pilot in the air, that is an enhanced 
airpower capability. That's here. We can do that. We've got to 
think about doing it.
    I also think--and comes through our flag officers, it got 
at something that Senator McCain was saying--we've got to look 
for our flag officers who are not risk-averse, who themselves 
are not bureaucrats, and who have--they're willing to take risk 
and are innovative. The reason why they got that rank on their 
shoulder has nothing to do with cars, airplanes, and all them 
other stuff that goes with it. It all has to do about taking 
the rocks out of the rucksack of our soldiers and moving that 
system forward. We've got to get the best that we can to do 
that kind of work.
    Let me just say that modernizing a military is challenging. 
We can do it, even though we're facing all these threats, as 
Senator McCain and Senator Reed took out. General Marshall, 
Admiral King, General LeMay, Admiral Rickover, General Abrams, 
they all met those challenges, and they transformed our land, 
air, and sea forces. They are the ones that are responsible for 
winning on the battlefield from Normandy to the Philippines and 
from Kuwait to Iraq.
    Let me just say something about the DOD [Department of 
Defense] business side of the house. Certainly, we are the best 
fighting force in the world. We're first-rate at that. We're 
absolutely third-rate at running the businesslike functions of 
DOD, because we're not good at it. We don't know enough to be 
good at it. We're managing huge real estate portfolios, we're 
managing huge lodging capabilities. We're one of the great--
biggest motel owners in the United States. We're managing the 
largest healthcare enterprise in the world. The amount of 
maintenance that we're doing, from a pistol to an aircraft 
carrier, is staggering. Those are all business functions. 
Business functions. They're all non-core functions. We're also 
managing new product design and new product development, using 
business terms. We don't do well at this. There's a ton of 
money involved in it. We've got to get after that money, and 
we've got to do better at it. I think we should bring in, as 
the number-two guy in the Department of Defense, a CEO [Chief 
Executive Officer] from a Fortune 500 company in the last 5 
years that's done a major turnaround of a large organization. 
We need businesspeople to help us do this. We need a CFO [Chief 
Financial Officer], not a comptroller, in DOD. That CFO has the 
background that's necessary to look at business practices in 
the DOD, where cost is a--cost-based analysis and performance, 
internal control, auditing, rigorous financial reviews, cost 
efficiency, and dealing with waste. Those are the kind of 
things we need. Desperately need them, because the money is 
there. We want to--you want to do so much more. Some of that 
money is sitting right there in the budget.
    You know as well as I do that these global security 
challenges we're--facing us are enormous. Senator McCain laid 
them all out. I won't go through them all. I'll just touch on a 
couple of things.
    One is American leadership. That is where we have to start. 
American leadership is crucial and indispensable in this world 
to global security and stability. The world economy absolutely 
depends on that global stability and security. We need to 
reassure our allies that we're going to stand behind them. They 
don't trust us. They don't believe we're the reliable ally we 
used to be. If you travel the world, you're getting the same 
thing that I'm getting. This is real. They--as a result of it, 
they're making decisions based on that fear. Some of those 
decisions are not very good.
    Radical Islam. We know it's a multigenerational problem of 
the 21st century. We know we have to name it, we have to define 
it, and we have to explain it to the American people. My God, 
if they're going to deal with this for the 21st century, we're 
going to have people killing them on some kind of episodic 
basis, they certainly need to understand a little bit about it, 
you would think, that we can explain what this is, what this 
ideology is, what are the signs, symbols, dress, and behavior 
and speech of those who radicalize themselves to it, so their 
eyes and ears can identify it and report it to somebody. Just 
makes sense, but we're not doing it.
    The other thing is, we need to develop a comprehensive 
strategy, but we can't do that until we form a global alliance 
to push back against what is a global threat. We haven't done 
it.
    ISIS [the Islamic State in Iraq and Syria]. ISIS is the 
most successful terrorist organization that's ever been put 
together. We're making progress against them in Iraq, to be 
sure. We do not have an effective strategy to defeat them in 
Syria, because we don't have an effective ground force. We have 
no strategy to deal with the spread of ISIS to 35 other 
countries. I'm not suggesting for a minute that we're involved 
in all of that, but I think we can tangibly help the people who 
are. This administration's going to have to deal with, How do 
we defeat ISIS? Not just how we succeed in Iraq. I think 
they're going to ask for a comprehensive campaign plan to do 
it. I don't think there has been one, to be frank about it.
    In Iraq, we will retake Mosul. How long will depend on how 
much ISIS wants to defeat--to resist. They didn't resist in 
Fallujah and Ramadi that much. After we take Mosul, if we have 
sectarian strife in Mosul, where we do not have unity of 
governance and unity of security, then that is going to 
contaminate the political unity in the country as a whole which 
is so desperately neeed. That is a major issue for us.
    The major geopolitical issue for the United States in Iraq 
is political unity with that government and diminishing Iran's 
strategic influence on Iraq. That is what we should be working 
on. Frankly, we have not. We have not worked on that anywhere 
near as hard as we could be. We can't get the Secretary of 
State to make regular visits there to work on that very 
project. The Iranians are there all the time. That is a major 
issue for us. This administration's going to have decide, as 
the previous one did, Are we going to leave troops in Iraq? 
Yes? No? How much? What are they going to do? How long? Those 
are decisions in front of them. I would hope that we would 
avoid the disastrous pullout we did in 2011, which had 
incredible consequences, as we all know. The Syrian civil war, 
a major human catastrophe, to be sure, and as intractable a 
problem, I think, as any of us have had to deal with.
    The reality is, we squandered the opportunities to change 
the momentum against the regime. I won't list them all. You're 
aware of it. Right in front of us, I still believe we could put 
safe zones in there to safeguard some of those humans up near 
the Jordanian and Turkish border. That, de facto, would be a 
no-fly zone. I think it would also aid the Syrian moderates, 
and likely attract some others to that movement. Many of the 
people that were helping the Syrian moderates, the Islamists, 
moved way when we did not execute the 2013 chemical redline.
    Chairman McCain. General, we're going to have to----
    General Keane. Okay, I'll wrap it up.
    Afghanistan. Let me just say, the war is not winnable under 
the current policy. We cannot win. That's the reality of it. 
We've got sanctuaries in Pakistan. No insurgency's ever been 
defeated with sanctuaries outside the conflict area. Pakistani 
and Afghan National Security Forces do not have the enablers 
they need to be able to overcome the Taliban, who have 
resurged. There's ways we can deal with that, to be sure. I'll 
take it on in questions-and-answers.
    With Russia and China, I'll just tell you that my view is 
strength and resolve in dealing with both of them. They would 
recognize that. I truly believe that Russia's aggression needs 
to be stopped. Credible deterrence is the way to do it. The 
resolve in that deterrence. Russia certainly wants to be an 
equal partner with the United States to be on the world stage. 
Grant them that. We should make no concessions to them until 
they change their behavior.
    I'll just stop right there, Mr. Chairman, and I'll take 
your questions later.
    Thank you.
    [The prepared statement of General Keane follows:]

         Prepared Statement by General John M. Keane, USA (Ret)
    Chairman McCain, ranking member Reed and distinguished members of 
the committee thank you for inviting me once again to provide testimony 
on our major defense issues and global security challenges.
    Let me say, straight out, my congratulations to the committee and 
to your leadership, Senators McCain and Reed for your seminal 
achievement with the FY 17 NDAA. We have not had such a critical 
transformational piece of defense legislation in 30 years since the 
passage of Goldwater-Nichols in 1986. You have stopped the drawdown of 
our ground forces, particularly, the Army who has borne the brunt of 15 
years of war, is still doing heavy lifting around the world, yet, it 
was the Army who was asked to reduce its force structure to pay for 
needs in the other departments. Makes no sense. I applaud your bold 
reforms on defense acquisition, military healthcare, security 
cooperation and the reduction of flag officer and SES billets. Of 
course the much needed increase of funding to depleted readiness 
accounts.
                          defense challenges:
    It will take the help of the new President and the new Congress to 
complete what you have begun because there are major capability gaps 
and serious funding issues remaining. The Budget Control Act 
(sequestration) must be ended. Frankly, it's not sufficient to be the 
best military in the world, or to spend more money on defense than the 
next five or so militaries combined, what is critical is that the US 
military is so superior in capability that our adversaries are 
unwilling to challenge us because we are such a credible deterrent. We 
achieved this during the Cold War and it was a factor in the Soviet 
Union collapse. Regrettably, this superiority is dangerously eroding. 
Over the course of the past 2 = decades since the end of the Cold War, 
the capacity of US armed forces has been continuously decremented and 
coupled with the rapid closing of the military superiority gap by 
potential adversaries, the US military is ill prepared to meet the many 
and various security challenges it faces around the world today and in 
the future. Readiness is down across the board in all the services with 
pilot training, safety and aircraft maintenance reaching critical 
levels. The Army Chief of Staff, General Milley, known for straight-
talk, in testimony before this committee told you that because only one 
third of his combat units were ready for combat, that the Army is at 
``high risk'' for winning a conventional war. We have not had a service 
chief make a statement like that in 40 years. Other service chiefs 
could make similar statements. As you know, we have the smallest Air 
Force since 1947, and a 270 hull Navy, while moving to 308 ships, the 
Navy will be retiring ships faster than they can be replaced. In 
constant dollars we are spending about the same on defense as we did 
almost 3 decades ago. Alarmingly, for today's defense budget we are 
fielding 35% fewer combat brigades, 53% fewer combat ships, 63% fewer 
combat aircraft squadrons along with a dramatic increase in overhead 
not directly related to war fighting combat power.
    The technology advantages that were enjoyed from the end of the 
Cold War are closing rapidly and in many cases have closed: precision 
guided munitions, space-based technology, stealth, offensive and 
defensive missiles, long range rocket artillery and ground warfare. Our 
revisionist adversaries Russia, China and to a lesser degree North 
Korea and Iran are developing asymmetric capabilities to minimize the 
air and sea power technology advantage we have enjoyed for years by 
fielding significant long range anti-shipping and anti-aircraft missile 
capability. These forces are forward deployed in Eastern China 
challenging western Pacific access and Western Russia at Kaliningrad 
challenging Baltic Sea access. The Russians who are fielding a 
revolutionary tank, the T14, Armata, the first ever, no crew in the 
turret (they are in a protective capsule in the forward main body), has 
an improved gun system, and has their 2nd generation active protection 
system (APS). The Israelis launched an Armor brigade, their very best, 
to conduct an approach march from West to East Gaza, during the last 
conflict in 2014, with APS on each combat vehicle in order to destroy 
the rockets/missile infrastructure that they could not accomplish with 
air power. They rode through a gauntlet of sophisticated, anti-tank 
systems and did not lose a single vehicle, due primarily to APS.
    The US Army has not fielded a single combat vehicle with APS, 
(although with your mandate and funding they will begin soon) despite 
that the US defense industry has had this proven technology for over 10 
years, which was a DARPA initiative. While funding is usually an issue 
with new technology this is not a funding issue nor is it the White 
House, the Congress, or OSD, this is the Army's acquisition system, 
their labs and tech base, who steadfastly pushed back on this 
technology preferring in-house design as part of a risk averse culture 
to new, outside technology. Thank you to this committee and the 
Congress at large in seeking acquisition and innocation reform which 
demands not only major organization and systemic changes but a 
fundamental cultural change in accepting risk and failure as part of 
the innovation process.
    Given the challenges our adversaries are presenting and the decades 
of military decline in capability, we now must fix it, but we cannot 
rely on the much maligned acquisition system to get us there. This must 
be an urgent, high priority effort and your directed changes help: 
service chiefs back in the acquisition process to help drive it, 
separating out the research and development function at OSD (they are 
the future), rapid prototyping to dramatically accelerate production of 
what works, trial and error experimentation and accepting that failure 
is an answer and not a necessarily bad answer.
    The service chiefs certainly know what future capability they 
desire but it's also appropriate for others to make observations that 
at times seem quite obvious. A few tidbits of my own:

    a.  The joint force is how we fight and while our success is 
technology dependent equally important are adaptable, flexible JT force 
organizations that can react to the unexpected and are grounded in up 
to date doctrine that truly advantages our technology.
    b.  The ground force today is essentially organized and equipped as 
it was in the 1980s, yet considerably smaller (Army 200K less). 
Furthermore enabling forces like artillery, armored reconnaissance, 
engineers, air defense, theater support, etc. have been reduced to 
levels that compromise our ground force ability to field campaign 
quality forces. Our ground force is not in balance and they must 
rethink their organization, doctrine and put together a modernization 
program that moves away from the 1980 legacy systems and embrace 
advance technology that is available and push the R&D hard for new 
technology.
    c.  The Navy battle formations are vulnerable to long range anti-
shipping missiles which can be sent en masse, challenging the best of 
our air defenses. Doesn't it make sense to embrace the reality that the 
undersea affords our combat power significant protection and stealth 
and therefore charge our fleet design around the principle that 
whatever is on the surface as to capabilities that can be accomplished 
under the sea, we should get on with it, and therefore redesign our 
fleet? Don't we need to move from the large aircraft carrier to smaller 
platforms yet more of them to give us some redundancy and flexibility?
    d.  The time is here to recognize that the future of air power is 
unmanned. It's not a technology issue, it's largely about culture. A 
pilot with a multi-functional team at a remote station is an enhanced 
air power capability.

    Modernizing while supporting significant operational demands is not 
easy, but it has been done before. Leaders like General Marshall, 
Admiral King, General LeMay, Admiral Rickover and General Abrams 
transformed our land, sea and air forces before in periods of great 
challenge. Their efforts fielded trained, disciplined and modernized 
formations that won on battlefields from Normandy to the Philippines, 
from Kuwait to Iraq.
    The Defense Department capability to fight is second to none, as 
the record speaks for itself, but its ability to manage effectively the 
business like functions of the DoD are, at best, third rate. In as much 
as DoD is not a business, it does have vast business-like functions 
that it must manage; real estate (housing, barracks, maintenance 
facilities, warehouses, training areas, ship yards, airfields), lodging 
(transient and guest quarters), utilities ( power plants, electrical 
grids, water treatment facilities), new product development and 
production (research, development and acquisition) maintenance (from a 
pistol to an aircraft carrier) and the largest healthcare enterprise in 
the world. Much of these non-warfighting functions lend themselves to 
major reform as public-private partnerships (PPP) similar to the highly 
successful PPP, the Army residential initiative, or RCI, which led to 
the transformation of 88,000 Army units. Quality of life and family 
satisfaction rose exponentially while cost and maintenance were driven 
down.
    The new Secretary of Defense should consider appointing as his 
deputy a successful Fortune 500 CEO who has executed a turnaround of a 
large business in the last 5 years. The comptroller should no longer be 
someone that simply has knowledge of the DoD federal budget and 
programming process but rather is a major corporate CFO, who should be 
the DoD CFO, therefore understands rigorous financial review, cost 
basis analysis, auditing, internal reporting, cost controls and holding 
the organization accountable for financial efficiency as well as waste.
                      global security challenges:
    Our new President and his national security team will be 
confronting global security challenges on a scale not seen since the 
rise of the Soviet Union to super-power status following WWII. Radical 
Islam is morphing into a global jihad; ISIS is the most successful 
terrorist organization in history despite losing major territory in 
Iraq, it has expanded into 35 countries and is motivating followers to 
kill their fellow citizens around the world; Al Qaeda is a thriving 
revitalized organization; the Taliban control more territory in 
Afghanistan than at any time since the successful invasion of 2001; 
revisionist powers Russia, China and Iran are seeking some form of 
regional domination; North Korea is a rogue nation with an unsteady 
leader who is building a nuclear and ballistic missile arsenal and 
threatening to use it; and advanced adversarial states are conducting 
cyber attacks and espionage activities at exploding levels in stealing 
intellectual property, technology and critical information.
    What makes this such a dangerous situation is that unlike previous 
security challenges, the US today is failing miserably to adequately 
meet these threats, so much so that our adversaries are emboldened and 
our friends and allies no longer trust us.
                           what can be done:

    1.  American Leadership--Recognize that American leadership is 
crucial and indispensable to global stability and security which is so 
vital for a progressive and growing world economy. Without strong 
American leadership the world becomes a more dangerous place. As such, 
we should reassure our allies that the US will stand with them against 
regional aggression and help them organize to meet the challenges of 
radical Islam.

        Also, it is critical that our allies are not simply relying on 
the US defense umbrella but are tangibly contributing to their own 
local and regional defense while investing their fair share.

    2.  Radical Islam--must not simply be named as a political and 
religious ideology fighting a war within a great religion, which does 
not mean that the US is at war with Islam, but radical Islam must also 
be defined and explained so that the American people can be informed 
and educated. As such they can better understand why this is the multi-
generational security challenge of the 21st century and equally 
important for the American people, who are our eyes and ears, in how to 
recognize the dress, behavior and speech of a radicalized Islamist 
terrorist who is living among us. Similar to the communist ideological 
threat where the US helped craft a strategy and organize a regional 
political and military alliance, we must now form a global alliance and 
develop a comprehensive strategy to defeat the movement and its 
ideology.

    3.  ISIS: Iraq/Syria and the World Beyond--

       -- Overall--First and foremost the POTUS as CINC needs an 
assessment of the current situation, future plans and if the desired 
end state is less than satisfactory then what will be needed is a 
comprehensive campaign plan to defeat ISIS, not simply in Iraq and 
Syria but a strategy as well for the 35 countries where ISIS has 
expanded , particularly with its external terrorist network.

       -- Iraq--The military campaign led by Iraq and supported by the 
US will eventually succeed in retaking Mosul. How long it will take 
depends on ISIS desire to resist. They eventually abandoned Fallujah 
and Ramadi after initially resisting. How Mosul ends is very important 
because if it winds up in sectarian strife and there is no unity in 
governance and security after, then it will contaminate any chance of 
political unity in Iraq, at large, which is as significant to success 
as the military campaign. US policy should be all-in on its focus for 
political unification in Iraq and diminishing Iranian influence which 
has grown exponentially at US expense since Iraq was abandoned 
politically in 2009 and militarily in 2011. Iraq is a country of 
consequence in the region with wealth, an educated class of people, and 
a huge potential for political and economic progress. US policy must 
counter the Iranian desire that Iraq remain a weak, but stable country, 
and allied with Iran as part of its strategic objective to dominate the 
Middle East region. Our diplomatic effort to date has been feeble with 
the Secretary of State rarely visiting the country and not surprising, 
as a result, a lack of focus in achieving our strategic political 
objectives. The new administration will face near term decisions of 
withdrawing or keeping U.S. forces in Iraq and, if so, how many will 
stay, how long and for what mission. Certainly if we have learned 
anything after the disastrous 2011 pull out, is that US forces are a 
stabilizing factor that not only impacts security but the vital issue 
of political growth and unity. Post WWII Europe and Japan, South Korea 
after the Korean War, Bosnia-Herzegovina and Kosovo are vivid examples.

       -- Syria--There is no effective plan to defeat ISIS in Syria as 
there is not a capable ground force. The Syrian Arabs and Kurds 
assisted by US SOF is simply not sufficient. The CINC must be presented 
with alternative ground force options which includes neighboring 
countries, NATO and the US along with the associated risk.

       -- ISIS beyond Iraq and Syria--With ISIS in 35 countries as part 
of its external terrorist network, the US and our allies should assist 
these countries where needed with intelligence, training and 
technology.

    4.  Syrian Civil War--A frustrating calamity and a growing human 
catastrophe where so many opportunities to at least try to change the 
momentum against the Assad regime were squandered. No one has seriously 
proposed a military solution to the Syrian civil war, although a 
military victory in a civil war is not without its historical 
precedence. What was proposed by national security team key leaders and 
by analysts outside the administration were limited military options 
that could change the momentum against the regime and force a political 
solution. Clearly some of these options are not as viable now with the 
Russian incursion and increased Iranian assistance. However to continue 
to simply negotiate when all the opposition parties are not at the 
table and the Russians and Iranians or not serious, is futile. The U.S 
has no leverage in the negotiations, particularly, as Russian and 
Syrian air power focuses on destroying US backed and other moderate 
opposition forces. It was a major policy failure to permit Russian 
airpower to bomb the Syrian opposition forces the CIA was directly 
assisting. We warned the Russians not to bomb but they did it anyway.

        They should have been told if they did bomb US backed Syrian 
forces, then the US would reply in kind and bomb the Russian backed 
Syrian forces, particularly their air power. I still believe that 
establishing safe zones inside Syria near the Turkish and Jordanian 
borders is a credible option. It would be a major morale boost for the 
Syrian opposition and enhance the role and support of the Syrian 
moderate opposition groups with other groups, to say nothing of the 
tens of thousands of Syrian civilians who will be protected.

    5.  Afghanistan--After 15 years the war is not winnable. The 
security situation is worsening and as such the government of 
Afghanistan is getting weaker. While there are many Afghan issues that 
contribute to the current situation, it is critical to understand how 
US policy contributed to the current outcome if we are to turn it 
around.

        a. When the Bush administration decided to go to war in Iraq in 
December `01, after the successful invasion of Afghanistan in November, 
Afghanistan became an economy of force effort, with the minimum 
military resources applied. As such, the Afghan security forces were 
not developed fully, the Taliban re-emerged in 2004/2005 and no 
increase in force levels occurred until 2008 when President Bush was 
able to deploy additional forces that year because of the availability 
of forces due to the military success in Iraq.

        b. In 2009, faced with a still worsening security situation, 
President Obama decided to employ a counter--insurgency strategy that 
was successful in Iraq and escalate the forces required. However, he 
did not provide the recommended forces that Generals McChrystal and 
Petraeus requested as the minimum force to defeat the Taliban. The 
POTUS cut the force request by 25% and decided to withdraw the same 
forces in 15 months regardless of the situation on the ground. At this 
decision point, Afghanistan was doomed to a protracted war. All US 
combat forces were withdrawn eventually by 2015.

        c. Two Taliban sanctuaries exist in Pakistan where the Pakistan 
military provides intelligence, training, and logistics assistance to 
enhance the Taliban operational performance while providing continuous 
safe haven. No insurgency has ever been defeated while it maintains 
sanctuary outside the conflict area.

        We are in this current situation largely because the war in 
Iraq itself became protracted and much needed forces could not be 
applied to Afghanistan, US ground forces, particularly the Army is too 
small to fight two counter insurgencies simultaneously, and the Obama 
policy was not to win the war but to end US involvement. The new 
administration must call for a political and security assessment and 
face the harsh realities of possibly squandering 15 years of US combat 
in Afghanistan in a war not winnable. What's required is a new strategy 
with a commitment to force the elimination of sanctuaries in Pakistan 
and a commitment to provide to the ANSFs the enablers they need to turn 
the momentum: intelligence, attack helicopters, strike fighter support, 
medevac, anti-IED capabilities, much needed logistics and increased CT 
Special Operations Forces. Without an on-the-ground assessment, I 
honestly cannot tell you if that is sufficient, how many additional 
troops are required to support those functions and for how long. I do 
know this, without the US and Afghan resolve to win, we never will.

    6.  Russia--The US once again faces the need to prepare for great 
power competition and confrontation. Russian aggression along the 
eastern and southern front of NATO presents military challenges to 
European security not seen in decades. Russia desires to be a global 
power operating with considerable influence on the world stage. As such 
Putin wants to be treated as an equal with the US. Our basic strategy 
in dealing with Russia should be through strength and resolve. 
Rebuilding the military, closing capability gaps, moving beyond a troop 
trip wire in Eastern Europe are major factors in a credible deterrence. 
Deterrence is not achievable simply with enhanced capabilities, your 
adversary must believe you intend to use it. Putin has known for 
several years now that the US is paralyzed by the fear of adverse 
consequences and therefore he is quite emboldened. That must change. Of 
course the US should continue to dialogue with Putin but US concessions 
should not be on the table as a condition for better relations as the 
Obama administration did with the ``reset'' strategy in giving up 
missile defense systems in Eastern Europe. The result, no reset, but 
increased Russian aggression in Crimea, Eastern Ukraine, Syria and 
provocations in the Baltics. For progress in US / Russia relations we 
can try to find common interests but Russia's aggressive behavior 
toward US allies must stop. That must be the US condition for an 
improved relationship.

    7.  Iran--The Islamic Republic of Iran is totally committed to 
their number one strategic objective: to dominate and control the 
Middle East by spreading the Islamic Revolution. They regard the US as 
their enemy and the major impediment to achieving this objective. US 
strategic policy toward Iran should be to counter their number one goal 
in concert with our allies. They will continue to use proxy fighters 
and terrorists and provocations against US capabilities to humiliate 
the US in order to weaken the relationship between the US and our 
regional allies. We should counter these activities to strengthen not 
weaken our commitment to our allies. Adverse aggressive Iranian 
behavior that violates UN sanctions, the nuclear deal or the 
international order should not be tolerated. Action should be taken 
beginning with sanctions and escalating as needed. It is likely as the 
US and allies express a resolve and intent to thwart Iran's strategic 
goals that they may indeed terminate the nuclear deal. If they do not 
the US should not terminate until such time as they begin to cheat as 
we know they will if they are not already. Tough, demanding inspections 
and priority targeting by US and allied intelligence services is 
crucial to effective monitoring of the nuclear deal. It was Iranian 
informants who gave up the secret underground nuclear sites in Fordow. 
It's just a matter of time.

    8.  China--The most important bi-lateral relationship of the 21st 
century. Two economic giants who have global interests in the world 
economy, expanding trade, stimulating the economic growth of developing 
countries while insuring the global commons continues to be a major 
pathway for enhancing stability, security and economic well being. The 
Chinese have become hard-core capitalists and their outreach to every 
region of the world is staggering. Their global investment portfolio is 
beyond anything the world has seen.

        All that said, what is clear is that China desires to dominate 
and influence the Pacific in a way that the U.S. has done for 70 years 
after WWII. The thought that China had only a defensive military 
strategy is no longer the situation. China is projecting military power 
into the South China Sea by establishing forward military bases and 
capabilities as part of a strategy to enhance their influence over the 
countries in the region as well as the global commons. The US also has 
valid interests in the region as an ally to every Pacific nation. Our 
allies doubt our resolve given the US selective disengagement policy 
and it is critical for the new administration to be clear with China 
about US Pacific interests and that we will go and come as we please 
and that we intend to back our allies' self interest. Avoiding 
confrontation is desirable, certainly, but at times, may not be 
avoidable. We cannot let our desire to avoid confrontation lead us to a 
point of concession and weakness. The US has many shared economic and 
environmental interests that can be pursued in enhancing the Pacific 
Asia economy and quality of life but these interests should always be 
pursued from a position of strength and resolve.

    In closing, the complexity of the global security challenges the US 
is facing cannot be over stated, they are diverse, formidable and 
dangerous. The FY 17 NDAA is attempting to begin to stop the 
precipitous multi-decade decline of the US military which drove by 
necessity the strategy change from the ability to wage two major 
regional conflicts to something far less. Sadly to demonstrate how far 
we have fallen, we could not fight two low tech ground insurgencies, 
void of air and naval power, in Iraq and Afghanistan simultaneously. We 
fought them sequentially, a reality from which we have not recovered.
    President-elect Trump must return American leadership to meet these 
global challenges and do so in cooperation with our allies. His 
national security team as priority one must develop a comprehensive 
national security strategy which is threat and national interest based. 
It should see the world as it truly is, based on honest, straight 
forward assessments. As such it should be the foundation for US foreign 
policy and US defense strategy. DoD defense strategy must drive force 
sizing and force capabilities. Not the budget or available funding. DoD 
also must responsibly make tough choices on priorities because there 
never are unlimited resources. A strong military force is essential to 
maintaining the credibility of President-elect Trump's foreign policy. 
The existence of sufficient, capable and ready military forces combined 
with a credible intent to use them, when our national security 
interests are at stake, serves to prevent war and confrontation. Much 
must be done to rebuild the US armed forces and this committee as well 
as the House Armed Services is critical for success.
    Thank you and I look forward to your questions.

    Chairman McCain. Mr. Brimley.

   STATEMENT OF SHAWN BRIMLEY, EXECUTIVE VICE PRESIDENT AND 
  DIRECTOR OF STUDIES, THE CENTER FOR A NEW AMERICAN SECURITY

    Mr. Brimley. Thank you, Chairman McCain, Senator Reed, 
members of the committee. I'm honored to testify before you 
again, and have the distinct feeling of being out of place 
again as I sit next to titans like Robert Kagan and General 
Keane, two men I greatly admire.
    President-elect Donald Trump will take office next January 
and shoulder the formidable burden of a complex national 
security inheritance, which I'll summarize briefly right now.
    The wars in Iraq and Afghanistan, as you know, remain 
incredibly complex. Although President Obama deserves credit, 
in my mind, for undertaking the significant surge of combat 
forces into Afghanistan 2009, the difficulty in supporting 
Afghan Security Forces was complicated by the public timelines 
for withdrawal. In Iraq, I believe the reduction of forces 
between 2009-2012 was far too steep, making it difficult for 
the U.S. to retain adequate leverage over the sectarianism of 
the government in Baghdad, which, in turn, enabled the rise of 
the Islamic State and the rapid advances in both Iraq and 
Syria. While I largely agree with the parameters of the 
operational approach in countering ISIL on the ground in Iraq 
and Syria--for instance, airpower, Special Operations forces, 
and combat advisors, of which I think we could do more--the 
ultimate question of how to deal with Bashar al-Assad remains 
unanswered, and Russia's involvement and support of the 
barbarism we're seeing every day in places like Aleppo is 
horrifying. We ought to do more to stop it.
    I am concerned, but not particularly surprised, by the 
behavior of Russia and China. Vladimir Putin is no friend of 
the United States, and he clearly sees the long arc of history 
bending against the maintenance of an extensive Russian sphere 
of influence that acts as a break on democracy, civil society, 
and full economic integration--or integration with a wider 
Europe, and a global liberal economic order. The unlawful 
incursion of Russia into Ukraine should not be legitimized by 
the United States, and ongoing steps to shore up our deterrence 
posture in the region ought to be sustained and increased, and 
increased soon.
    China's behavior, in my mind, is perhaps the most 
consequential, in terms of its lasting impact on the global 
order. China's aggressive behavior towards its neighbors, and, 
in particular, its rapid land reclamation efforts in the South 
China Sea, are destabilizing. The eventual placement--and I 
think it will happen--of military platforms on these so-called 
``islands,'' things like antiship cruise missiles, advanced air 
defense systems, and the like, would further upset the military 
balance of power in the region, which I think would 
dramatically risk escalation and miscalculation and conflict. 
DOD has a significant role to play in enhancing our military 
posture in the region, and I hope the Trump administration will 
quickly do so. The predictable provocation from North Korea, I 
should add, will come soon, as well. I believe urgency is 
important in this regard.
    From the perspective of the Secretary of Defense tasked to 
oversee the development, sustainment, and employment of U.S. 
military forces, it is clear that our vaunted military 
technological edge that has allowed our men and women in 
uniform to deploy rapidly around the world and engage our 
adversaries with unrivaled speed, precision, and staying power, 
has begun to erode. We've seen this over the last few years, 
for sure. I worry that our edge is eroding to the point where 
the task of maintaining conventional deterrence in key theaters 
around the world is becoming difficult--more difficult, more 
expensive, and more risky to our men and women in uniform. 
Moreover, the era of tight defense budgets and the disaster of 
sequestration, as you know, has made it very difficult for the 
Pentagon to keep investing in game-changing defense 
technologies and to properly enable a culture of 
experimentation and exercising that can advance new concepts of 
operation and displace old and outdated ways of keeping our 
forces on the cutting edge. I sincerely hope that sequester 
caps can be eliminated and the Pentagon's defense budget can 
both increase and the uncertainty which has imperiled rational 
strategic and budgetary planning can finally be alleviated.
    Finally, like General Keane, I would like to commend this 
committee and its staff for the work done in assembling an 
impressive conference report for the NDAA. Beyond the budget 
levels, the NDAA advances a comprehensive and important defense 
reform agenda that includes reforms in OSD, the number of 
general and flag officers, DOD's acquisition and healthcare 
systems, and adds important rationality to our security 
assistance architecture, which is so vital for our defense 
strategy. These and other reforms must be implemented, and 
others initiated in the years to come, not only because they 
will save significant amounts of taxpayer money that will allow 
for investment in other important areas in the defense program, 
but they will make the Department more agile and more effective 
in supporting and advancing America's security interests around 
the world.
    Thank you again for inviting me.
    [The prepared statement of Mr. Brimley follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    Chairman McCain. Dr. Kagan.

     STATEMENT OF ROBERT KAGAN, SENIOR FELLOW, PROJECT ON 
  INTERNATIONAL ORDER AND STRATEGY, THE BROOKINGS INSTITUTION

    Dr. Kagan. Thank you, Mr. Chairman, thank you, all the 
committee members, for holding this hearing, for inviting me. 
It's an honor to be here. It's an honor to be on this panel. I 
just want to say that every one of the family members that 
General Keane mentioned is deeply in love with General Keane. 
So, it's a mutual admiration society.
    I want to talk about a subject that we don't like to talk 
about in polite company, and it's called ``world order.'' You 
know, we naturally focus on threats to the homeland and our 
borders, and we talk about terrorism, as we must, as something 
that's obviously of utmost importance, has to be a top priority 
to protect the homeland. As we look across the whole panoply of 
threats that we face in the world, I've--I worry that it's too 
easy to lose sight of what, to my mind, represent the greatest 
threats that we face over the medium- and long-term, and 
possibly even sooner than we may think, and that is the threat 
posed by the two great powers in the international system, the 
two great revisionist powers international system: Russia and 
China. Because what they threaten is something that is, in a 
way, more profound, which is this world order that the United 
States created after the end of World War II, a global security 
order, a global economic order, and a global political order. 
This is not something the United States did as a favor to the 
rest of the world. It's not something we did out of an act of 
generosity, although, by historical terms, it was a rather 
remarkable act of generosity. It was done based on what 
Americans learned in the first half of the 20th century, which 
was that, if there was not a power, whether it was Britain or, 
as it turned out it had to be, the United States, willing and 
able to maintain this kind of decent world order, you did not 
have some smooth ride into something else. What you had was 
catastrophe. What you had was the rise of aggressive powers, 
the rise of hostile powers that were hostile to liberal values. 
We saw--we all know what happened with two world wars in the 
first half of the 20th century. What those who were present at 
the creation, so to speak, after World War II wanted to create 
was an international system that would not permit those kinds 
of horrors to be repeated. Because the understanding was that, 
while Americans believed very deeply, in the 1920s and '30s, 
that they could be immune from whatever horrors happened out 
there in the world, that it didn't matter to them who ran 
Europe or who ran Asia or who did what to whom, as long as were 
safe, they discovered that that was not true and that, 
ultimately, the collapse of world order would come back and 
strike the United States in fundamental ways.
    Americans have decided to take on an unusual and burdensome 
role of maintaining world order because the United States was 
the only power in the world that could do it. The critical 
element of maintaining that world order was to maintain peace 
and stability in the two big cockpits of conflict that had 
destroyed the world and had produced repeated conflicts from 
the late 19th century onward. That was Europe and Asia. The 
United States accomplished something that no other power had 
able to accomplish before. It essentially put a cork in two 
areas that had been known for the constant warfare, put an end 
to an endless cycle of war between France and Germany, between 
Japan and China. That was the stable world order that was 
created after World War II that America gradually thrived in, 
that produced the greatest era of great-power peace that has 
been known in history, the greatest period of prosperity, the 
greatest period of the spread of democracy. I think it's very 
easy to take that for granted, to focus on some nearer-term 
threats that we may face, which are, as I say, understandable, 
but lose sight of how precious that world order is and the 
degree to which it may be threatened.
    My concern right now is that that world order is more at 
risk than we may want to realize. It is at risk because of two 
trend--intersecting trend lines that I think are things to be 
worried about. They are the trend line of increasingly activist 
revisionist great powers, Russia and China, together with the 
other trend line, which is a United States which is 
increasingly lacking both the will and the capacity to continue 
playing the role that it's played since the end of World War 
II. As those two lines intersect, we begin to enter a period of 
increasing danger, because, as the willingness and capacity of 
the United States to maintain the order meets the increasing 
desire of those revisionist powers to change the order, the 
risk of conflict grows proportionately. If you think about a 
historical analogy, I don't know whether it's 1920, 1925, or 
1931, but we are somewhere on that continuum, in my view.
    I think, with everything else that we have to do--and this 
puts enormous strain on our defense budget resources, because 
we cannot ignore what's going on in the Middle East, we cannot 
ignore Iran, we cannot ignore North Korea, we cannot ignore 
ISIS, but we especially cannot take our eye off what I believe 
is ultimately the main game, which is managing these two 
revisionist powers and understanding what they seek. We cannot 
be under any illusions about Russia and China. We will find 
areas of cooperation with them. They both partake and benefit 
from and, in some case, sort of feed off of, the liberal world 
order the United States has created. Let us never imagine that 
they are content with this order, that they do not seek, 
fundamentally, eventually to upend this order, especially on 
the security side, to create a situation which they think ought 
to be the natural situation, which was--which is they being 
hegemonic in their own region. China has a historical memory of 
being hegemonic, dominant in its region. Russia has a 
historical memory, which Putin has expressed on numerous 
occasions, of restoring its empire, which stretched right into 
the heart of central Europe. As far as they are concerned, the 
order that the United States has created is unfair, 
disadvantageous to them, temporary, and ought to be overturned. 
I can only say that, in the process of overturning that, the 
history teaches, that overturning does not occur peacefully. It 
should be our task both to prevent them from overturning it and 
to prevent them in a way that does not produce another 
catastrophic war. That is the great challenge we face.
    Now, are we up to this challenge? Unfortunately, that is, I 
think, very much in question. I do believe that the policies of 
the outgoing administration have indicated a general desire for 
a degree of retrenchment in the world, a sense that the United 
States was too involved, too engaged. It focused, to some 
extent, on the Middle East, but, I think, overall, the message 
that was sent, whether intentionally or unintentionally, 
although, in some cases, I think it was intentional, was that 
the United States is not really going to be in this business of 
world-order upholding as it used to be, and that we would 
really like others to step up and play that role while we pull 
back and tend to some of our business. Entirely understandable, 
entirely dangerous, because it has, as the other panelists have 
said, led both our allies to question whether the United States 
is really there for them, and it has emboldened those who seek 
revisions in the international system to take increasing steps 
to do so.
    It's unfortunate, that, after these 8 years which--in which 
this signal has been sent, that, during his political campaign, 
the President-elect's comments during the campaign, as well as 
those of his surrogates, have only reinforced the impression 
that the United States is out of the world-order business. 
Comments about whether the United States really should support 
NATO [North Atlantic Treaty Organization] allies. Comments 
about Estonia being in the suburbs of St. Petersburg. 
Complaints about the need to defend Japan, and is that an 
equitable thing? The fact that both candidates came out against 
the Trans-Pacific Partnership, which is really, in my eyes, a 
strategic deal more than a trade deal designed to pull the 
United States and its Asian partners together. All the elements 
of this campaign have only sent even greater shockwaves 
throughout the world about what the United States stands for.
    So, in a certain sense, yes, the next administration has a 
big hole to dig out of. It is--also has to dig out of a hole, 
to some extent, of its own making. We need to see, in the early 
stages--in the very early stages, I would say, a clear 
repudiation of all that rhetoric, some clear signs that this 
new administration understands the importance, not only of 
reassuring allies, but a willingness to bolster our commitment 
to those allies. Because, after all, the challenge from the 
revisionist powers is increasing; therefore, it's not enough to 
say we're committed to the defense of allies. We have to show 
that our capacities are increasing along with those of the 
increasing threat, which, of course, gets to the defense 
budget, which I don't have to talk to this committee about the 
need to do that.
    Let me just end--I know I'm going on too long--let me just 
end on one point, and it has to do with Russia. Both China and 
Russia are revisionist powers. They have different tools in 
their kit. China has been the more cautious, so far, although I 
don't presume caution indefinitely, focusing more on their 
economic clout. Russia has, by far, been the most aggressive, 
willingness to use military force. It's invaded two countries, 
projected force into a third, but also has a whole panoply of 
geostrategic weapons that it has used, from energy resources to 
cyber. Now, especially in the past few years, to political 
information warfare, direct meddling in the political processes 
of the Western democracies. We've seen it in central and 
eastern Europe. We've seen it in Western Europe. We saw it in 
the Italian referendum. We're going to see it in the French 
elections. We're going to see it in Germany. This is a full-
bore strategic tool being used by Russia for two basic 
purposes: one, to affect the outcome of these elections; but, I 
would say, more importantly, to discredit the democratic 
process entirely. Because, after all, Russia and China are both 
autocracies. They feel threatened by democracies. One of their 
objectives--and this is an objective that Putin is particularly 
pursuing--is to discredit democracy, in general. This is his 
major tool.
    Unfortunately, as we've seen in this last campaign, the 
United States has now become the target of this Russian 
strategy. What I'm about to say, I'm going to say because I 
have all you Senators in front of me. This'll probably be the 
last time I'll be invited to have all these Senators in front 
of me. This is not a partisan question. This is a strategic 
question. If Russia, every 4 years, is allowed to come in and 
weigh in in our elections in the way that it did right now--
this--in this election, we are going to be at a serious 
strategic disadvantage, going forward.
    Now, I understand that we live in a partisan world. I used 
to be a Republican. I--the only administration I ever served in 
was Republican. I understand the reluctance of Republicans to 
raise questions about this last election. This has got to go 
beyond partisanship, because this tool is not going away, this 
Russian effort is not going away.
    So, I would just--I would hope that Congress takes this 
threat seriously enough to hold serious investigations on what 
happened, how it happened, and, most importantly, how are we 
going to prevent it happening in the future. Because this is a 
major strategic tool that the Russians are going to continue 
using here and throughout the democratic world.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Kagan follows:]

                 Prepared Statement by Dr. Robert Kagan
    Mr. Chairman, Mr. Ranking Member, members of the Committee, thank 
you very much for inviting me to testify this morning.
    Since the end of the Second World War, American foreign policy has 
aimed at defending and extending a liberal world order that conforms to 
American interests and principles. It has done so not as a favor to 
others but based on the hard-won understanding that in the absence of 
such a world order, both American interests and our cherished 
principles will eventually be imperiled. This was the lesson that those 
who were ``present at the creation'' of the American-led world order 
learned 70 years ago, after two world wars and the rise of fascism and 
totalitarian communism. If we are not vigilant, we will have to learn 
that lesson all over again, and perhaps at even greater cost.
    It has become common to say that the last 25-30 years of American 
foreign policy have been a failure. This betrays both a lack of 
historical memory and a lack of imagination. Which 25-year period of 
the last century would we rather have: the first 25 years of the 20th 
century, which gave us World War One, the breakdown of British-
dominated world order, the Bolshevik revolution, and the birth of 
fascism? The second 25 years, which gave us the rise of Hitler and 
Stalin and Imperial Japan, World War Two, the communist revolution in 
China, and the imprisonment of half of Europe behind the Iron Curtain? 
The thirty years between 1950 and 1980, which despite the extraordinary 
success of the United States in establishing the secure basis of what 
used to be called the free world and which eventually produced the 
liberal world order we today enjoy, nevertheless also gave us the 
Korean War, the Vietnam War, three major wars in the Middle East, the 
Arab oil embargo, the Iranian Revolution, and the Iran hostage crisis?
    The fact is that for all the difficulties of the past 25-30 years, 
for all the errors, of which there have been many--because this is the 
real world in which failure is more common than success--for all the 
costs in lives and treasure, this period has been by any reasonable 
historical measure one of remarkable success. From the 1980s onward, we 
saw the fall of Soviet communism and the Soviet empire, the liberation 
of central and eastern Europe, the spread of democracy in Asia and 
Latin America, a global prosperity unmatched in human history, and, 
very importantly, no conflict between the great powers. Throughout much 
of this period, in crises in the Balkans and in the Middle East, the 
United States and its allies have operated effectively to stem 
humanitarian disasters and put an end to brewing conflicts. Democratic 
government has spread throughout Asia and Latin America, regions which 
were dominated by dictatorships in previous decades. Despite the 
economic downturn following the 2008 financial crisis, this is has been 
a period of extraordinary prosperity by historical standards.
    These past 25-30 years have also provided us a clear formula for 
success, a formula inherited from those early years after World War 
Two. By building and maintaining strong alliances with democratic 
nations and by supporting an open global economy that allows those 
nations to prosper, and which lifts billions of others in developing 
nations out of poverty, the United States can best protect its own 
security and the well-being of its own people. One need only think of 
the strong democratic alliances maintained during the 1980s, the 
relationships between Ronald Reagan and close allies like Margaret 
Thatcher, Helmut Kohl, Francois Mitterrand, and Yasuhiro Nakasone. 
Those bonds, together with a strong U.S. military and strong U.S. 
economy, prevailed in the Cold War, convinced Soviet leaders to concede 
peacefully, and established this extraordinary period in the history of 
international relations. It has not been perfect, because perfection in 
human affairs is not possible. By any reasonable standard, this formula 
has been successful--and successful for the American people. It created 
a world order conducive to American interests and American values.
    Today that order faces severe challenges, both from without and 
from within. The external challenges are obvious enough. Since 9/11 we 
have faced the threat of radical Islamic terrorism, which has proved 
resilient and to which we have responded inadequately. Iran's efforts 
to acquire a nuclear weapon, and to spread its influence by military 
means throughout the Middle East and Persian Gulf, have helped 
destabilize a region that remains strategically relevant despite the 
declining American reliance on its oil. North Korea's nuclear 
capabilities as well its ballistic missile capacities are growing.
    Today, however, I would like to focus on what I believe to be the 
greatest threats that we are going to face in the years and decades, 
and those are threats posed by China and Russia. For while the other 
threats I have mentioned pose serious challenges, and in the case of 
terrorism obviously require the utmost vigilance, only these two great 
powers have the capacity to upend the world order which has long 
provided for Americans' security and well-being. The unmistakable 
hegemonic ambitions of China and Russia threaten the stability and 
security of the world's two most important regions, East Asia and 
Europe. These regions are vital to the United States both economically 
and strategically. They are the regions where two world wars originated 
in the first half of the 20th century and would be the locus of the 
next great war should the United States fail to play the role it has 
played over the past 70 years in undergirding their security and 
stability. The simple fact is, the era of great-power rivalries has 
returned. In the past these great-power competitions have led 
invariably to great-power wars. Managing these rivalries, avoiding war, 
and doing so without abandoning the liberal world order in the 
misguided belief that we will be spared when it collapses, is the 
greatest challenge we face today and in the years and decades to come.
    Both China and Russia have much in common. Both are classic 
revisionist powers. Although both China and Russia have never enjoyed 
greater security from foreign attack than they do today--Russia has 
never been more secure from attack by its traditional enemies to the 
west, and China has never been more secure from attack by its 
traditional enemy in the east--both are dissatisfied with the current 
configuration of power in the world. Both seek to restore a hegemonic 
dominance in their regions that they enjoyed in the past. For China 
that means dominance of East Asia, with nations like Japan, South 
Korea, and the nations of Southeast Asia both acknowledging Chinese 
hegemony and acting in conformity with China's strategic, economic, and 
political preferences. For Russia, it means hegemonic influence in the 
areas of Central and Eastern Europe which Russia has traditionally 
regarded as either part of its empire or part of its sphere of 
influence. Both seek to redress what they regard as an unfair 
distribution of power, influence, and honor in the American-led postwar 
global order. Being autocracies, both feel threatened by the dominant 
democratic powers in the international system and by the democracies on 
their borders. Both regard the United States as the principal obstacle 
to their ambitions, and therefore both seek to weaken the American-led 
international security order which stands in the way of their achieving 
what they regard as their rightful destinies.
    The two great powers differ, so far, chiefly in their methods. 
China has until now been the more careful and cautious, seeking 
influence primarily through its great economic clout in the region and 
globally, and using its growing military power chiefly as a source of 
deterrence and intimidation. It has not resorted to the outright use of 
force yet, although its actions in the South China Sea are military in 
nature and carry the risk of producing military conflict. China's 
willingness to use force cannot be ruled out in the future, and 
possibly in the near future. Revisionist great powers with growing 
military capabilities invariably make use of those capabilities when 
they believe the possible gains outweigh the risks and costs. If the 
Chinese perceive America's commitment to its allies and its position in 
the region to be weakening, or its capacity to make good on those 
commitments to be declining, then they will be more inclined to attempt 
to use the power they are acquiring in order to achieve their 
objectives.
    Russia, on the other hand, has already been far more aggressive. It 
has invaded two neighboring states--Georgia in 2008 and Ukraine in 
2014--and in both cases has hived off significant portions of those two 
nations' sovereign territory. It has also projected military force into 
Syria, lending its military support to the Syrian regime's efforts to 
crush all opposition, including by the aerial bombing and massacre of 
civilian populations. Russia has also been aggressive in other ways. It 
has wielded its control of European energy resources as a weapon. It 
has used cyberwarfare against neighboring states. It has engaged in 
extensive information warfare on a global scale. It has interfered 
directly in Western electoral processes, both to try to influence their 
outcomes and more generally to discredit the democratic system. This 
past year, Russia for the first time employed this powerful weapon 
against the United States, heavily interfering in the American 
electoral process with as yet unknown consequences.
    Although Russia, by any measure, is the weaker of the two great 
powers, it has so far had more success than China in accomplishing its 
objective of dividing and disrupting the West. Its interference in 
Western democratic political systems, its information warfare, and 
perhaps most importantly, its role in creating increased refugee flows 
from Syria into Europe have all contributed to the sapping of 
Europeans' confidence in their political systems and their established 
political parties. Its military intervention in Syria, contrasted with 
American passivity, has exacerbated already existing doubts about 
American staying power in the region. China, until recently, has 
succeeded mostly in driving American allies closer to the United States 
out of concern for growing Chinese power. That could change quickly, 
however, and especially if the United States continues on its present 
trajectory. We could soon face a situation where both great revisionist 
powers are acting aggressively, including by military means, which 
would pose an extreme challenge to American and global security.
    The return of this great-power challenge has come just at the 
moment when American and Western will, confidence, and capacity to meet 
the challenge have been in decline. The present administration has 
emphasized global retrenchment at the expense of engagement and 
although its stated policy has aimed to ``rebalance'' American foreign 
policy, the overall effect of its statements and actions has been to 
raise doubts around the world about America's staying power as the 
critical supporter of the present global order. Its early attempt to 
``reset'' relations with Russia was a first blow to America's 
reputation as a reliable ally, partly because it came just after the 
Russian invasion of Georgia and thus appeared to be almost a reward for 
Russian aggression; partly because the ``reset'' came at the expense of 
planned programs of military cooperation with Poland and the Czech 
Republic that were jettisoned to appease Moscow; and partly because 
this effort at appeasement came just as Russian policy toward the West, 
and Vladimir Putin's repressive policies toward the Russian people, 
were hardening. Then in 2014, the West's collective response to the 
Russian invasion of Ukraine and seizure of Crimea, though better than 
the Bush administration's response to the invasion of Georgia--Europe 
and the United States at least imposed sanctions after the invasion of 
Ukraine--still indicated reluctance on the part of the U.S. 
administration to challenge Russia in what the American President 
regarded as Russia's own sphere of interest. In Syria, the present 
administration practically invited Russian intervention, if only 
through American passivity, and certainly did nothing to discourage it, 
thus reinforcing the already prevalent impression of an America in 
retreat in that region (an impression initially created by the 
unnecessary and unwise withdrawal of all American troops from Iraq). 
Subsequent Russian actions which increased the refugee flow from Syria 
into Europe also brought no American response, despite the evident 
damage of those refugee flows to European democratic institutions. The 
overall impression given by the present administration has been that 
none of this is America's problem.
    In East Asia this administration's otherwise commendable efforts to 
assert America's continuing interest and influence have been undermined 
by a failure to follow through with policies to support the rhetoric. 
The military component of the so-called ``Pivot'' has been hollow due 
to inadequate defense spending which has made it impossible to enhance 
the American military presence in a meaningful way. The important 
economic component of the pivot, meanwhile, represented most 
prominently by the Trans-Pacific Partnership agreement, was undermined 
this year when both leading presidential candidates announced their 
opposition to the agreement. The general perception of American global 
retreat and retrenchment, encouraged both by presidential rhetoric and 
by administration policies, especially in the Middle East, has also 
been noticed in Asia, where allies are left wondering how reliable the 
U.S. commitment may be when facing the challenge posed by China, for 
instance, in the continuing conflict over the South and East China 
Seas.
    The perceived weakness and withdrawal of the United States as a 
result of the present administration's policies and rhetoric has 
unfortunately been greatly exacerbated by the comments of the 
president-elect and his proxies during this year's campaign. 
Suggestions that the United States might not come to the defense of 
NATO allies if attacked by Russia, that it is not worth going to war 
over a country that is ``in the suburbs of St. Petersburg,'' that it is 
a ``real problem'' that the United States has to come to Japan's 
defense if it is attacked, and in general that the United States should 
fulfill its security commitments to other nations only if it makes 
economic sense--all these have only increased doubts about America's 
reliability as an ally and partner. \1\ They have given the clear 
impression to both friends and potential adversaries that the United 
States is turning inward, abjuring responsibility for global security, 
and effectively ceding hegemonic dominance of Europe and East Asia to 
Russia and China.
---------------------------------------------------------------------------
    \1\ On CBS This Morning on July 21, 2016, Newt Gingrich 
characterized Estonia as ``in the suburbs of St. Petersburg.'' See: 
Flores, Reena (2016, July 21) Newt Gingrich: NATO countries ``ought to 
worry'' about U.S. commitment. CBS This Morning. Retrieved from http://
www.cbsnews.com/news/newt-gingrich-trump-would-reconsider-his-
obligation-to-nato/.
    President-elect Donald Trump described a ``real problem'' in the 
U.S.-Japan defense relationship in his March 2016 interview with David 
Sanger and Maggie Haberman of The New York Times, see Haberman, Maggie 
and David Sanger (2016, March 26) Transcript: Donald Trump Expounds on 
His Foreign Policy Views. The New York Times. Retrieved from http://
www.nytimes.com/2016/03/27/us/politics/donald-trump-transcript.html?--
r=0.
---------------------------------------------------------------------------
    The conjunction of these two trends--the growing ambition and 
aggressiveness of the two revisionist great powers and the increasing 
global perception (and perhaps reality) of a United States withdrawing 
from its international responsibilities to provide security--is at some 
point going to produce a dangerous crisis, or more likely, multiple 
simultaneous crises. Americans have tended to take the fundamental 
stability of the international order for granted, even while 
complaining about the burden the United States carries in maintaining 
that stability. As history has shown, however, a world order collapses 
with remarkable rapidity and with great violence. The apparent calm of 
the 1920s became within a decade the crisis-ridden 1930s, eventually 
culminating in world war. Continued American withdrawal from its global 
role could quickly tempt the rival great powers to seize the moment and 
try to reshape fundamentally the power structures in East Asia and 
Europe, both of which are of vital strategic and economic importance to 
the United States. At that point the United States would be faced with 
the choice of responding with the necessary force or acquiescing.
    The goal of American policy now should be to avoid those crises and 
confrontations by moving quickly to re-establish the U.S. position as 
the principal upholder of the international order. That means reaching 
out immediately both publicly and privately to reassure allies in both 
Europe and Asia that the United States will not only make good on its 
commitments but intends to bolster its capacity to do so. These 
reassurances must therefore be accompanied by an immediate end to the 
sequester and a substantial increase in defense spending in line with 
the recommendations of recent secretaries of defense. Nothing would 
send a stronger signal that the United States is not engaged in a 
withdrawal from the world but means to continue playing its role as the 
principal upholder of the international order.
    The incoming administration must also find a way to move forward 
with the Trans-Pacific Partnership in some form. That agreement, like 
most trade agreements, is not just about trade. It is a strategic 
investment in security and stability in East Asia, a low-cost and low-
risk way of ensuring the United States and its friends and allies in 
the region remain close and united in the face of possible Chinese 
pressures.
    Finally, there is the question of Russian interference in the most 
recent American presidential election. Some may not view this as a 
strategic and national security matter, but it is. Russian interference 
in Western democratic political processes has become a major element of 
Moscow's strategy to disrupt, divide, and demoralize the West. The 
tactics it has recently employed in the United States it has already 
used in elections and referendums across Europe, including most 
recently in Italy, and will likely use again in France and Germany. For 
the United States to ignore this Russian tactic, and particularly now 
that it has been deployed against the United States, is to cede to 
Moscow a powerful tool of modern geopolitical warfare. It is 
extraordinary that the United States government has taken no act of 
retaliation. It is unconscionable, and an abdication of responsibility, 
that Congress has not launched an investigation to discover exactly 
what happened with a view to preventing its recurrence in the future. 
One hates to think that because the Republican Party was the 
beneficiary of Russian intervention in this election that as the 
majority party in both houses of Congress it has no interest in 
discovering the truth about the foreign government's assault on 
American democratic processes.

    Chairman McCain. Thank you, Doctor.
    That leads to my first question for the panel. This 
morning, we had a briefing with the Commandant of the Marine 
Corps, and I asked him what was, he felt, the highest priority 
that the Marine Corps has to combat as--not to combat, but as 
far as challenges to our Nation's security. His first answer 
was cyber. He put it in the realm of the ability of our 
adversaries to cripple our ability to wage war. I understand 
very well the side of it--the aspect of it you just described, 
but I'd also, maybe, like to ask the witnesses to elaborate on 
the absolute military threat that--and national security threat 
that cybersecurity, or our lack of cybersecurity, capabilities 
to combat and pose to the future of the military and our 
national security.
    General Keane.
    General Keane. Sure, certainly. Well, cyber represents 
another major battlefield capability and function that is going 
to be part of us in any future conflict, particularly dealing 
with any country that has advanced technology. That's the 
reality of it. We are attempting to harden our cyberdefenses, 
you know, for our systems so that we can adequately protect 
them. We are totally reliant on space-based----
    Chairman McCain. I don't mean to interrupt, but isn't it 
true we don't have a policy----
    General Keane. That's true.
    Chairman McCain.--as to how to combat----
    General Keane. We----
    Chairman McCain.--cyberthreats?
    General Keane. That's correct. The reality is that we are 
completely dependent on space-based technology, which also, 
obviously, can be interfered with, with cyber.
    Now, the one--we have a decided advantage, and we don't 
want to minimize this. The United States cyberattack capability 
is second to none. I'm assuming some members of the committee 
have had compartmentalized briefings on what that capability 
is, but it would make your eyes water. So, I mean, it's quite 
extraordinary, our offensive capability. Every other nation 
that's dealing with us knows that, as well. So, there is a 
built-in mechanism there, much as we had with nuclear weapons. 
The reality--in terms of mutually assured destruction--but, the 
reality is, in a tactical and operational setting, which John 
McCain--Senator McCain is getting at here, yes, we've got a 
ways to go. There's--we've got deficiencies there, but owe have 
enormous offensive capability, as well.
    Chairman McCain. Mr. Brimley.
    Mr. Brimley. Thank you, Senator. Just maybe a quick 
anecdote, to your point about the lack of a policy. I was a 
policy advisor in OSD in 2009, in the first years of the Obama 
administration, and passed down through the chain of command 
from Secretary Gates, at the time, was a question, What 
constitutes an act of war in cyberspace? I was part of a small 
team that put together a memo that apparently was very 
unsatisfactory, because one of the first questions that 
Secretary Panetta asked, upon assuming office, was, What 
constitutes an act of war in cyberspace? I think, in my mind, 
that just reflects the notion that there's lots of memos being 
written, lots of folks inside the bureaucracies thinking about 
and pondering these questions, but we have yet to sort of 
establish the basic rules of war. Rules of war as it pertains 
to cyberspace. What constitutes a conflict?
    Chairman McCain. Including what constitute an attack?
    Mr. Brimley. Absolutely.
    Chairman McCain. Do you take action to prevent it if you 
know it's coming? What do you do to respond to an attack? Is 
that what you were discussing?
    Mr. Brimley. Absolutely. Another quick anecdote. Early in 
'09, and maybe it was 2010, we tried to come up with a DOD 
cyberstrategy. Eventually we did and it got released. As part 
of those discussions, there was this question of speed. So, for 
instance, I believe, at the time, inside the Pentagon, there 
was this debate about preauthorizing offensive use of cyber. 
The argument was, things happen in cyberspace so quickly, 
there's not going to be an opportunity for humans--i.e., the 
President or the interagency--to be involved in deliberating, 
discussions about whether to take out a cyberserver farm, say, 
in Singapore that happened to be harboring--hypothetically 
harboring a third state's cyberoperations. So, there's this 
complex question of, How do we authorize use of force and think 
about the use of force in cyber, when you're not going to have 
the ability, in a--on a case-by-case basis, to have, you know, 
long, deliberative discussions about policy. You're going to 
have to think about preauthorizing steps in advance, up to and 
including going beyond our own networks and attacking the 
networks of others. So, that could create second- and third-
order effects.
    It's a long way of saying, it remains incredibly complex, 
it remains incredibly unclear, at least from a public 
perspective, what our policies are. I would think there's a 
role for the committee in this regard in, sort of, legislating 
DOD, for instance, to finally come up and answer that basic 
question, What constitutes an act of war in cyberspace?
    Chairman McCain. Thank you.
    Dr. Kagan, did you want to add anything to the----
    Dr. Kagan. It's well out of my range, but I would just say 
that, as with all weapons, unless you can demonstrate a 
retaliatory capacity, you're never going to deter the use of 
it. That goes for cyber and the use--in a war setting and also 
in a political setting. So, unless there was retaliatory action 
for Russian actions, they have no incentive to stop doing it.
    Chairman McCain. Senator Reed.
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Also, let me thank the witnesses for their comments on 
NDAA. Let me state the obvious, also. The--this reform 
initiative was a result of the constant and gentle urgings of 
the Chairman. I think----
    Chairman McCain. It could not have happened unless it was 
totally partnership.
    Senator Reed. That nudging constantly was noticed.
    [Laughter.]
    Senator Reed. Dr. Kagan, you made a--I think a very 
insightful--no surprise--analysis of two lines that could 
intersect disastrously, the--a revanchist Russia and China and 
a disengaging United States. This tracks, I think, to a basic, 
fundamental issue we've all talked about. We have to get a 
military--not just the military, but our national security 
enterprise--the Department of State, Homeland Security--to a 
much higher level that requires more resources. We can find 
some of those resources within a context of savings--General 
Keane pointed out, and--that there's money there. I think, even 
exhausting all the feasible savings, we still have a critical 
issue before us. It's--goes to the points that you raised, in 
some respects, just--as a nation, are we ready to take on the 
challenge and pay for it? General Keane, how do we pay for the 
extra margin? If we can get out of sequestration, how do we pay 
for the extra margin we'll need to do all the things we have to 
do--enhance our security, in space, undersea, et cetera? I'll 
ask everyone else to comment. That probably exhausts my time.
    General Keane. Well, you know, some of that gets back to 
what Dr. Kagan was talking about, is a lack of will. I actually 
am absolutely convinced this is--this is fundamentally American 
presidential leadership, because, you know, security of the 
American people shouldn't have a pricetag. That means we have 
to educate the American people about what is really going on. 
We have to make honest assessments about this threat and what 
it portends for the future of America if we do not engage it. 
Frankly, we have not been doing that. I hope and trust that 
this new administration will face up to that. I think that's 
where it starts. It starts with American leadership, and it 
starts with the education of the American people so that they 
really do understand that there is danger here, that it is 
threatening our livelihood as we know it. We have to make sure 
that they understand that and they're informed. They obviously 
influence this body, the House of Representatives and the 
Senate, if they are educated, if they are informed. Because 
that's where the decision is going to be made about resources, 
largely. I would trust that the new American president would 
make the commitment to invest in the defense budget, which it 
desperately needs.
    All that said, this is not just a windfall for the 
Department of Defense, because, at the end of the day, they're 
going to support a national security strategy, foreign policy 
would emanate from that, and a defense strategy would emanate 
from that national security strategy. It's also up to them to 
make the hard choices about priorities. There's never enough 
money to go around. They've got to really make some tough 
choices here, to be sure. We have such gaps and such holes that 
some of those choices are not too hard to understand what needs 
to be done. So, yes, I understand what you're saying, Senator, 
and I'm sympathetic to it, but I'm absolutely convinced the 
Nation doesn't understand. They really don't understand. We've 
got to start with them.
    Senator Reed. Mr. Brimley, then Dr. Kagan.
    Mr. Brimley. Thank you for your question, Senator.
    I would just say, without disagreeing at all--I would never 
disagree with General Keane--but, I would say, to the committee 
at large, it's not just a question of money. I mean, 
hypothetically, if sequester caps were lifted in the next few 
months, and for FY18 [fiscal year 2018], if there's a radical 
increase in defense spending, what do you think would happen? I 
mean, you know, absent anything else, the Pentagon will simply 
just keep doing what it's doing, and will just do more of it. 
They'll buy more short-range tactical fighters, they'll buy 
more vulnerable surface ships that are particularly vulnerable 
to antiship cruise missiles, et cetera.
    Senator Reed. I think----
    Mr. Brimley. The military services, left to their own 
devices, I think, will basically just keep doing what they're 
doing. Moreover, absent the reforms--and, you know, again, 
appreciate the reforms the committee pushed during this last 
NDAA--but, if we don't make progress on personnel reform, if we 
don't bend the cost curve on military healthcare, if we don't 
bend the cost curve on personnel, no amount of money is going 
to fix these problems. When I was in government, I spent a lot 
of time thinking about posture--overseas military posture. We 
found ways, at least in the Asia-Pacific, to start what we 
dreamed of as a significant rebalance. I think there's a lot 
more to do, but things like getting marines in Darwin, opening 
the door, at the time, to the Philippines, getting the Littoral 
Combat Ship forward-deployed to Singapore, starting to 
negotiate with Japan to maybe forward-station more aircraft 
carriers. I think there--you know, frankly, a mistake that the 
administration did was taking the BCTs our of Europe. We ought 
to put those back in.
    I think there are ways where we could do a lot more without 
necessarily having to add dramatic amounts of more dollars to 
the defense budget. We need to be more engaged in the world. We 
need to forward-station our troops and capabilities around the 
world. The pushback you get in the Pentagon when you talk about 
overseas posture is this notion that if I'm going to put 
something, say, in Europe or put something permanently in Asia, 
that gives the--potentially, the services and DOD writ large--
it starts to lock them down. It somewhat decreases your global 
flexibility. So, there's this argument inside the Pentagon 
that, if we bring the troops home, and we bring capabilities 
home, that gives us more flexibility to rapidly deploy anywhere 
in the world where we may be needed. That comes at the cost of 
being forward and present in key theaters. We ought to be 
making bets on Europe, as Dr. Kagan said. We ought to be making 
bets on Asia and forward-station capabilities, and be very 
creative, and hold the military services to account. There's a 
lot we can do to be more engaged in the world without 
necessarily having to increase the defense budget.
    Senator Reed. Dr. Kagan, again, you raised this issue of 
the will of the American people. To be blunt, that will is 
most--or sometimes most directly expressed in, What are you 
willing to pay for, and how are you willing to pay for it? Can 
you comment?
    Dr. Kagan. Yeah, I mean, I--I'm not an expert on Pentagon 
budget and what can be saved and what can't be saved. I'm very 
dubious that, unless you actually increase the top-line, that 
you're going to get what you need, because I just think, you 
know, you can only squeeze so far and be as brilliant as you 
can be. Brilliant is never going to be your answer. So, I think 
the answer is, there's going to have to be more spending. I'm 
not a budget expert, writ large, either, but I would say we 
have to do whatever we need to do. We have to--if we need to 
raise taxes and we need to have some package that does that, if 
we need to find other ways of, you know, dealing with problems 
like entitlement spending to do it, we have to do it. I mean, I 
lived through the Reagan years. There were increases in defense 
budget which were offset by political bargains of one kind or 
another that required increase in domestic spending, which led 
to increased defense budgets. We survived the--I mean, in 
overall deficits--we survived the deficits and won the Cold 
War. So, I would say we are going to have to, as a Nation, take 
this seriously enough to pay for it.
    Senator Reed. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    The--let's start off--there are some differences between 
the NDAA--and I appreciate the comments that you've all made 
about the--this NDAA; we're going to get it through, and it's 
going to improve things--but differences between the 
administration and the NDAA. I happened to be in the Ukraine 
when they had their elections. It's the first time, as all of 
you know, in 96 years, there's not one Communist on the 
Parliament at--in the Ukraine. Immediately afterwards, Putin 
came in and started killing people. We were wanting--a lot of 
people were wanting to get defensive weapons over to the 
Ukraine. They're in this bill. The administration was saying 
that the--they refused to provide defensive legal assistance to 
the Ukrainians, for fear of provoking Putin.
    First question I'd ask you, Do you think Putin really needs 
provocation? Or isn't he going to do it anyway?
    Mr. Brimley. He doesn't need provocation. I think--you 
know, I absolutely support being as--you know, as--as forward-
leaning as possible in helping our Ukrainian friends, you know, 
counter----
    Senator Inhofe. Well----
    Mr. Brimley.--counter the aggression.
    Senator Inhofe. Yeah. In my--the reason I asked the 
question, my feeling was, at the time, that he was doing this 
because he--the outcome of the--of Parliament. He didn't like 
that. He's getting bolder and bolder, as you have said.
    Yes, General Keane.
    General Keane. Well, I--there's a larger issue here. I 
mean, I think there's been a thought on part of the 
administration that any act like that, even assisting someone 
so that they can fight aggression, could possibly create an 
escalating situation. I think we get paralyzed by the fear of 
adverse consequences.
    There's clearly a pattern here. You know, after--not only 
did we not provide largely defensive lethal aid to the 
Ukrainians, but, after the--Libya and Qaddafi was taken down, 
you could argue, Well, should we have done that, or not? We did 
it. The only thing the new elected Islamic moderate government 
asked for us was to help them create a defensive force to stop 
the radicals. We said no. As a result of that, we lost our 
Ambassador, the Consulate, and eventually the Embassy. The 
radicals are running around the entire country, the Syrian 
moderates. You've probably met some of them. They were so 
desperate, they talked to me. They wanted--"Look it, we don't 
want your troops, we don't even want your airplanes. Just give 
us some weapons to be able to fight this guy, Assad, because 
he's got a modern--he's got modern equipment. He doesn't have 
very good soldiers. They lack will. They've got tanks and 
artillery and airplanes, and that makes a difference on the 
battlefield. Let us fight them. Give us some antitank weapons, 
some antiaircraft weapons.'' We said no. Look at the problem we 
have. I mean, that lack of support and engagement is mystifying 
to me. To fear that because it may escalate into something 
else? We get paralyzed by the fear that it may be something 
else that--it's----
    Senator Inhofe. Yeah.
    General Keane. Some of it's shameful.
    Senator Inhofe. I appreciate that.
    Let me just, real quickly, on--my time is running out 
here--I was at the meeting also this morning with General 
Neller. I commented, and he agreed, that the problem--one of 
the problems that we're having is that we don't--we have the 
wrong priority on defending America. I think you just said it a 
minute ago, that defense of the American people shouldn't have 
a pricetag. Well, we had a policy from the administration that, 
when we're getting into sequestration, that we're not going to 
put additional funding into the military unless an equal 
amount's going to be given to the nondefense portion of the 
budget. What does that tell you? It tells you that there's not 
a priority in defending America. Do you in--feel the same way? 
Do you feel that the next administration should have that 
priority changed?
    General Keane. Well, yeah, absolutely. Given the threats 
that we're facing, and given the leaders of our military who 
are coming before this committee and telling us what major 
challenges and security deficiencies that they have, that we 
can't meet the threats that are out there. I'm--and I--what I 
tried to explain to you is that, yes, we have to make 
investments; yes, we have to grow the capability of this force; 
but, also, we have to look inside this Department as to how it 
does its business, and hold it accountable for that.
    Yeah, absolutely, these--this situation that's in the world 
today is going to get worse if we don't stand up to it. I think 
we've learned a couple of lessons from history. Our adversaries 
look at us in terms of real capability. They see that gap 
closing, just as we see it. Rebuilding the military and putting 
that capability on the table is real. In and of itself, it 
becomes a deterrent. That is the wonderful aspect of this. We 
learned that through the Cold War. The other thing that has to 
be present, even though you have the capabilities there, and 
they know those capabilities are real, and they don't want to 
deal with those capabilities, if we don't have the intent to 
use that capability, it is not a credible deterrent. They have 
to clearly understand where those lines are. Russia's 
aggression has to stop. China wants to dominate and control the 
Pacific, and they resent the United States having done it for 
70 years. They are forward-deploying forces to do that. That 
kind of aggression that's taking place that will lead to 
confrontation, they have to know that we're not going to stand 
for that. They have to understand that. So, the intent, as well 
as the credible military capability, is what is a credible 
deterrence. You have to have both.
    Senator Inhofe. Mr. Chairman, I've got to say, this is-- I 
think, may be the best panel that we've had in recent years.
    I appreciate your honesty, all of you.
    Thank you.
    Chairman McCain. Thank you.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    I joined Chairman McCain at the Marine Corps Caucus 
Breakfast this morning, where the Commandant of the Marine 
Corps, in some sense surprisingly to me, identified cyber as 
the major threat and, in fact, I think, clearly indicated that 
we need a more robust and clear policy and strategy regarding 
cyber. One of the aspects of cyber that is perhaps most 
troubling is that, first of all, it spreads across many 
different spheres. Chairman McCain identified the potential for 
crippling our warfighting ability by literally disabling our 
ships or planes that are dependent on cyber communication, but 
also the attacks on civilian targets--our utilities, our 
financial system, and our election.
    So, I take it, Mr. Kagan, you would agree that we need a 
more clear and strong policy regarding cyber.
    Dr. Kagan. Yes. As I say, I'm not a cyber expert, so I 
couldn't tell you what that policy actually would be, other 
than, as I say, I think, you know, we need to--first of all, 
we, as a Nation, need to be clear about what has happened. I 
think--I mean, I'm only talking about the political side here. 
I mean, there's still a lot of uncertainty about what exactly 
has happened. I think it's very important that the American 
public know what happened, who did it, and how. That then we 
can begin to fashion a response to it, which I think must 
include retaliatory action as a deterrent.
    Senator Blumenthal. That investigation of its most recent 
effort to interfere in our elections is one that really should 
be done soon, it should have bipartisan support, and it should 
be sufficiently resourced so that it can be effective. Would 
you agree?
    Dr. Kagan. Yes. Again, because it's as--it should be 
understood as a strategic--it's a strategic issue, because 
Russia deploys this political weapon as part of its overall 
strategy. So, the United States needs to respond as if this 
were a strategic issue, and forget about who won and didn't win 
the election. This really is a fundamental strategic question.
    Senator Blumenthal. Without going into any of the details 
that may be, preferably, discussed in a classified setting, no 
doubt there has been work done--investigative work done into 
the Russian actions that were designed to destabilize or 
interfere with our electoral process. Separately, you would 
recommend that the Congress undertake such a study.
    Dr. Kagan. Yes. Partly, again, for the reasons that 
Congress is uniquely suited to then explaining things to the 
American people in a way that the administration is not likely 
to do. I mean, it's just not enough to come up with a secret 
report on what happened. I think the American people need to 
understand.
    By the way, I also think this needs to put in--be put in a 
global context, because this activity has been conducted in 
elections throughout Europe and in a--as I say, is about to be 
conducted in elections that are coming up in Europe.
    Senator Blumenthal. You mentioned, Mr. Kagan--and I'd be 
interested in the opinions of other individuals on this 
observations--that the two trends that are troubling are not 
only the changes in policy on the part of the revisionist 
powers, but also the growing doubts about our Nation's 
commitment to our alliances, including recent statements by the 
President-elect that we ought to, in effect, withdraw from our 
commitments to NATO, that our commitments to Japan also perhaps 
are not worth fulfilling. I wonder whether you would expand on 
the effects of those kinds of statements on the world order.
    Dr. Kagan. Well, as I say--and I want to be, you know, 
clear about this--I think that, unfortunately, the policies of 
the outgoing administration had already shaken confidence in--
from the very beginning. I mean, I think the way the initial 
Russian reset was carried out, which wound up canceling 
military cooperation programs with Poland, and the Czech 
Republic send a very early signal about whether the United 
States was going to be a reliable ally. I think premature 
withdrawal from Iraq, the whole redline episode with Syria--I 
mean, there's a background here. When I look at what happened 
during the campaign, I see it as part of a continuum.
    Yes, the statements made by the President-elect and his 
proxies during the campaign have definitely raised alarm bells 
around the world about what the United States role is going to 
be, and have suggested that it is going to be a different role 
than the world has been accustomed to.
    Now, you know, we can--are told that the--people don't mean 
anything they say in election campaigns. Maybe that'll turn out 
to be true. That's why I think that a very high priority, and a 
first priority of the administration, must be to go out and 
reassure, publicly and privately, the allies that we are fully 
committed to all of our defense commitments. As I say, more 
than that, to say that we are going to keep up with the rising 
challenges that those countries face by taking the necessary 
steps, in terms of our own capacities to do that.
    Senator Blumenthal. Thank you very much.
    My time is expired. At some point during the hearing, I'd 
be interested in what the two other witnesses have to say about 
both those areas.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Blumenthal, in order for 
continuity, we could have those comments now.
    General Keane. Well, let me just add, as much as there are 
issues in the cyber area with the United States military, it 
also is the most protected function that we have. You know as 
well as I do that our critical infrastructure is exposed. By 
that I mean our banking and financial system, our utility 
infrastructure, our transportation system. They're all 
relatively exposed. The Congress here tried to work public-
private partnerships in some legislation a few years ago. I 
think Senator Lieberman led that effort with others, and we 
couldn't get it done, mainly because the private sector did not 
want to make the commitment that it would take, largely in 
terms of dollars, to provide that kind of security.
    There's a presidential commission reporting out this week 
that's got a number of recommendations, so I think we need to 
take a hard look at what they're looking at. This mostly deals 
with--because they're not--they don't have access to the--what 
the militaries do, in a classified sense--this largely has to 
do with the private sector. It will take public-private 
partnership to provide that kind of security. Let's face it, I 
mean, cyberattacks on the United States have been absolutely 
exploding, you know, in terms of stealing technology, 
intellectual property, and obviously also in just stealing 
critical information. Largely, we have not been responding. I 
don't know how you stop something like that if they're not 
paying a price for it. Largely, they're not paying a price for 
it, Senator. That clearly has to be a part of our strategy.
    So, yes, we--but, we have to find ways to defend that 
critical infrastructure, and hopefully the presidential 
commission will give us some ideas on what the Congress needs 
to do to help do that. There are some things on the military 
side that we need to shore up.
    Mr. Brimley. I would just say, sir, quickly, on the allies-
and-partners question. I agree with Dr. Kagan. I'm somewhat 
worried about the comments I saw from the President-elect and 
his team. I'm inclined to give them the benefit of the doubt, 
certainly during the transition. I would think that, upon 
taking office--to execute any of the at least rhetorical 
policies I've heard, vis-a-vis China or Iran, or even the 
comments on Taiwan, all of those things require robust 
alliances and partnerships. Moreover, the selection, I would 
think, of General Mattis, who spent years fostering strong 
alliances and partnerships in places like Central Command, for 
instance, I'm hopeful that the next team will be--at the 
Cabinet level, will have folks that are deeply versed in the 
value to us of having a strong strategy buttressed by strong 
alliances and partnerships.
    Chairman McCain. Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    I appreciate the direction that this committee meeting is 
focused on. In particular, I'm curious as to whether or not 
perhaps the committee has gone far enough with the NDAA 
proposal this year. We've directed, for the first time ever, 
that the President of the United States must now define when an 
act in cyberspace would require a military response. It started 
out with a discussion that we had as to whether or not we 
should define a cyber act of war. It's been refined a little 
bit in the discussion. I think it's a very appropriate item to 
have.
    Would it be fair to say that--have we gone far enough, or 
do we have to go farther, in terms of what we're expecting from 
the administration?
    Mr. Brimley. I'm happy to go first with that, sir.
    It's hard to know from the outside. I think a lot of the 
most useful strategic guidance in this domain would be highly 
classified. Just from my own basic experience in this, 
wrestling with this act-of-war question, I think that's 
something that can and should be debated openly and publicly. I 
think we ought to do more. Like I said, the second- and third-
order consequences of getting involved in offensive operations, 
for instance, are problematic.
    Just to the earlier point on cyber, writ large, I do worry 
a little bit about the military services and sort of running to 
the ball on cyber. You know, I want the Marine Corps focused on 
closing with and destroying the enemy, you know, from 
amphibious operations and the like. I want the Army focused on, 
you know, major combat operations. I want the Air Force focused 
on what it does best. I--sometimes I worry that, sort of, the 
lack of--the necessity to have each military services investing 
in cyber, along with the broader architecture of Cyber Command 
and the NSA [National Security Agency], it--I'm not sure the 
incentives are properly there. Each military service chief 
feels compelled to focus on cyber, because they have to. I--
sometimes I worry that that focus sometimes can protract from 
what the military services, in my mind, their core missions 
ought to be. Thinking about seapower, thinking about airpower. 
Obviously, cyber is a component of this. You know, but 
sometimes I worry that they are--that the demands for each 
military service detract from their core mission. I think cyber 
ought to be, you know, a stronger voice, perhaps, from Cyber 
Command and maybe even OSD is appropriate.
    Senator Rounds. Dr. Kagan?
    Dr. Kagan. Senator, forgive me, I've already exceeded my 
knowledge of cyber in this hearing.
    Senator Rounds. General Keane.
    General Keane. Well, I think the committee focus with the 
military portion of cyber deals with Cyber Command, itself. 
They have responsibility for the function, both from a defense 
perspective and from an offense perspective. I don't believe 
that this is an area that's going to require major investment 
strategy that compares anything to the lack of combat brigades, 
the lack of proper type of combat aircraft, or the lack of 
proper types of submarines and ships. I would leave it to the 
commander there to understand exactly what he needs to properly 
defend the military. Also, I know he's got the offensive tools. 
It's the defensive tools that are the issue.
    Senator Rounds. Interesting to me. I--my time is--I've got 
a short amount of time left, but I'm just curious. Throughout 
this discussion, we've talked cyber, we've talked some 
readiness issues, we've talked some challenges with regard to 
our naval forces, air forces, army. We really have not said 
much at all about space. Yet, everything everybody's got is 
dependent upon our ability to protect our own assets within 
space. How vulnerable are we? Should we be placing additional 
emphasis on the protection of our own assets from kinetic 
attack in space?
    General Keane. Well, the short answer is yes. As our 
adversaries have acquired all the technology that we have, 
you--we know for a fact it's part of their asymmetric strategy 
to deny us as much of our space-baked technology as possible. 
They practice it routinely. You know as well as I do, the 
Chinese have been shooting satellites down for years, getting 
ready for that asymmetric strategy against us. So, most 
definitely, there's--we're not going to go back, in terms of 
that technology and our dependence. Protecting it is an 
investment strategy, to be sure, but it is not on the scale of 
what is needed for our offensive capability, which is lacking.
    Senator Rounds. Thank you.
    My time is expired. Thank you, Mr. Chairman.
    Chairman McCain. Senator King.
    Senator King. I also want to associate myself with the 
comments of Senator Inhofe, and thank the Chairman and the 
Ranking Member for arranging this hearing. This is--this has 
been a very insightful and important.
    To follow up on this--just a quick question on the cyber 
issue. I wonder your opinions of splitting the cyber from Cyber 
Command and NSA. It strikes me that those are two different, 
very important, very engaging functions, and I wonder if the 
time has come to acknowledge the importance of each and make 
those two different individuals.
    General Keane, your thoughts?
    General Keane. Yeah, I wouldn't split it. I mean----
    Senator King. You would not.
    General Keane. No, no, absolutely not. Because the main 
tool that you're actually going to use is NSA. That is-- that's 
where most of our capability truly is. If Keith Alexander was 
sitting here--he's a good friend of mine, and I've talked to 
him at length about this--he would argue against splitting it.
    Senator King. I----
    General Keane. You're going to wind up----
    Senator King. I've had that discussion with him----
    General Keane.--creating more bureaucracy than we actually 
need if we do that.
    Senator King. Mr. Brimley? Mr. Kagan?
    Mr. Brimley. I've been back and forth on this particular 
question, myself, over the years. You know, I think one of the 
major problems we have with cyber, as it pertains to the 
government and also the military, is, you know, we're competing 
for talent. We're competing for talent with the private sector, 
we're competing for talent from the international community, as 
well. Which leads me to believe that, you know, splitting, you 
know, one rather--you know, one bureaucratic entity into two 
bureaucratic entities, you know, I think that could--you know, 
and setting those bureaucratic entities in some sort of 
competition with one another for talent, whether it's civilian 
talent or military talent--it's probably not the real issue. I 
would be more interested in, you know, making sure that, from a 
military perspective, we have the ability to direct-commission 
folks from, say, Silicon Valley who want to serve as reservists 
or who can serve on Active Duty for 1 or 2 years; you know, 
flexible hiring authorities for the civilian side; you know, 
flexible spending incentive programs to be able to compensate 
our best and brightest. Maybe not, obviously, from a private-
sector level, but making it more attractive for folks to serve, 
both on the civilian side and military side, I think that's 
where we ought to focus much of our energy. The wiring 
diagrams, I think, are less important in that regard.
    Senator King. Thank you. Thank you.
    General Keane, I was struck by your testimony about the 
bureaucracy in the Army which stalled the development of new 
weapon systems and the deployment. That's a structural issue 
and a cultural issue. It's hard--these aren't bad people 
saying, ``We don't want to do good things.'' How do we deal 
with the cultural structural issue? Because we're seeing this 
across the--all the services, and in procurement, generally, of 
new technology. It takes too long, and it's too expensive.
    General Keane. Yeah, the--it's a great question. The only 
way you get at that is with absolutely strong leadership that 
is not going to tolerate that. You've got to bore down on it. 
First, you've got to get educated, yourself, because--most 
people, like I do--I came to the Pentagon, because I ran 
effective organizations at different levels. I didn't know 
anything about the business side of the Army. The first time I 
got exposed to it was when I was a four-star general. I was 
handicapped, initially, because I didn't know what was going 
on. It took me, what, a year, year and a half, to understand 
this issue.
    So, having people there who are strong leaders, want to get 
these results, holding the system accountable for it, really 
driving innovation and technology, who you put in there as 
Secretary of the Army, the civilian Under Secretary of the 
Army--a lot of times--just be frank with you--we put people in 
there, you know, who enjoy the ceremonial aspect of it, they 
enjoy being Secretary of the Army, but they don't drive change 
in the culture because they're--it's a reward for something 
they've done.
    Senator King. So, selection of leaders is a crucial 
element, looking for innovative and willingness to move. Let 
me----
    General Keane. You've got to force the R&D effort, and 
you've got to talk to civilian--you've got to talk to the 
defense industry on a regular basis, because the defense 
industry is spending their time thinking about your function. 
They're all--they're also spending research dollars on it. You 
have to have regular communication with them, let them know 
where you're trying to go, bring them into it to help 
contribute to it, drive your own people to work with them, as 
well. We can accelerate this process rather dramatically.
    Senator King. I would suggest that we have to.
    Let me quickly move on to one other question. There's an 
extraordinary story in this morning's Washington Post about a 
report done by McKinsey and by the Business Board a the Defense 
Department, $125 billion of savings identified over 5 years. 
That would be enough to fund the nuclear modernization program. 
Do we need to take seriously--because we're talking about 
increasing the defense budget, but how about talking about 
using the dollars we have more effectively?
    Mr. Brimley, your thoughts?
    Mr. Brimley. Quickly, sir. Absolutely. I mean, that 
report--I think it was the Defense Business Board Report--I 
mean, I remember reading that a few years ago when it came out. 
I'm glad to see it's finally being reported on, you know, at 
significant levels now.
    Senator King. Well, it's pretty disappointing that----
    Mr. Brimley. Absolutely.
    Senator King.--it took digging to get it out.
    Mr. Brimley. Absolutely. I--and I would just say, as part 
of your hearings, your posture hearings in 2017, as part of the 
budget debates, I mean, you ought to hold the next Pentagon 
team to account in not only advocating for more defense 
dollars, but making sure those defense dollars are better 
spent. That's going to take advancing the reform agenda that 
this committee has laid out in the NDAA.
    Senator King. Thank you, Mr. Chairman.
    Chairman McCain. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    Thank you, gentlemen.
    This has been a great discussion this morning. I hope that, 
Mr. Chairman, we can continue and not just discuss it, but 
actually see some actions behind the words. So, I'm really 
encouraged about what we're touching upon today.
    I would like to get your thoughts on ISIS in Southeast 
Asia, because I do think it's something that we haven't spent a 
lot of time focusing on. We're not talking about it nearly 
enough. Islamic extremist groups in Southeast Asia, like the 
Abu Sayyaf group, they are all coming together under the flag 
of ISIS. It's a bit concerning.
    Earlier this year, both General Dunford and Secretary 
Carter agreed on my assessment of ISIS in the region, and they 
shared those concerns, as well. Since that time, ISIS-linked 
groups have carried out a number of attacks. Just last week, we 
saw an attack against the Philippine President's security 
detail, and we saw a bombing near the U.S. Embassy. So, 
continuing escalation of violence in that area by those 
extremist groups.
    Mr. Brimley, I'd like to start with you, because you did 
mention the rebalance towards the Pacific, and--you've 
mentioned that rebalance. I think, when that first started, the 
focus was very much on China and maybe North Korea, some of 
those aspects, but now we have ISIS engaging heavily in the 
Philippines. You spoke about the Marines in Darwin and other 
activities. Can you talk a little bit what you think our 
administration, the incoming administration, should do to 
really address this rising threat of ISIS in Southeast Asia?
    Mr. Brimley. Sure. Thank you, Senator.
    I would just say, we saw this before, you know, in 2001-
2002, you know, terrorist groups in the region that have their 
own, sort of, particular interests as it pertains to the 
countries in which they operate. I mean, I think there's a lot 
of branding going on. We saw, in--after 9/11, a lot of 
terrorist groups around the world, but somehow they're 
affiliated with al Qaeda, and that gave them some, sort of, I 
guess, marketing prowess. It's--it doesn't surprise me that 
we're seeing that again with ISIS. I would just say, from a DOD 
perspective, one of the ways--you know, I think our posture in 
the region ought be focused on maintaining the regional order. 
We need to be able to prepare to go toe-to-toe with countries 
and threats. I'm worried about China. I'm worried about North 
Korea and the like. One of the tangible second-order benefits 
that we get from forward-deploying our troops and capabilities 
overseas is, we have that daily connectivity, and we have that 
daily deterrent prowess in places around the region.
    One of the debates that you see and hear inside the 
Pentagon, or one of the debates that we had in the--inside the 
Pentagon as it pertains to, say, the Marines in Darwin, for 
instance, is, you know, you start to break apart these larger 
entities, like a Marine Air/Ground Task Force [MAGTF], for 
instance, and you start to put--you know, put a company here in 
southern Philippines, and put a--you know, a task force of some 
kind in Australia, and there's a tradeoff between doing that, 
which gives you that kind of daily interaction with local 
communities, the ability to do counterterrorism operations, for 
instance, but there is some risk that it becomes more difficult 
to quickly bring those capabilities back together for a larger 
threat, responding to a larger threat. That's the balance that 
DOD, particularly OSD, has to grapple with every day.
    I would just encourage the committee, as you think about 
the--what--the Defense Strategy Review, what used to be the QDR 
[Quadrennial Defense Reviews], that the next administration 
will do next year, that you--you're very aggressive with them 
in articulating, you know, what you want to see out of the 
strategy, classified briefings for all these factors, and 
making sure that all these different constituent elements are 
part of that strategy and it's not--it's not just a public-
relations document, which is what QDRs, I think, unfortunately, 
have tended to evolve into, which is part of the reason the 
committee took its action it did to make the QDR a Defense 
Strategy Review with a classified component.
    Senator Ernst. Very good, thank you.
    General Keane, could you talk a little bit more about, 
militarily, what we could be doing in that region, and the uses 
of forces?
    General Keane. Yeah, absolutely.
    ISIS [the Islamic State of Iraq and Syria] has expanded 
into 35 countries. We don't really have a strategy to deal with 
any of that. We're focused on the territory that they took, 
certainly, in Iraq and Syria. I'm not saying that's not 
appropriate. That should be a priority. Commensurate with that 
priority, we should be addressing these other areas, as well. A 
lot of the identification with ISIS is aspirational, but they 
also have affiliates in these countries. This is one of them. 
What they--with an affiliate, they actually sign a document 
together to abide by certain ISIS principles and rules. In some 
cases, they direct; some cases, they provide aid; but in most 
cases, there's no direction. That's largely the case here.
    I believe what the United States can do, with its allies, 
is that--you know, we've been at war with organizations like 
this now for 15 years, and our reservoir of knowledge and 
capability here is pretty significant. It far exceeds anybody 
else in the world. We have allies that are participating with 
us. There's much we can do with them, in sharing intelligence 
and helping them with training and also helping them with 
technology--not expensive technology, but things that can truly 
make a difference, you know, with those troops. I don't think 
we necessarily have to be directly involving in fighting these 
forces ourselves, but aiding and supporting these forces, and 
having a strategy to do that, and lining up some priorities for 
ourselves--because we have limited amount of resources--but, 
make some choices, you know, based on what that threat is and 
what it may be--its implications for the region could help 
guide us to what those priorities should be.
    Senator Ernst. I appreciate your input.
    Thank you, Mr. Chair.
    Chairman McCain. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman. Thank you, both 
to the Chair and Ranking Member, and also to all of our 
panelists, for giving us a lot to think about this morning.
    Dr. Kagan, I want to begin with you and with your comments 
about Russia's interference in our elections, because this is 
something that I have found very troubling. In fact, before 
Congress went out, before the October recess, called on 
hearings to better look at what was going on. We know that 
we've had Secretary Johnson and other Homeland Security 
officials say that there is evidence of Russian hacking into 
our electoral system that goes to the highest levels of the 
Russian government. That was done, not to influence the outcome 
of the election, necessarily, but to sow confusion about 
whether our electoral process was working. Yet, to date, there 
has not been one hearing on this issue in this Congress. What I 
was told when I asked about a hearing--and I have, again, 
called on the Foreign Relations Committee, on which I sit, to 
do a hearing, and I know that they're considering it-- but I 
was told that there was concern that this might be viewed as a 
partisan issue.
    So, I am very heartened by your point that this is not a 
partisan issue. In fact, the first person I heard raise it in 
Congress was Senator McCain, the Chairman of this committee, 
who talked about the efforts to hack into the Arizona and 
Illinois voter files.
    So, I couldn't agree more, this is a hearing that we ought 
to undertake because it's important to our American democracy, 
it's important to European democracy, when we look at what 
Russia's doing in eastern Europe, as you point out, in Germany, 
in France, the potential for them to continue to sow mischief.
    What kinds of--you also talked about taking retaliatory 
action against Russia for what they're doing--what kinds of 
efforts would you suggest we look at, in terms of trying to 
retaliate or respond to what Russia is doing in the United 
States?
    Dr. Kagan. Well, there are--I'm sure there are people 
better equipped to answer that question than I am, but I would, 
you know, publish the Swiss bank accounts of all the oligarchs 
around--I mean, just these--there are all kinds of things that 
you could do that would cause----
    Senator Shaheen. Yeah, keep----
    Dr. Kagan. Well, I mean----
    Senator Shaheen.--saying a few more of those, because I 
think those are helpful.
    Dr. Kagan. You know, you could talk about all the ways in 
which--you know, you could reveal stuff about the way Putin has 
manipulated his own elections. I mean, there's all kinds of 
stuff out there, which, if you were of a mind to do it, you 
could do that would be embarrassing, of one kind or another. I 
mean, these people have money stashed all over the world. They 
have dachas, they have villas, et cetera. They--this is a kind 
of a mafia organization, where, you know, part of the game is 
everybody holding together. There's ways to create divisions 
and difficulties. I mean, it--I'm sure, as I say, there are 
people who could--if you put them to the task--and I'm--for all 
I know, they have been put to the task--you could come up with 
a whole list of things.
    By the way, I wouldn't make an announcement of it. 
They'll--they would understand what had happened. Until we do 
something like that, it's just open season for them to do this. 
So, I think we've already--we need to treat this like any other 
weapon system that's being deployed, because they are treating 
it like a weapon system.
    Senator Shaheen. Thank you.
    Well, Mr. Chairman and Senator Reed, I hope that this 
committee will also consider hearings on this topic.
    Let me follow up on Senator King's issue that he raised 
with respect to the Pentagon study that was reported in the 
Washington Post, because--I haven't read the study. I don't 
know whether the concerns that are raised by some of the 
Pentagon officials in this news story are accurate, or not, but 
the very fact that it was buried--or the attempt was to bury it 
by Pentagon officials, I think, is a very bad message to be 
sending, especially in an organization that can't even get 
ready for an audit until 2017. I don't know how long we've been 
asking for an audit. It's been since I got on this committee, 
in 2011, so that's at least 6 years. I suspect it's been longer 
than that. So, there are clearly, as all of you pointed out, 
bureaucratic changes that need to be made in the Department.
    One of the things, General Keane, that you pointed out is 
that there is a predilection to try and kill some of the 
innovative programs so that the Pentagon can actually do those 
themselves. We had this experience with the Small Business 
Innovation Research Program [SBIR] as we're going into this 
NDAA, because the initial effort was to try and increase the 
amount of money that DOD is making available to small 
businesses to do innovation. I think we've heard from a number 
of panelists previously that this is one of the best research 
programs that still exists within--for small businesses to 
produce innovation that's used by the Department of Defense.
    So, is this the kind of initiative that you're talking 
about that there may be, for whatever reason, efforts to try 
and keep it from putting more money into that small-business 
effort to produce innovation?
    General Keane. I certainly encourage that. The--you know, 
the Active Protective System that I was talking about and that, 
when DARPA, you know, made a call to the people to come 
forward, and they knew that this would be an advanced 
technology that could actually change warfare, the contractor 
that the United States Army has gone to is a small-business 
contractor. So, here's this small-business contractor, 
conceptualized this capability themselves, and it will 
revolutionize combat warfare as we go forward. They also have 
technology, interesting enough, and they brought military 
leaders out to see it. They can stop a bullet. In other words, 
a 50-caliber bullet, they can kill the bullet. It's all because 
of--everything--all of this is available on the private sector.
    Senator Shaheen. Right.
    General Keane. Microchip technology, as I mentioned, and 
unbelievable software applied to that technology. Well, that's 
revolutionary technology, what I just mentioned to you. It 
changes warfare. That is something we should be investing in. 
We should put money behind this. I have no affiliation with 
this organization, let's get that straight, so--but, yes, this 
is--absolutely right, this is America. We're the most 
innovative, creative people on the planet. It's out there, and 
we have to unleash it and bring it in. It doesn't have to 
necessarily be a giant organization that does it. There are 
Americans out there doing this stuff. They're creative. Lookit, 
they changed a--the whole dot-com aspect of our lives out there 
in California by the innovation and creativity that these 
engineers have. We've got to tap into it.
    Senator Shaheen. Well, my time is up. Thank you, General 
Keane.
    I would point out that the reauthorization of the SBIR 
program is in this NDAA for 5 years, which I think is very 
positive, and I applaud the Chairman and Ranking Member for 
that. Unfortunately, the increase in spending on that program 
did not make it into the bill.
    Thank you all.
    Chairman McCain. Senator Lee.
    Senator Lee. Thank you, Mr. Chairman.
    Thanks, to each of you, for being here. Thanks for all you 
do to keep Americans informed and to keep Americans aware of 
what we're discussing today; that is, the emerging threats to 
our security.
    There are a number of threats we face around the world, and 
it's important to keep those threats in mind as we approach 
this exciting new period in our history, in which we've got a 
new administration coming. One of the many threats that we face 
in any era, in any administration, relates to the threat posed 
by the excessive accumulation of power in the hands of a few. 
We see that happen around the world, and sometimes we see it 
within our own government. It's one of the reasons why our 
system is set up the way it is. The Constitution of the United 
States is designed specifically to protect us against that kind 
of threat here at home, and it does so by wisely dividing that 
authority between Congress and the presidency.
    The framers believed that forcing the two political 
branches of government--that is, the two political branches 
that are not the judiciary--to collaborative, to interact with 
each other; where necessary, to serve as a check and as a 
balance on each other--and that this would provide us the best 
means toward achieving a stable, successful, and, hopefully, 
relatively popular foreign policy; that is, one that, in one 
way or another, reflects the will of the people, or at least is 
likely to be geared toward their interests.
    For several decades, Congress, quite regrettably, in my 
opinion, has deliberately abdicated many of its constitutional 
responsibilities. It's just sort of handed it over to the 
executive branch, being willing to take a backseat role--a 
backseat role, at best, in determining America's role around 
the world on how we're going to combat threats that face us. 
The result ends up being a foreign policy that is made 
primarily within the executive branch bureaucracy and 
Washington insider circles, informed, as they tend to be, by 
the interests and the aspirations of the so-called 
international community. This is a circle that increasingly 
becomes untethered from any clear lines of accountability 
connecting policy, policymakers, and the American people.
    For instance, the U.S. military is currently operating in 
the Middle East under a very broad--I believe, irresponsibly 
broad interpretation of a 15-year-old Authorization for the Use 
of Military Force, using it as justification to engage in a 
pretty broad range of actions, from intervening in two separate 
civil wars to propping up a failing Afghan government. 
Meanwhile, the executive branch seems increasingly inclined to 
choose and identify and engage threats through covert actions. 
That further helps the executive branch to avoid the scrutiny 
that would be available if stronger congressional oversight 
existed. They avoid that kind of scrutiny and public 
accountability.
    Now, this may be convenient for Members of Congress who 
want nothing more than to just have someone else to blame for 
decisions that turn out to be unpopular or unsuccessful, but 
it's an affront to the Constitution. It's more than that. It's 
more than just an affront to a 229-year-old document. It's an 
affront to the system of representative government that we have 
dedicated ourselves to as Americans. I think it's an insult to 
the American people, who are losing patience with a foreign 
policy that they feel increasingly and very justifiably 
disconnected from. Notwithstanding the fact that they're still 
asked, from time to time, to send their sons and daughters into 
harm's way to defend.
    So, as we discuss these emerging threats to our national 
security, I'd encourage this committee and all of my colleagues 
to prioritize the threat that will inevitably come to us if we 
continue to preserve the status quo and to exclude the American 
people and their elected representatives--in many cases, 
ourselves--from the process.
    So, I have a question for our panelists. One of the focuses 
of this committee has been on the readiness crisis within the 
military brought about by the conflicts we're facing in the 
Middle East and by a reduction in the amount of money that the 
Pentagon has access to. Easy answer to this is often, ``Well, 
let's just increase spending.'' That's not to say that that's 
not necessary, now or in other circumstances, in particular, 
but setting aside that, that is one approach that people often 
come up with. Another option that I think has to be considered, 
and perhaps ought be considered first, is to reexamine the 
tasks and the priorities that we're giving to our military 
leaders and to ask whether these purposes that we're seeking 
readiness for are truly in the interests of the American 
people, those we're representing, those who are paying the bill 
for this, and those who are asked to send their sons and 
daughters----
    Chairman McCain. The Senator's time has expired.
    Senator Lee.--into harm's way. So----
    Chairman McCain. The Senator's time has expired.
    Senator Kaine.
    Senator Lee. Could I just ask a one-sentence question, Mr. 
Chairman, to----
    Chairman McCain. Yes, but I would appreciate courtesy to 
the other members that if--make one long opening statement, it 
does not leave time for questions.
    Senator is recognized for a question.
    Senator Lee. Do you believe that the Congress, the White 
House, and the executive branch agencies have done an adequate 
job in reaching consensus on what the American people's 
interests are and on calibrating the military and diplomatic 
means to appropriate ends?
    Dr. Kagan. Do we answer?
    I don't accept this dichotomy that you've posited between 
what the Congress and the President do and what the American 
people want. I mean, when I think of some of the--first of all, 
historically, the executive has always had tremendous influence 
on foreign policy, much--whatever the Constitution may say, 
although the Constitution did give the executive tremendous 
power to make foreign policy, if you go back to Jefferson, the 
willingness to deploy force without congressional approval; you 
can go all the way through 200 years of history. I'm not sure 
it's substantially different. In any case, that's been the 
general prejudice. The founders wanted energy in the executive, 
and particularly in the conduct of foreign policy. That was the 
lesson of the Revolutionary War. That's why they created a 
Constitution which particularly gave power to the executive.
    Also, I just don't believe that the American people are 
constantly having things foisted on them that they didn't 
approve of. So, one of the most controversial things that's 
happened, obviously, in recent decade, that people talk about 
all the time, is the Iraq War, which was voted on, debated at 
length, and Congress, 72-to-28 I think was the vote, something 
like that, the American people--public opinion was in favor of 
it, just as the American people was in favor of World War I, 
the Spanish-American War. Later, these wars turn out to be bad 
or badly handled, the American people decide that it was a 
terrible idea, and then people start saying, ``Well, who did 
this?'' The American people want to find somebody to blame for 
doing these things. They don't want to take responsibility for 
their own decisions.
    I don't believe we have a fundamentally undemocratic way of 
making foreign policy decisions. I think it's complicated. I 
think mistakes are made. Foreign policy is all about failure. 
People don't want to acknowledge that failure is the norm in 
foreign policy, and then they want to blame people for failure. 
I think the American people are participants in this process.
    Senator Lee. Thank you.
    Thank you, Mr. Chairman.
    General Keane. The only thing I would add is, I do think 
Congress should be more involved with the use of force when 
we're deploying force overseas. I think Congress has walked 
away from that responsibility recently. You have a colleague 
here who's been banging on this for some time: Senator Kaine. I 
would hope that this new administration would welcome 
congressional involvement when the Nation is going to commit 
its forces.
    Mr. Brimley. Sir, very quickly, I would just say, you know, 
the Defense Strategy Review that the Pentagon is mandated to 
provide this committee and Congress and the American people, 
that's a great forum to engage in these questions. What--
readiness for what? Force structure for what? Modernization 
priorities. These are all things that can be debated openly. 
These are things which the Pentagon is congressionally required 
to submit. I think that's a great forum for these discussions.
    Chairman McCain. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    Thanks, to the witnesses.
    An observation and two questions.
    Observation. I was chairman of the Democratic National 
Committee [DNC] from 2009 through early 2011, and we had a file 
cabinet in the office, with a plaque over it, and it was a file 
cabinet that was invaded in 1972 at the Watergate complex when 
materials were taken out of the DNC. The materials that were 
taken were modest, and it made no outcome on what was one of 
the biggest landslide elections in the history of the United 
States. Yet, it led to one of--a very searching congressional 
inquiry, not because of the outcome of the election, but it led 
to a searching inquiry because of a desire to uphold the 
integrity of our electoral processes.
    I associate myself with comments of Dr. Kagan and some of 
the witnesses here. There have been requests of the Foreign 
Relations Committee, Armed Services Committee. There was a 
letter to the President from Democrats on the Intel Committee, 
dated November 29, asking that the President declassify 
information with regard to the engagement of Russia in activity 
concerning the American presidential election. I think it's 
absolutely critical that the American public know what 
happened, that Congress know what happened, and that we then 
figure out what we can do to avoid such instances, by Russia or 
anybody else, in the future. My fear is, if we don't do what we 
did, back in the '70s, in such an instance--and that wasn't a 
foreign government undertaking to influence an American 
election--but, if we don't, as Congress, stand up to protect 
the integrity of the system, that we're going to regret it in a 
lot of ways in the future. That's observation.
    Question. I thought it was interesting, Dr. Kagan, you 
talked about two trends: the historical rejuvenation project 
ambitions of certain nations and a retreating American 
willingness to be engaged. A third trend that I'm kind of 
interested in--I certainly see the first two--a third one is 
the increase of the power of nonstate organizations that don't 
follow any of the rules, Geneva Conventions, et cetera, and 
whether that--it be ISIL or al Qaeda or al-Nusra or ah-Shabaab, 
or whether it be, you know, global organizations that can 
offshore everything or the Sinaloa Cartel, there's a lot of 
nonstate organizations that use violence to achieve their end 
or use a nonstate capacity to avoid accountability. I think 
that is a trend that is also a pretty important trend that is 
hard for us to completely get our minds around, because so many 
of our doctrines are doctrines that we have developed thinking 
about state versus state. So, I'm just curious, in my first 
question, if you would just say something briefly about that 
trend, the rise of a nonstate willing to use violence or other 
nefarious ends, and how we should factor that into our 
strategic thinking.
    Dr. Kagan. Well, obviously, it's a problem, and--although I 
always find it ironic that these nonstate actors, all they 
really want to do is become a state. I mean, that's ISIS's 
great goal, is to be a state. So, you know, when I hear about 
how the state is becoming less important, that's all that these 
nonstate actors want to be. It's obviously something that we 
are engaged in, must be engaged in dealing with.
    What I would just say is, it's not going to be the rise of 
nonstate actors that upends the world order. It is going to be 
a constant problem, a constant threat, and, in some paradoxical 
way, a greater threat to the homeland in particular instances. 
It is only the great powers, the great revisionist powers that 
are capable of undoing this world order that the United States 
created after World War II. While we have to do everything, I 
just don't want us to lose sight of what I consider to be the 
main game, because we can fight a kind of low-level battle 
against nonstate actors for a long time. We will be. Once the 
order has blown up--well, we've seen what happens when the 
order blows up. That's what--we've got to make sure that we are 
preventing that from happening.
    Senator Kaine. Let me ask one other question. Dr. Kagan, 
again, you said something interesting about how China wants to 
be a hegemon in Asia and the Pacific. Russia wants to be a 
hegemon in Europe. They resist and resent the fact that the 
U.S. has played this role, post World War II, in engagement in 
international institutions and our own unilateral activity 
around the globe. You know, as they think about the future, 
when they think about a future where they would be hegemons in 
their regions and the U.S. would be a hegemon in the Americas. 
Because I--one of the things I'm questioning is, by trying to 
do a little bit everywhere, we're actually not doing very much 
in the Americas; and the activity of China, for example, in the 
Americas is very significant. So, I'm not sure we're committing 
the resources to do the global mission, nor are we committing 
the resources even to play the kind of leadership role that I 
think we could play in the Americas. I'm curious as to any of 
your thoughts on that.
    Thank you.
    Mr. Brimley. Well, sir, I would just say quickly, again, I 
don't think it's simply a matter of dollars and money. I think 
there are things we can do in Asia, there are things we can do 
in Europe that won't break the bank. I remember when we put 
together what became this Asia rebalance, and we came up with a 
briefing for then-Secretary Gates, you know, and there were 
three maps that we gave him. One map was the status quo of our 
posture in the region. One map was a--sort of a 20-year--what 
things could like in 20 years, and it was pretty, you know, 
ambitious, in terms of what the posture would look like. The 
third slide was what we called, sort of--at least I called 
``baby steps.'' Here are things that we can do inside the FYDP 
that are not going to break the bank, that are politically 
doable, that aren't going to be, you know, politically 
controversial, in the sense of taking things away from, say, 
our bases here at home. That's when we came up Darwin and 
Littoral Combat Ships in Singapore, and some other things in 
the Philippines at the time. The vision was that we could do 
these sorts of small episodic baby steps year after year, 
administration after administration. If we had that political 
will, over the course of 20 years, it would amount to something 
truly strategic. That's still my hope. I don't think it 
requires huge amounts of new defense dollars to reinvest in our 
posture in places like the Asia-Pacific in ways that would 
detract from doing more in, say, North and South America.
    General Keane. I'd just add one thing on your nonstate 
actors. You know, in--they certainly know that they cannot 
defeat the United States military or militaries that exist in 
Europe. That's not their objective. I mean, their objective is 
to break our will, to force us back into ourselves so that they 
can have their way, you know, with the caliphate that they want 
to establish. They think by routinely killing us, it would 
force us to disengage and withdraw. That's, in my judgment, not 
going to happen. They dramatically underestimate the character 
and will and strength of the American people. Bin Laden did the 
same thing. He thought he was going to break our will by doing 
9/11, and quite the opposite occurred as a result of it.
    There is something that we have to be very careful of. We 
don't want to be very dismissive of this kind of warfare, 
because we've known for years the al Qaeda's pursuit of WMD 
[Weapons of Mass Distruction]. Make no mistake about it, 
obviously if one of these organizations got their hands on it, 
they would certainly use it, as brutal and fanatic as they are 
about killing people. One of the things that troubles us--the 
Director of the National Security Agency would--could speak 
better on it than I--but, we've been concerned, for a number of 
years, that radical Islamic organization will likely buy a 
offensive capability from the Russians, who are--half of what 
they devote to cyber is criminal. Buy that capability, and do 
some real damage to the United States in a way that 9/11 could 
never have done. So, the--you--we cannot underestimate the 
intent of the nonstate actors while we attempt to control what 
they're doing.
    Chairman McCain. Senator Graham.
    Senator Graham. Thank you, Mr. Chairman. Thank you for 
holding an important hearing on a very difficult topic, and to 
all the committee members for showing up. We're talking about 
important things to an empty room. Just look. Just look.
    So, Iran with a nuke. Number one--I'm going to ask, like 45 
questions in 5 minutes. Give brief answers if you can. If you 
can't, don't say a word.
    [Laughter.]
    Senator Graham. Do you believe that the Iranians, in the 
past, have been trying to develop a nuclear weapon, not a 
nuclear powerplant for peaceful purposes?
    Mr. Brimley. Yes.
    General Keane. Nuclear weapon, yes.
    Dr. Kagan. Yes.
    Senator Graham. All right, three for three.
    Do you believe that there's--that's their long-term goal, 
in spite of what they say, is to have a nuclear weapon?
    General Keane. Yes.
    Senator Graham. Do you believe that would be one of the 
most destabilizing things in the world?
    Mr. Brimley. Yes.
    Senator Graham. Do you believe the Arabs will get one of 
their own?
    Mr. Brimley. Yes.
    Senator Graham. Do you believe the Iranians might actually 
use the weapon if they got one? The Ayatollah?
    General Keane. Well, I think the--before I answer that, I 
think there's just as great a chance that the Arabs would use 
their weapon----
    Senator Graham. Okay. Well, so----
    General Keane.--as a first strike----
    Senator Graham.--we don't know--well, let's--Bob, you 
should your hand. Do you--if you're Israel, what bet would you 
make?
    Dr. Kagan. I would bet my 100-plus nuclear weapons would be 
a deterrent to their use of nuclear weapons.
    Senator Graham. Okay. What if he wants to die and doesn't 
mind taking you with him? What does he want? Does he want to 
destroy Israel, or is he just getting--when the Ayatollah says 
he wants to wipe Israel out, is that all talk?
    Dr. Kagan. I don't know if it's all talk, and I don't blame 
people for being nervous. We lived under--the United States, we 
all lived under the shadow of possible nuclear war for 50 
years.
    Senator Graham. Yeah, but, you know, on their worst day, 
the Russians didn't have a religious doctrine that wanted to 
destroy everybody. Do you believe he's a religious Nazi at his 
heart? Or you don't know? Answer maybe you don't know.
    Dr. Kagan. Well, look, I believe that they--he clearly is 
that--believes in a fanatical religion, but----
    Senator Graham. Well, here's what I believe.
    Dr. Kagan.--I'm not--okay, go ahead.
    Senator Graham. Okay. I believe that you ought to take him 
seriously, based on their behavior. Number one----
    General Keane. I think we should take him seriously. How--
whether they're religious fanatics or not, I don't think is 
that relevant. Clearly, their geopolitical goals to dominate 
the Middle East strategically, to destroy the state of Israel, 
and to drive the United States out of the Middle East, they 
have talked about it every single year----
    Senator Graham. Well, do you think that's their goal?
    General Keane. Yes, that----
    Senator Graham. Okay.
    General Keane. Of course it's their goal.
    Senator Graham. So----
    General Keane. Not only is it their goal, but they're 
succeeding at it.
    Senator Graham. Do you think we should deny them that goal?
    Dr. Kagan. Yes.
    Senator Graham. Good.
    North Korea. Why are they trying to build an ICBM 
[intercontinental ballistic missile]? Are they trying to send a 
North Korean in space? What are they trying to do?
    Mr. Brimley. They're trying to threaten us and our allies--
--
    Dr. Kagan. To put a nuclear weapon on it to----
    Senator Graham. Do you believe it should be the policy
    of the United States Congress and the next President to 
deny them that capability?
    Mr. Brimley. I believe so.
    Senator Graham. Would you support an Authorization to Use 
Military Force that would stop the ability of the North Koreans 
to develop a missile that could reach the United States? Do you 
think Congress would be wise to do that?
    Mr. Brimley. I think Congress should debate it. I remember 
distinctly the op-ed that Secretary William Perry and Ashton 
Carter----
    Senator Graham. Well, I'm going to introduce one. Would you 
vote for it if you were here?
    Dr. Kagan. Only if Congress was willing to do what was 
necessary to follow up----
    Senator Graham. Well, do you think Congress should be 
willing to authorize any President, regardless of party, to 
stop North Korea from developing a missile that can hit the 
homeland?
    Dr. Kagan. Only if Congress is willing to follow up with 
what might be required, depending on North Korea's response.
    Senator Graham. Well, what might be required is to stop 
their nuclear program through military force. That's why you 
would authorize it.
    Dr. Kagan. No, but I'm saying that if--I'm--the answer is 
yes, but then you also have to be willing, if North Korea 
launched----
    Senator Graham. Would you advise me----
    Dr. Kagan.--North Korea, that you'd have to be willing to--
--
    Chairman McCain. You have to let the witness----
    Senator Graham. Yeah, but he's not giving an answer.
    Dr. Kagan. Well, I thought I was giving an answer.
    Senator Graham. So, here's the question. Do you support 
Congress--everybody's talking about Congress sitting on the 
sidelines. I think a North Korean missile program is designed 
to threaten the homeland. I don't think they're going to send 
somebody in space. So, if I'm willing, along with some other 
colleagues, to give the President the authority, he doesn't 
have to use it, but we're all onboard for using military force 
to stop this program from maturing. Does that make sense to 
you, given the threats we face?
    General Keane. I don't believe that North Korea is going to 
build an ICBM, weaponize it, and shoot it at the United States.
    Senator Graham. Okay. Then you wouldn't need the 
Authorization to Use Military Force.
    General Keane. Right. The reason for that is----
    Senator Graham. That's fine.
    General Keane. The reason for--Senator, the reason they 
have nuclear weapons is--one reason. To preserve the regime. 
They know, when you have nuclear weapons, we're not going to 
conduct an invasion of North Korea. South Korea is not going to 
do it, we're not going to do it.
    Senator Graham. Why are they trying to build ICBM?
    General Keane. They want to weaponize it.
    Senator Graham. Do what with it?
    General Keane. I don't----
    Dr. Kagan. Preserve their regime.
    Senator Graham. Okay. All right. So, you would be okay with 
letting them build a missile?
    Dr. Kagan. No.
    Senator Graham. Would you, General Keane?
    General Keane. They're already building a missile.
    Senator Graham. Well, would you be willing to stop them?
    General Keane. I would stop them from using it, yes.
    Senator Graham. Okay.
    General Keane. I'm not going to stop them from building it.
    Senator Graham. Assad. Final question. Do all of you agree 
that leaving Assad in power is a serious mistake?
    Dr. Kagan. Yes.
    General Keane. Yes, absolutely.
    Senator Graham. Finally, do you believe 4 percent of GDP 
[gross domestic product] should be the goal that Congress seeks 
because it's been the historical average of what we spend on 
defense since World War II.
    General Keane. Pretty close.
    Senator Graham. Thanks.
    Chairman McCain. Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    I want to thank the witnesses for their testimony today and 
their years of service and helping the Members of Congress 
understand some of these very difficult issues.
    Dr. Kagan, your ``Of Paradise and Power'' was one of the 
most insightful books I've ever read. So--I'm not sure that's 
saying much, but--from me--but, it was a great book. So, 
thanks.
    I want to follow up on Senator Graham's questions. Also, 
Mr. Brimley, I actually really appreciated your point about 
cyber, how it, you know, can become the bright shiny object 
that every service is pursuing, and forgetting their 
comparative advantages. I think that's a really important 
point. A number of us had breakfast with the Commandant this 
morning, and that--the Marine Corps--and that came up.
    With regard to--I want to go back to North Korea. The issue 
of--you know, one of the concerns that we clearly have is that, 
within the next 2 to 3 to 4 or 5 years--and, you know, nobody's 
sure when, but it's certainly going to happen--is that they're 
going to have an intercontinental ballistic missile that's 
likely going to be able to range continental United States. 
They're already probably close to ranging my State of Alaska 
and Hawaii. The concern I have, along the lines of what Senator 
Graham was saying, is that the American people are going to 
wake up, whenever that happens, and all of a sudden it's going 
to be in the news and it's going to be wild reports and, you 
know, ``The President has to do something.'' If we know that's 
coming--and it is coming--my view is--and I'm wondering what 
your view is--that we should be doing a lot more on missile 
defense, because if--let's say he's able to get--you know, 
let's say he--he is an irrational actors, and let's say he has 
the ability to launch one or two, and we have a very robust 
missile defense. We'll be able to confidently shoot that down, 
retaliate massively, which should be really strong deterrence.
    So, can you just comment on that, but, more broadly, just 
on North Korea, all three of you? I'm really stuck by the--or 
struck by--you know, obviously, President Obama's strategic 
patience was a nice phrase, but didn't do anything. This is 
going to be a really, really big issue, maybe for this 
administration. You're already seeing the concerns we have 
here. If we know that, in 1 to 5 years, this guy, who's not 
very stable, is going to be able to range our country with an 
intercontinental ballistic nuclear missile, shouldn't we be 
doing something right now, missile defense or otherwise?
    General Keane. Well, we are doing missile defense, to a 
certain degree, as you well know.
    Senator Sullivan. Yeah, but it's not nearly as strong as 
it----
    General Keane. Some of it is in your State. I think what 
the new administration has to do is take a look at that threat 
that we're discussing, and also, you know, a rogue actor, not 
trying to destroy the United States, but firing a couple of 
missiles at the United States for some motivating reason. Is it 
appropriate that we have a capability to defend against that? A 
number of years ago, we identified Iran as a potential actor 
that could do something like that, and also North Korea. We 
began to put in place a missile defense strategy to deal with 
that. Now, we've pulled it out of Europe as a part of the 
ridiculous reset we did with the Russians, a major concession 
we made to them. I think this should be on the table with the 
new administration when they're looking at a national security 
strategy in dealing with both of those actors along this line, 
because I'm convinced the Iranians are going to get a nuclear 
weapon. Also, what North Korea has, to this day. I would--I 
agree with, I think, what you were feeding back to me, is that 
that missile defense infrastructure that we have is not 
adequate.
    Senator Sullivan. No.
    General Keane. So, let's take a look at what it would take 
to make it adequate, see what the investment strategy is, and 
see if that is a priority that we want to make. I would admit 
it is.
    Senator Sullivan. Wouldn't that buy time for the President, 
whoever that--if it's President Trump--you know, when this 
becomes the big news in 2 years, ``Oh, my goodness, he can 
range Chicago with a nuke.'' If we have a strong missile 
defense, the President's going to have some additional options 
that he might not have if we don't have anything or if we have 
a weak one, like we do now.
    Mr. Brimley. Senator, I agree. I worry deeply about the 
nature of the regime and if we see the mating of a nuclear 
capability with, say, a KN08 or one of the variants. I think 
that's deeply concerning. I think it's not just missile 
defense. It's comprehensive ISR [intelligence, surveillance, 
and reconnaissance] architecture. Frankly, it's both of those 
things forward-deployed in places like South Korea and Japan 
and other places. This gets back to the alliances-and-
partnerships question. I mean, the--missile defense and 
forward-deployed missile defense and all the concepts and 
operations and communications that requires with allies and 
partners ought to be a focus of the next defense strategy, for 
sure.
    Senator Sullivan. Dr. Kagan?
    Dr. Kagan. Well, this is a way--my answer answers a lot of 
the things that have been raised, including this issue, 
including space, including cyber, which is that we have been 
living in a series of delusions for years that somehow all 
these countries are not going to develop every capability they 
can possibly develop. We have been holding off or slowing down 
or not moving sufficiently quickly to develop the capabilities 
to stay ahead of their capability. So, we slowed down, I think, 
dumbed down our missile defense----
    Senator Sullivan. Yeah.
    Dr. Kagan.--efforts, because we decided it was somehow a 
violation of one thing or another. That was just foolish. I 
don't know--you guys that--know better than I do--whether he 
can build an ICBM faster than we can build the missile defense 
capability necessary to deal with it. Yes, and we ought to be--
and, by the way, that will be useful in dealing with China, 
too. I mean, I've always felt that one of the major ways to get 
the Chinese to put pressure on North Korea is for us to build 
up capabilities that have direct implications for Chinese 
strategic interests. So, a missile defense capability that we 
build up in response to Korea will also affect China's nuclear 
force. That gives them more incentive than any of these other 
efforts we've been making to try to push. So, I would say full 
speed ahead. What I don't know, as a technical matter, is, What 
does full speed ahead mean when we have been artificially 
capping what we even are trying to do?
    Senator Sullivan. Well, it means more than we're doing now.
    Dr. Kagan. Yeah.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman.
    Good morning. Welcome. Thank you for testifying here today.
    As all of you know, our Nation faces mounting challenges. 
State actors have become increasingly belligerent in recent 
years. Radical Islamic terrorism has metastasized in the Middle 
East and spread globally. We have failed to fund and build a 
military that is designed to meet the entirety of our strategic 
commitments. I look forward to working with the incoming 
administration to ensure that the security of our country and 
the welfare of every serviceman and -woman is among the very 
highest priorities.
    General Keane, as the next administration begins the 
process of designing our national security strategy, what 
advice would you give them with respect to the prioritization 
of our resources and efforts?
    General Keane. Well, first of all, the national security 
strategy should be job one and--in putting that together. Just 
as a--it'll drive foreign policy, and it'll drive the defense 
strategy. I think the Congress should also be informed about it 
as they're going through this process, because you have much to 
contribute, particularly this committee and Foreign Relations.
    Clearly, from a priority standpoint dealing with national 
security strategy, we start with the Nation's interests, and we 
also start with the threats. We start with the threats that are 
the most significant to us. We've spent a lot of time talking 
about this already. Those threats are coming at us from the 
revisionist powers: Russia, China, and Iran. That's--certainly 
are our top priorities. We've got radical Islam, which has 
morphed into a global jihad. ISIS, most successful terrorist 
organization in history, affiliating now with 35 country--even 
though it's still losing its caliphate. The Taliban, frankly, 
have more territory in Afghanistan under their control than at 
any time since 2001. That war, under current policy, is not 
winnable. We have to deal with that issue. Particularly 
frustrating after 15 years of involvement. This is the United 
States of America. Fifteen years of involvement, and we're 
still involved in a war that we can't win. I'm not suggesting 
we pull out of it.
    Those are major issues that we have to deal with. Another 
one is cyber. We've spent a lot of time talking about cyber 
here today. Our critical infrastructure is exposed. Our 
military needs to be hardened. This capability is growing, and 
our adversaries are exploding in the use of it.
    So, those are strategies that'll eventually lead to a 
defense strategy, which this committee has to deal with. I 
would hope, when the Department comes over here to discuss 
their defense strategy, that there really is some discussion 
about it. Because, listen--look what's happened to us. Do you 
remember, a number of years ago, that we had a defense strategy 
that was built around the anchor of defeating two regional 
conflicts? Remember that thought? We moved from defeating two 
regional conflicts to something less, that I can't even define. 
I don't know what it is. To tell you how sadly this is, we are 
fighting two--we fought two insurgencies in Iraq and 
Afghanistan--low-tech insurgencies, no air force, no navy 
involved--and we could not fight those two low-tech 
insurgencies simultaneously, Senator. We could not do it. We 
fought them sequentially. That's one of the reasons why we've 
got this problem in Afghanistan, because the ground forces were 
not large enough to fight two low-tech insurgencies 
simultaneously. We used to have a strategy that we were 
resourcing at one time to fight two major conflict 
simultaneously. We have to have a discussion about what it is 
we really are trying to do, and then resource it. That has--and 
that's what we haven't been doing, and that's the point you are 
making.
    Senator Cruz. Thank you, General.
    Let me shift----
    Chairman McCain. That's----
    Senator Cruz.--to a different issue, which is the potential 
for Iranian and North Korean nuclear proliferation. This is a 
question for Dr. Kagan. What concrete policy steps would you 
recommend to prevent cooperative nuclear proliferation between 
Iran and North Korea, and to promote enforcement of sanctions 
by China?
    Dr. Kagan. I'm trying to get Chinese leverage against North 
Korea. I believe--and I was saying this to the Senator before--
the best incentive to get Chinese to put more pressure on North 
Korea is to up our own strategic capabilities in East Asia, and 
making it clear that, for as long as North Korea continues to 
have--pose a growing threat, that means an increase in the 
American military presence along all different levels. So, 
particularly--we were just talking about missile defense. Any 
missile defense increase that we do in response to a North 
Korean potential ICBM with a nuclear weapon on it also impacts 
the Chinese nuclear force. That is an incentive for the Chinese 
to put more pressure than they're currently putting on North 
Korea right now.
    I think that, in terms of--I don't--diplomacy and 
sanctions, we can tighten sanctions, but, at this point, we 
need to put sufficient pressure on China, but it has to be 
pressure that's meaningful to them, and that's of a strategic 
nature if we're going to get any progress on dealing with North 
Korea.
    Second--other than that, we should be building up our 
missile defense capabilities much more in technologically 
advanced way and in--much faster to deal with that potential 
threat.
    As far as Iran is concerned, I don't believe we are 
ultimately going to prevent Iran from getting a nuclear weapon. 
They are determined to get it. We can slow them down. Whether 
we are ultimately going to prevent that, I think, it's highly 
unlikely. We either have to be-- your--the options are then 
obvious, we're either going to have to contain them when they 
have a nuclear weapon or we're going to have to prevent them 
from getting it, by force. That is the--those are the--in my 
view, those are the only real alternatives that we face.
    Senator Cruz. Thank you.
    Chairman McCain. Any additional comment on that?
    General Keane. I have one. I will disagree with the Doctor, 
here. I think we--this administration, despite the nuclear deal 
that has been made--I'm not suggesting that we tube the nuclear 
deal. I do believe we have to hold them accountable and have a 
tough inspection protocol, turn all of our intelligence 
agencies on it, and the rest of it. We know they're going to 
cheat. They have, before. It was an informant that gave us the 
Fordow secret site. I believe we need a policy, an unequivocal 
policy that says we are not going to let Iran have a nuclear 
weapon, and we would use the means necessary to stop it, if 
necessary. Iran with a nuclear weapon, I think, should be 
unacceptable to us, as a matter of national security policy.
    Chairman McCain. Mr. Brimley?
    Mr. Brimley. I disagree with General Keane's comments.
    Chairman McCain. You want to elaborate on that?
    [Laughter.]
    Mr. Brimley. Well, I just think--similar to North Korea, I 
mean, I worry about--particularly with North Korea and the 
nature of the regime itself, I think--you know, at the end of 
the day, I think--as objectionable as the Iranian regime may 
be, I think that they have proven to be rational actors. They 
have a strategy that makes sense from their perspective, that--
and we are countering it through various means. We can debate 
whether we need to do more.
    I worry more about North Korea. That's why--I mentioned the 
op-ed, I think before you got in, Senator, but that the 
Secretary of Defense Perry wrote with Dr. Carter--Dr. Ash 
Carter, who's now the Secretary of Defense, about 10 years ago, 
that argued in favor of preemptively taking out any long-range 
ballistic missile from North Korea that was mated with a 
nuclear capability. I think that debate ought to be had again, 
because that's the one scenario that I worry about probably 
more than most.
    Dr. Kagan. Could I----
    Chairman McCain. It was--go ahead, Dr. Kagan.
    Dr. Kagan. I just want to make sure I've slid myself in 
exactly where I want to be, here, because I don't like General 
Keane disagreeing with me. I'm not saying we should not be 
willing to use force to deal with Iran. I'm saying let's not 
kid ourselves that there is a middle option between containment 
and ultimately using force, because of their determination.
    The only thing that I would say, in both Iran and North 
Korea's case, is, let's also not assume that there is an easy, 
quick option, where we do a surgical strike and then it's all 
over and we can all go home. They have options, too, after that 
strike, and we--we can't walk into that unless we are willing, 
ourselves, to take next steps that may be necessary. That's the 
only--it's not what--if Senator Graham had been here, that's 
what I wanted to say to Senator Graham.
    Chairman McCain. I'll relay that to him.
    [Laughter.]
    Chairman McCain. Only a President of the United States can 
make decisions along the lines of what we are discussing, with 
or without, in some cases, the approval of Congress.
    I want to thank the witnesses. It's been extremely helpful, 
as every member who attended had commented. I thank you for 
your knowledge. I thank you for your service to the country. 
We'll be calling on you again.
    Thank you.
    This hearing is adjourned.
    [Whereupon, at 12:00 p.m., the hearing was adjourned.]

                                 [all]
</pre></body></html>
